 March 31, 2004
 Report No. 04-017


 Supervisory Actions Taken for
 Bank Secrecy Act Violations




               AUDIT REPORT
Material has been redacted from this document to
protect personal privacy, confidential or privileged
                   information.
                                                     TABLE OF CONTENTS

BACKGROUND ................................................................................................................2
    BSA Requirements for FDIC-Supervised Institutions ..............................................3
    Examination Authority..............................................................................................3
    Referrals to the Treasury Department .......................................................................4
    Regulatory Actions for Noncompliance....................................................................4
RESULTS OF AUDIT.......................................................................................................5
FOLLOW-UP FOR BSA VIOLATIONS SHOULD BE STRENGTHENED .............7
     Responsibilities Prescribed by BSA Laws, Regulations, and Policies....................8
     The FDIC Process for Follow-up and Other Supervisory Actions..........................8
       Handling of Repeat Violations ...........................................................................9
       Follow-up on Violations ..................................................................................11
       Inconsistencies in Describing Deficiencies and Citing Violations ...................13
          Deficiencies Described and Cited as Violations...........................................13
          Deficiencies Described and Not Cited As Violations...................................14
       Handling of Violations Related to CTRs ..........................................................16
       Handling of Referrals to the Treasury Department...........................................16
     Timeliness of Follow-up and Other Supervisory Actions .....................................17
CONCLUSION AND RECOMMENDATIONS...........................................................20
    Recommendations ...................................................................................................21
CORPORATION COMMENTS AND OIG EVALUATION .....................................21

APPENDIX I:       OBJECTIVE, SCOPE, AND METHODOLOGY.........................30
     Objective................................................................................................................30
     Scope and Methodology ........................................................................................30
     Management Controls Reviewed...........................................................................33
     Government Performance and Results Act............................................................34
     Fraud and Illegal Acts............................................................................................35
     Prior Audit Coverage.............................................................................................35
APPENDIX II: FDIC RULES AND REGULATIONS
                  (12 C.F.R. SECTION 326.8) ON BSA COMPLIANCE
                  AND FDIC GUIDELINES FOR MONITORING
                  COMPLIANCE WITH SECTION 326.8.......................................37
APPENDIX III: CONTROL AND PERFORMANCE STANDARDS
                   AND ASSOCIATED RISKS ..........................................................38
APPENDIX IV: AUTHORITY TO TAKE ENFORCEMENT ACTIONS FOR
                  BSA VIOLATIONS .........................................................................39
APPENDIX V: BSA VIOLATIONS REPORTED FOR 41 SAMPLED
                  FINANCIAL INSTITUTIONS ......................................................40
APPENDIX VI: SUMMARY OF BSA VIOLATIONS BY TYPE OF
                  VIOLATION FOR 41 SAMPLED FINANCIAL
                  INSTITUTIONS ...............................................................................41
APPENDIX VII: ACRONYMS ...................................................................................42
APPENDIX VIII: GLOSSARY .....................................................................................43
APPENDIX IX: CORPORATION COMMENTS ...................................................51
APPENDIX X: MANAGEMENT RESPONSES TO
               RECOMMENDATIONS ..............................................................134


TABLES
Table 1: Analysis of Composite Rating and Asset Size for Institutions
         for Which Regulatory Actions Were Imposed ...................................................10
Table 2: Supervisory Actions Taken for Similar BSA Violations ...................................12
Table 3: Time Taken to Address BSA Violations ............................................................17
Table 4: FDIC-Supervised Financial Institutions With BSA Violations From
         January 1, 1997 Through September 30, 2003 and
         Financial Institutions With Repeat Violations Based on ViSION Data .............31
Table 5: Financial Institutions Selected for Review.........................................................32
Table 6: Performance Measures Related to Supervision and Examinations ....................35
BACKGROUND

The Bank Secrecy Act of 1970, Public Law 91-508, codified to 31 U.S.C. Section 5311 et seq.,
requires financial institutions to maintain appropriate records and to file certain reports that are used
in criminal, tax, or regulatory investigations or proceedings. Congress enacted the BSA to prevent
banks and other financial service providers from being used as intermediaries for, or to hide the
transfer or deposit of, money derived from criminal activity. The BSA’s implementing regulation,
31 Code of Federal Regulations (C.F.R.) Part 103, is used to aid law enforcement agencies in the
investigation of suspected criminal activity such as illegal drug activities, income tax evasion, and
money laundering4 by organized crime.

The BSA consists of two parts—Title I, Financial Recordkeeping, and Title II, Reports of Currency
in Foreign Transactions.

         •    Title I authorizes the Secretary of the Treasury (Treasury Department)5 to issue
              regulations requiring insured financial institutions to maintain certain records related to
              financial transactions.

         •    Title II directs the Treasury Department to prescribe regulations governing the reporting
              of certain transactions by and through financial institutions in excess of $10,000 into,
              out of, and within the United States. A financial institution must file a Currency
              Transaction Report (CTR)6 with the Treasury Department for each cash transaction over
              $10,000 or multiple cash transactions by an individual in 1 business day or over a
              period of days aggregating over $10,000. The BSA also requires financial institutions
              to file Suspicious Activity Reports (SARs) with the Treasury Department when
              suspected money laundering activity or BSA violations occur.

Emphasis on anti-money laundering efforts has risen significantly in recent years, especially since
the events of September 11, 2001. For example, in response to those events, the Congress enacted
the United and Strengthening America by Providing Appropriate Tools Required to Intercept and
Obstruct Terrorism Act of 2001, Public Law 107-56 (USA PATRIOT Act, hereafter referred to as
the PATRIOT Act), which expands the Treasury Department’s authority initially established under
the BSA to regulate the activities of U.S. financial institutions, particularly their relations with
individuals and entities with foreign ties.7 The provisions of the PATRIOT Act were designed to
facilitate the prevention, detection, and prosecution of international money laundering and the
financing of terrorism.



4
 Money laundering is the process by which criminals or criminal organizations seek to disguise the illicit nature of their
proceeds by introducing them into the stream of legitimate commerce and finance.
5
 For reporting purposes, we will refer to the Secretary of the Treasury as the “Treasury Department.”
6
 According to DSC’s Manual of Examination Policies, Financial Recordkeeping and Reporting Regulations, dated
February 1999, law enforcement agencies have found CTRs to be useful in tracking cash generated by illicit drug
traffickers. Accordingly, comprehensive examination procedures have assisted in detecting possible money laundering
resulting from drug trafficking in federally insured financial institutions.
7
 Hereinafter, all references to the BSA will include the PATRIOT Act amendments.
                                                             2
                                        This Report Contains Confidential Information
                       For Official Use Only                                   Restricted Information
BSA Requirements for FDIC-Supervised Institutions

Section 326.8(b) of the FDIC’s Rules and Regulations, codified to 12 C.F.R. Part 326, requires each
FDIC-supervised institution to develop and administer a program to ensure compliance with the
BSA and 31 C.F.R. Part 103. The institutions’ boards of directors must approve the compliance
program in writing, and in accordance with Section 326.8(c), the program should include four
minimum requirements:

         •   a system of internal controls to assure ongoing compliance,
         •   independent testing for compliance with the BSA and 31 C.F.R. Part 103 to be
             conducted by bank personnel or an outside party,
         •   designation of individual(s) responsible for coordinating and monitoring compliance
             with the BSA, and
         •   training in BSA requirements for appropriate personnel.

Appendix II details the minimum requirements for FDIC-supervised financial institutions.

Examination Authority

The Treasury Department has overall authority for BSA enforcement and compliance; however, its
regulations delegate authority to financial institution regulatory agencies, including the FDIC, to
examine financial institutions for compliance. In this capacity, the FDIC has authority to
(1) examine the institutions it supervises for compliance with the BSA, (2) refer BSA violations to
the Treasury Department, and (3) impose regulatory actions for BSA violations. The FDIC is also
required by the Federal Deposit Insurance Act (FDI Act) to:

         •   prescribe regulations requiring insured depository institutions to establish and maintain
             procedures reasonably designed to ensure and monitor compliance with the BSA,
         •   review such procedures during their examinations of these institutions, and
         •   enforce compliance with the BSA monetary transaction recordkeeping and report
             requirements.

The FDIC also issues regulations, Financial Institution Letters (FILs),8 and other guidance to the
financial institutions that it supervises; updates Corporation examination and training materials; and
ensures that DSC examiners are adequately trained to monitor BSA compliance. DSC requires
examiners to use risk-focused examination procedures to assess BSA compliance.9 To accomplish
this, examiners may use (1) core procedures that are considered during the basic review,
(2) expanded procedures that are used to target concerns identified during the basic review, and
(3) impact analyses to assess the seriousness of identified deficiencies. To assess the impact of

8
 The FDIC uses FILs to correspond with the financial institutions that it supervises. FILs may be issued for a variety of
reasons, including notification of BSA requirements and other issues of principal interest to those responsible for
operating a bank or savings association.
9
 On August 15, 2003, the DSC issued interim guidance in Transmittal 03-042, Bank Secrecy Act Examination
Procedures, updating the BSA risk-focused approach. The objective of this approach is to effectively evaluate the
safety and soundness of the bank, including the assessment of risk management systems, financial condition, and
compliance with applicable laws and regulations, while focusing resources on the bank’s highest risks.
                                                            3
                                       This Report Contains Confidential Information
                      For Official Use Only                                   Restricted Information
deficiencies identified during the basic and expanded reviews, examiners determine whether BSA
violations and weaknesses:

       •   are serious and indicate the need for civil money penalties,
       •   necessitate referrals to law enforcement agencies,
       •   necessitate a cease and desist order for cases in which a mandatory BSA compliance
           program was not established or maintained, and
       •   affect the safety and soundness of the institution.

Appendix III provides DSC’s control and performance standards and the associated risks that
examiners may consider in assessing an institution’s BSA compliance program.

Referrals to the Treasury Department

According to referral guidelines issued by the Treasury Department’s Office of Financial
Enforcement in October 1990, the Treasury Department has a zero tolerance level for violations of
the BSA but recognizes that BSA violations are of a varying nature. The guidelines were designed
to assist the financial institution regulatory agencies in determining which BSA violations by banks
warrant referral to the Treasury Department “for review and possible assessment of civil and/or
criminal penalties” because referrals had been made “that were not significant enough to warrant
penalties.” The guidelines do not define what constitutes a significant violation. Rather, the
guidelines state, “Because the determination process often is subjective, sound examiner judgment
and experience also are required.” To assist with the determination process, the guidelines instruct
examiners to “assess all of the facts and circumstances surrounding the violations,” including
whether:

       •   the violations represent an isolated incident caused by human error;
       •   the deficiencies are indicative of significant noncompliance with the BSA and/or
           systemic weaknesses in the institution’s BSA compliance program;
       •   the types and nature of the violations are serious;
       •   the violations are the result of blatant, willful, or flagrant disregard for BSA
           requirements;
       •   there is a pattern of noncompliance with one or more sections of the regulations;
       •   the violations result from inadequate policies, procedures, or training programs; and
       •   the violations result from a nonexistent or seriously deficient compliance program.

DSC procedures require examiners to use the Treasury Department’s guidelines to determine when
a referral is appropriate.

Regulatory Actions for Noncompliance

Failure by a financial institution to comply with the BSA can result in regulatory sanctions by either
the Treasury Department or the FDIC. The BSA and its underlying regulations give the Treasury
Department the authority to assess civil money penalties for violations and to authorize criminal
prosecution. The FDIC is required to report all identified BSA violations to the Treasury
Department and to refer violations that warrant penalties. Such referrals, however, do not preclude

                                                         4
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
the FDIC from taking regulatory action when BSA violations are identified. As cited in 12 U.S.C.
1818(s), the FDIC shall issue a cease and desist order to any FDIC-supervised institution that fails
to establish and maintain appropriate BSA procedures or to correct any previously reported problem
with the procedures. DSC Transmittal 92-094, Bank Secrecy Act Compliance Examinations, dated
July 30, 1992, provides guidance for implementing this authority. Appendix IV summarizes the
Treasury Department and FDIC authority for enforcing compliance with BSA requirements.

RESULTS OF AUDIT

The FDIC needs to strengthen its follow-up process for BSA violations and has initiatives underway
to reassess and update its BSA policies and procedures. Of the 5,662 financial institutions that the
FDIC supervised on average for the period January 1, 1997 through September 30, 2003, FDIC’s
tracking system10 for BSA violations identified:

         •   2,672 financial institutions, or approximately 47 percent, as being cited for one or more
             BSA violations; and

         •   458 financial institutions, or approximately 17 percent of the 2,672 institutions, as having
             repeat BSA violations.11

Of the sample of 41 institutions we selected to review, 27 had repeat violations.12 Of those 27,
17 institutions (63 percent) were not subject to regulatory action for their repeat violations, although
other supervisory efforts may have been in progress. Of the 10 institutions that were subject to
regulatory action, only 1 was subject to a cease and desist order. DSC policy states that repeat
violations cannot be tolerated and that cease and desist orders should be initiated in such cases. In
addition, Section 8(s) of the FDI Act states that, “If the appropriate Federal banking agency
determines that an insured depository institution … has failed to correct any problem with the
[BSA] procedures … which was previously reported … by such agency, the agency shall issue an
order … requiring such depository institution to cease and desist from its violation….” However,
according to the FDIC’s Legal Division, enforcement authority always involves some element of
discretion, including consideration of the nature of the violation and supervisory judgment as to

10
  The DSC uses FDIC’s Virtual Supervisory Information on the Net system (ViSION) to track apparent BSA violations
cited in FDIC reports of examination. The DSC also uses ViSION to report BSA violations to the Treasury
Department.
11
  Although ViSION identified 458 institutions as having repeat violations, DSC reported that violations involving
different sections of the regulation may be grouped under the same violation code in ViSION, thus incorrectly
identifying some violations as repeats. However, because ViSION is DSC’s system for tracking apparent violations of
BSA, ViSION was used to select the sampled institutions for our audit and to obtain a general estimate of the
percentage of FDIC-supervised institutions with repeat violations. Of the 19 institutions in our sample that were
selected because they were identified in ViSION as having repeat violations, we confirmed that 18 had repeat
violations.
12
  Our sample of 41 institutions included 22 institutions selected randomly by regional/area office and 19 institutions
judgmentally selected because they were identified in ViSION as having repeat violations. As noted in footnote 11, we
confirmed that 18 of those 19 institutions had repeat violations. In addition, 9 of the 22 institutions that were selected
randomly also had repeat violations, resulting in 27 institutions with repeat violations. In addition, after issuance of the
draft report to DSC for written comment, the OIG identified one more institution that had a repeat violation. However,
because the DSC did not have an opportunity to review the circumstances related to that repeat violation and provide a
response, the OIG did not adjust the number of repeat institutions included in this report.
                                                             5
                                        This Report Contains Confidential Information
                       For Official Use Only                                   Restricted Information
how best to address the violation. Appendix V provides a recap of the institutions we reviewed, the
types of BSA violations identified, whether the institutions were cited for repeat violations, and the
types of regulatory actions taken.

For the 41 banks in our sample, we reviewed 82 reports13 that cited apparent and often multiple BSA
violations. For 25 (30 percent) of those 82 reports, the DSC waited until the next examination to
follow up on some or all of the BSA violations. In addition, we noted that not all BSA deficiencies
described in DSC’s examination reports were cited in the violations section of the reports.14 Also,
DSC’s regional offices took various approaches to handling violations related to the filing of CTRs
and to referring bank violations to the Treasury Department.

We also observed that DSC regional and field offices exercised wide discretion in deciding whether
and when to follow up on the violations or take regulatory action. In some cases, more than 1 to
5 years passed before (1) bank management took corrective action that was effective to prevent
repeat violations or (2) the DSC applied regulatory actions to address continuing violations.
Additionally, the FDIC typically alternates examinations with state banking authorities, but the state
examinations usually did not cover BSA compliance. As a result, 2 to 3 years can sometimes elapse
until the next FDIC examination without any follow-up on BSA violations.

As a result of these conditions, the FDIC has not always ensured that all identified BSA violations
have been included and tracked in ViSION and, therefore, has not ensured complete reporting to the
Treasury Department. Further, the FDIC’s supervisory actions have not ensured to the greatest
extent possible that institutions are in compliance with both the Treasury’s and the FDIC’s anti-
money laundering requirements.

In responding to our observations, DSC officials explained that they focus their efforts on BSA
compliance based on their assessment of the risk of money laundering activity for their supervised
institutions. DSC provided us with information on a number of cases not included in our sample for
which they believed supervisory efforts were successful in addressing BSA concerns. Additionally,
we noted that DSC is taking steps to update its BSA guidance and is conducting a reassessment of its
BSA-related policies and procedures. Furthermore, the FDIC is conducting a review of regulatory
burden and is researching ways to reduce the burden of BSA filing requirements for financial
institutions without hampering efforts to combat money laundering and terrorist financing.




13
  The 82 reports include 81 examination reports and 1 follow-up visitation report that cited at least one BSA violation
for the 41 sampled institutions and that were included in ViSION. The official draft report states that we reviewed 80
examination reports, but after issuance of the draft report to DSC for written comment, the OIG identified 2 additional
examination reports that cited BSA violations and had been included in our analyses.
14
   Based on discussions with DSC officials, cited violations are those violations included in the Violations of Laws and
Regulations schedule of the examination reports and should be recorded in ViSION.
                                                            6
                                       This Report Contains Confidential Information
                      For Official Use Only                                   Restricted Information
FOLLOW-UP FOR BSA VIOLATIONS SHOULD BE STRENGTHENED

For most of the 82 reports with BSA violations in our sample, the DSC initiated timely follow-up
and other supervisory actions or obtained timely evidence of bank corrective actions. However, in
some cases, BSA violations were repeatedly identified in multiple examination reports before bank
management took corrective action or the FDIC took regulatory action to address the repeat
violations. Further, for 25 (30 percent) of the examination reports, the DSC waited until the next
examination to determine whether a bank had corrected some or all of its violations. According to
one DSC official, each regional office exercises discretion in assessing bank compliance with BSA
requirements. The decision on whether and at what time to follow up on BSA violations is a
decentralized process and, in many cases, is based on the FDIC’s view from experience that the
institution represents a relatively “low risk” in terms of potential money laundering activities. This
decentralized process has resulted in a wide range of follow-up actions for BSA violations and of
elapsed time before supervisory actions are taken. As a result, the BSA compliance programs of
some institutions have remained weak for extended periods.

We sampled 41 of the 2,672 financial institutions with BSA violations for detailed review. Of those
41 institutions:

       •   35 institutions (86 percent) were cited for violations related to the Treasury Department’s
           financial recordkeeping and reporting requirements as prescribed in 31 C.F.R. Part 103,
           and

       •   29 institutions (71 percent) were cited for deficient BSA programs that did not meet the
           minimum requirements of the FDIC Rules and Regulations.

Regarding the Treasury Department’s Regulations at 31 C.F.R. Part 103, these financial institutions
were most frequently cited for:

       •   failure to file CTRs for nonexempted transactions over $10,000 (22 institutions);
       •   failure to maintain records on sales of monetary instruments of $3,000 through $10,000
           (16 institutions);
       •   failure to furnish information required in CTRs (14 institutions);
       •   untimely filing of CTRs or failure to retain CTRs for 5 years (13 institutions); and
       •   failure to treat multiple transactions totaling over $10,000 as a single transaction
           (10 institutions).

Regarding the FDIC’s Rules and Regulations Section 326.8, the 41 financial institutions in our
sample were most frequently cited for:

       •   lack of independent testing of BSA compliance (16 institutions),
       •   failure to develop or implement an adequate BSA compliance program (15 institutions),
       •   inadequate system of internal controls for BSA compliance (10 institutions), and
       •   failure to provide adequate BSA training (7 institutions).



                                                         7
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
Appendix VI summarizes the types of BSA violations and the numbers of institutions that had
violations for the 41 sampled financial institutions for the period January 1, 1997 through
September 30, 2003. These BSA violations included those recorded in ViSION and those not
recorded in ViSION that had been cited in examination reports.

Responsibilities Prescribed by BSA Laws, Regulations, and Policies

Based on our review of applicable BSA laws, regulations, and policies, the DSC is responsible to
take the following steps in identifying and addressing BSA violations:

       •   Examine FDIC-supervised institutions for compliance (12 U.S.C. 1818(s), Compliance
           with Monetary Transaction Recordkeeping and Report Requirements; 31 C.F.R.
           103.56(b), Enforcement; Section 10(b), Examinations, of the FDI Act; and 12 C.F.R.
           337.12, Frequency of Examinations, of the FDIC Regulations and Statements of General
           Policy).

       •   Identify and report BSA violations in reports of examination and report the violations to
           Treasury (DSC Transmittal 92-094, dated July 30, 1992; and Manual of Examination
           Policies, Financial Recordkeeping and Reporting Regulations, Section 9.4).

       •   Give institutions an opportunity to correct violations within a reasonable period after
           being notified of violations (DSC Transmittal 92-094, dated July 30, 1992).

       •   Verify corrective measures with a follow-up visitation/examination if needed (DSC
           Transmittal 92-094).

       •   Initiate a cease and desist order if an institution has failed to establish or maintain BSA
           procedures or failed to correct any previously reported problem with the procedures (12
           U.S.C. 1818(s) and DSC Transmittal 92-094).

       •   Impose civil money penalties for violations of cease and desist orders
           (12 U.S.C. 1818(i)(2)(ii)).

       •   Refer significant violations to the Treasury Department (Bank Secrecy Act Referral
           Guidelines for Financial Institutions, as incorporated into DSC Transmittal 91-020,
           dated January 31, 1991).


The FDIC Process for Follow-up and Other Supervisory Actions

The FDIC does not have a standard, nondiscretionary approach for determining when and how to
follow up on BSA violations. The process used to identify, track, and report BSA violations is
decentralized and is based on the judgment of DSC examiners, field office supervisors, case




                                                        8
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
managers, and regional office management.15 DSC officials stated that they apply a risk-focused
approach to BSA compliance, taking into consideration the specific demographics of each financial
institution when deciding whether to pursue supervisory actions and the type of action necessary.
According to DSC, those demographics may include the “overall profile” of an institution, including
its location, asset size, history of bank management in taking corrective actions, history of violations,
size of bank staff, assessment of risk related to anti-money laundering and the BSA, and composite
rating. Nevertheless, our review of DSC’s examinations for the sampled banks raised concerns
about instances where the FDIC:

        •    did not take regulatory or enforcement actions for repeat violations, or

        •    waited until the next examination to follow up on violations and verify whether
             corrective actions taken by bank management were effective.

In addition, we noted that DSC examiners sometimes cited BSA deficiencies in the violations
section of the examination reports and other times did not. We also noted that DSC’s regional
offices took varying approaches for handling violations related to the filing of CTRs and for
referring institution violations to the Treasury Department.

Handling of Repeat Violations

With respect to regulatory actions, the DSC imposed such actions on 10 (37 percent) of the
27 institutions we sampled that had repeat violations and on 1 institution that did not have repeat
violations. Of those 11 institutions for which regulatory actions were imposed:

         •    a cease and desist order was imposed for one institution,
         •    memorandums of understanding were imposed for six institutions,
         •    bank board resolutions were imposed for four institutions, and
         •    a state determination letter was imposed for one institution.16

Ten of these institutions had violations that related to both Treasury Department’s Part 103 and the
FDIC’s Section 326.8, and one institution had violations related to Treasury Department’s Part 103.

As shown in Table 1 on the next page, the regulatory actions were taken for institutions with varying
composite ratings and a wide range of asset sizes.




15
  One FDIC area office uses a BSA Watchlist to assist in monitoring compliance with BSA-related laws and
regulations. DSC officials stated that for those institutions that are included on the watchlist, a follow-up visitation
should be performed 6 months to 1 year after the examination that prompted inclusion, and an on-site follow-up should
occur at least every 12 months thereafter until removal from the watchlist. Removal from the watchlist is considered if
the on-site follow-up confirms adequate correction of prior BSA deficiencies.
16
   The numbers total 12 because for 1 institution, both a memorandum of understanding and a bank board resolution had
been imposed.
                                                            9
                                       This Report Contains Confidential Information
                      For Official Use Only                                   Restricted Information
Table 1: Analysis of Composite Rating and Asset Size for Institutions for Which Regulatory
Actions Were Imposed
                                                 Number Of                  Type Of Regulatory Action Taken
                                               Institutions For
                                                                             Number of               Number of
                                              Which Regulatory
                                                                          Institutions with       Institutions with
   Composite         Range Of Asset             Actions Were
                                                                          Informal Action          Formal Action
     Ratinga         Sizeb (millions)              Imposed
Composite              $5 - $122                       4                           4                     0
rating “2”
Composite             $23 - $190                         4                         4                     0
rating “3”
Composite             $10 - $72                          3                         2                     1
rating “4”
TOTALS                                                   11                        10                    1
a
 The composite ratings are those at time of violation for which enforcement action was issued.
b
 Asset size is based on September 30, 2003 data obtained from the FDICnet Institution Information/Institution
Directory.
Source: OIG review of the Formal and Informal Action Tracking System (FIAT) data, reports of examination,
supplemental information provided by the DSC, and the FDICnet Institution Information/Institution Directory.



Although regulatory actions were taken for 10 of the 27 institutions in our sample that had repeat
violations, regulatory actions were not imposed for the other 17 institutions that had repeat
violations. DSC’s memorandum on Bank Secrecy Act Compliance Examinations (Transmittal
Number 92-094) states that repeat violations cannot be tolerated. Furthermore, FDI Act section 8(s),
codified at 12 U.S.C. 1818(s), states, “the agency shall issue an order … to cease and desist” when
the institution “has failed to correct any problem with the [BSA] procedures … previously reported
to the depository institution….” Nevertheless, a cease and desist order was issued to only
1 institution in our sample that had repeat violations; 17 institutions (63 percent of the institutions in
our sample) with repeat violations were not subject to regulatory action by the FDIC.

According to the FDIC’s Legal Division, enforcement authority always involves some element of
discretion. Such discretion may include consideration of the nature of the violation, supervisory
judgment as to how best to address the violation, whether to apply formal or informal action, and
consideration of workload priorities and resource constraints. Also, the Legal Division indicated
that Section 8(s) establishes two key factors for consideration: (1) has the institution established a
BSA program? and (2) are there any problems with the program? Minor violations that are not
covered by one of these factors would not merit a cease and desist order under Section 8(s).
However, of the 17 institutions with repeat violations that were not subject to regulatory action, only
2 institutions did not have program violations.

The DSC’s Formal and Informal Action Procedures Manual does not specifically address BSA
violations, yet it does state that the belief that bank management has recognized deficiencies and will
take corrective action(s) is not sufficient, in and of itself, to preclude taking regulatory action. In
determining the appropriate regulatory action, DSC officials explained that, in the context of a risk-
focused examination, they consider several areas: bank management’s willingness to address
supervisory concerns and management’s history of responding to those concerns, demonstration of a

                                                             10
                                       This Report Contains Confidential Information
                      For Official Use Only                                   Restricted Information
good faith effort at correcting noted deficiencies, the condition of the institution, the overall risk
posed by the identified weaknesses, and other factors.

Follow-up on Violations

DSC’s process for following up on violations cited in reports of examination includes:

         •    a request for the report to be considered in the bank’s next board meeting, with a record
              of actions taken entered into the minutes;
         •    a request for bank management to provide a response indicating the actions taken to
              eliminate each cited violation or deficiency; and
         •    follow-up of the corrective actions at the next examination.

Because of the significance of BSA violations, we checked whether follow-up occurred before the
next examination. Specifically, for the institutions included in our sample, we checked how often
and by what method DSC followed up on whether corrective actions had been taken. We
considered evidence related to DSC’s follow-up actions or the banks’ corrective actions and
information from the Treasury Department. As a result of our analysis of the process and our
review of the 82 reports that cited apparent BSA violations, we found that:

        •    For 20 reports, DSC followed up or pursued regulatory action for certain violations
             before the next examination, including additional correspondence, visitations, and
             regulatory actions such as bank board resolutions, memorandums of understanding, or
             cease and desist orders.

        •    For 42 reports, DSC received evidence from bank management, Treasury’s Financial
             Crimes Enforcement Network (FinCEN), or the Internal Revenue Service (IRS) that
             certain violations had been corrected before the next examination, and in many of these
             instances, corrective action took place before the examination was completed.

        •    For 25 reports, DSC waited until the next examination to assess the adequacy of bank
             corrective actions for certain violations.17

In one case, a subsequent state examination followed up on violations cited by the DSC and pursued
the matter until the bank took corrective action. Most state examinations, however, did not cover
BSA compliance.

Table 2 provides examples of the variety of follow-up and regulatory actions taken by the FDIC to
address BSA violations. These examples are specifically related to violations cited for FDIC’s Rules
and Regulations Section 326.8. Appendix II provides a detailed description of the requirements in
FDIC’s Rules and Regulations Section 326.8.




17
  Note that the numbers do not total 82 because DSC used different follow-up actions for some examination reports that
cited multiple violations.
                                                           11
                                       This Report Contains Confidential Information
                      For Official Use Only                                   Restricted Information
      Table 2: Supervisory Actions Taken for Similar BSA Violations
      INSTITUTION
    IDENTIFICATION              VIOLATION                                                  SUPERVISORY ACTIONS
       NUMBER*
            4                  326.8(b)             The violation was cited during an ******, 1997 examination. It is a repeat violation initially cited
                                                    during the institution’s *********, , 1996, examination. A bank board resolution (BBR) was
                                                    adopted ********, 1998, more than 2 years after initial citation.
              12               326.8(b)             Violation was initially cited during the ********* 1998 examination for a combination of
                                                    deficiencies in the bank’s BSA Compliance program, including lack of independent testing. Bank
                                                    officials informed the FDIC that the 1998 violation had been corrected prior to the state 1999
                                                    examination by having a Certified Public Accounting firm conduct independent testing in ****
                                                    1998. The 1999 state examination did not identify any BSA violations. The bank was cited for a
                                                    repeat violation during the FDIC examination on **********, 2000 because independent testing
                                                    had not been conducted since 1998 and the bank had not kept the BSA program current and
                                                    approved annually. The *********, 2002 state examination cited the bank for lack of independent
                                                    testing because no testing had been conducted since 1998. The ******, 2003 examination did not
                                                    report this violation. No supervisory action was taken by the FDIC. FDIC officials stated “. . .
                                                    that it should be noted that Part 326 does not specify the frequency of the required independent
                                                    testing. The Guidelines for Monitoring Bank Secrecy Act Compliance (issued by FIL 29-96)
                                                    indicate that annual testing should be conducted, but guidelines cannot be “violated” – there can
                                                    be violations only of regulations.”
              15               326.8(b)             As a result of violations related to safety and soundness, the FDIC and bank management signed a
                                                    memorandum of understanding (MOU) on ******, 1999, which placed numerous requirements on
                                                    the institution for compliance. Although the MOU did not specifically address BSA violations, it
                                                    did refer to the requirement to correct violations of all laws. After the ********, 2000
                                                    examination during which BSA violations were reported, the FDIC continued the MOU. The
                                                    institution’s progress report for **** 2000 indicated that all violations had been corrected. The
                                                    MOU was terminated ********, 2001.
              1                326.8(c)(2)          The violation was reported during the *********, 2000 FDIC examination. Based on that
                                                    examination, bank management agreed to have testing performed in ******** 2000. However,
                                                    the violation was identified as a repeat violation during the *********, 2002 state examination.
                                                    Bank management provided evidence that the independent testing was completed on ******** ,
                                                    2002—almost 2 years after initial citation.
              19               326.8(c)(2)          Violation was initially cited during the *********, 1999 examination and was repeated during the
                                                              2001 and *********, 2003 examinations. As a result of the****** , 2001 examination,
                                                    the state regulatory agency placed the bank under a Determination Letter, which was related to
                                                    various safety and soundness concerns and required the bank to correct all violations of law,
                                                    including the apparent BSA infractions. The institution was required to provide quarterly progress
                                                    reports. The ********, 2003 quarterly report indicated that the BSA violation had been addressed
                                                    and reviewed. The next examination conducted in *** 2003 indicated that all BSA violations had
                                                    been corrected, and no additional violations were cited.
              29               326.8 BSA            Violations of 326.8(b) BSA Compliance Program and 326.8(c)(2) lack of independent testing
                               Compliance           were cited during the 1998 examination, and a violation of 326.8(b) was cited during the 2000
                               Program and          examination. FDIC’s comments for this institution indicated that officials did not consider the
                               326.8(c)(2)          violations to be systemic; bank management promised appropriate action; and given the positive
                                                    relationship with the regulatory agencies in the past, there was no reason to think that corrective
                                                    action would not be taken; and enforcement action did not appear warranted. Further, FDIC
                                                    officials stated that bank management was able to demonstrate a good faith effort at correcting the
                                                    noted deficiencies and that although it took two examination cycles to clear the violations,
                                                    improvement was noted at each examination.
              33               326.8(c)(2)          Violation was cited during the ******* , 2001 examination. The institution provided evidence
                                                    that corrective action was taken 14 months after the examination.
              37               326.8(c)(2)          Violation was first cited during the ****** 1997 examination and was included as repeat violation
                                                    during the *******, 1999 and********, 2002 examinations. The FDIC issued a cease and desist
                                                    order effective *******, 2002, pursuant to Section 8(s)—over 5 years after initial citation—solely
                                                    for violations related to lack of independent testing and employee training for BSA. The FDIC
                                                    conducted a visitation on **********, 2002 and determined the bank to be in substantial
                                                    compliance with most provisions of the order. The order was terminated ***********, 2002.
*
  The number shown in this column represents the identification number assigned for the institution. Since most of the institutions included in the OIG
sample are open banks, the names of the institutions are not used for identification purposes. The numbers correspond with data shown in Appendix V.

                                                                             12
                                                 This Report Contains Confidential Information
                                For Official Use Only                                   Restricted Information
Source: OIG review of ViSION data, reports of examination, and supplemental information provided by DSC regional and area office officials.
      As evidenced by Table 2, supervisory approaches and the time taken for follow-up on BSA
      violations varied.

      Inconsistencies in Describing Deficiencies and Citing Violations

      In reviewing DSC’s reports of examination, we observed several instances of BSA deficiencies
      described in the reports but not cited in the Violations of Laws and Regulations section of the
      reports. On the other hand, we also noted instances of similar BSA deficiencies that were cited as
      violations. Deficiencies that are described in the reports of examination not cited as violations
      may receive less attention from bank management or in follow-up by the DSC. According to
      DSC officials, the examiners exercise judgment in determining the significance of BSA concerns.
      That judgment includes determining whether the weaknesses constitute:

                  •    apparent violation of laws or regulations, meriting inclusion in the violations section
                       of the examination report, or

                  •    noncompliance with DSC guidelines, meriting only mention in the report as matters
                       for bank management’s attention, which may be sufficient to eliminate concern.

      For example, DSC officials stated that citing an institution for a lack of independent testing would
      be appropriate if no testing was being conducted; however, the institution would not be cited in
      cases in which independent testing was being conducted but the frequency or areas of coverage
      could be enhanced. However, we noted several instances of inconsistency in the handling of BSA
      deficiencies.

      Deficiencies Described and Cited as Violations

      During an examination conducted in **** 2003, a bank was cited for

            •    failure to develop a BSA compliance program and provide for the continued
                 administration of such program because the bank had weak internal controls and did not
                 provide annual independent testing,

            •    lack of independent testing of BSA compliance because the bank’s BSA policy did not
                 address annual independent testing, and

            •    failure to provide adequate BSA training because the bank’s BSA policy did not address
                 annual training to be provided to all employees.

      In addition, the management assessment section of the examination report stated that an outside
      firm had performed a limited review of BSA and recommended that the scope of independent
      testing be expanded.

      In another example, during a *** 2000 examination, examiners cited a bank for lack of
      independent testing. The examination report noted that the bank’s BSA policy provided for a

                                                                           13
                                                This Report Contains Confidential Information
                               For Official Use Only                                   Restricted Information
system of independent testing for compliance with the BSA, but that independent testing had not
been conducted. Additionally, the report stated that the independent review did not address
exemptions,18 a test of the bank’s recordkeeping system and the recordkeeping requirements for
wire transfers and the sale of monetary instruments.

During an ****** 2000 examination, a bank was cited for overall noncompliance with the BSA
compliance program requirements because of noted “weaknesses” in the bank’s training efforts
and independent testing procedures. The report further stated that while independent testing was
not conducted in 1998 or 1999, the testing that was conducted in 2000 was too narrow in scope
and did not review wire transfer activity. The examiner cited the bank for failure to develop or
implement an adequate BSA compliance program, indicating overall noncompliance with BSA
regulations, and did not limit the violation specifically to a lack of independent testing.

Deficiencies Described and Not Cited as Violations

In contrast to deficiencies cited as violations, we noted instances in which significant
deficiencies were described by examiners but were not cited as specific violations:

        In a **** 1997 examination report, DSC did not cite a bank for lack of independent
        testing even though the report specifically stated that bank management did not adhere to
        the policy guideline that required comprehensive audits of the BSA function. In addition,
        the report stated that certain transactions (currency) were not properly reported and that
        numerous errors in transaction reports were the result of the inadequate review and audit
        procedures. These deficiencies resulted in several violations cited in the 1997 report,
        such as failure to file CTRs, failure to properly document CTRs, and inadequate
        verification of customers’ identification, but not lack of independent testing. Further, the
        2000 examination report stated that (1) the lack of independent testing of the BSA
        program and weaknesses in internal reviews of CTRs resulted in apparent violations,
        (2) the apparent violations related to the failure to provide for independent testing of the
        BSA program and the filing of CTRs with incomplete and inaccurate information, and
        (3) the independent testing deficiency was noted at the 1997 examination and remains
        uncorrected. The examiners cited the institution for failure to develop or implement an
        adequate BSA compliance program. For the subsequent examinations conducted in 2001
        by the state regulatory agency and in 2002 by the FDIC, no violations related to
        independent testing were noted. The state examination noted that independent testing
        was being performed.

        In another examination report for an ****** 1997 examination, examiners described the
        bank’s BSA compliance program as severely lacking and further stated that there were
        serious deficiencies in the program. The examination report indicated that the BSA
        compliance program did not address record retention; internal procedures for detection,
        prevention, and reporting of large currency transactions and suspicious transactions
        related to money laundering activities; or written procedural guidelines for meeting the
        reporting and recordkeeping requirements of the BSA regulations. In addition, examiners

18
 The term “exemption” refers to instances in which banks are not required to file CTRs for transactions by certain
categories of “Exempt Persons.” Exemptions are further defined in Appendix VIII.
                                                         14
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
       noted that the program lacked an effective system of internal controls to ensure ongoing
       compliance. Further, examiners noted that no formal auditing procedures were evidenced
       that would confirm the integrity and accuracy of the systems for reporting large currency
       transactions. The bank’s internal auditor did perform a limited review, but did not
       include a review of tellers’ work or independent testing of currency transactions. Audit
       procedures also were lacking for adherence to recordkeeping and/or retention
       requirements. As a result of this examination, the bank was cited in the violations section
       of the examination report only for an inadequate system of internal controls and various
       violations related to Treasury Department’s Part 103. The bank’s deficiencies related to
       the lack of independent testing did not result in the citation of an apparent violation. In a
       joint examination conducted in 1998, the institution was cited for a lack of independent
       testing, an inadequate system of internal controls, and a violation related to Treasury
       Department’s Part 103.

       In a ****** 2003 report of examination, examiners stated that the frequency of
       independent testing was inadequate and that the frequency of testing should be increased
       to monitor the integrity of internal controls and procedures and assure compliance with
       related regulations and bank policy. The report also described deficiencies related to an
       inadequate system of internal controls. The examiners recommended that both the
       manual cash log and the automated system be used to ensure CTRs were filed and that
       tellers received training on the sequencing of cash transactions. However, the bank was
       not cited for a lack of internal controls to address the identified deficiencies or a lack of
       independent testing. Although a BSA data entry form was attached to the back of the
       examination report, indicating a citation for the lack of independent testing, the violation
       was not included in the violations section of the examination report and did not appear in
       ViSION. The bank was cited only for one violation—failure to file CTRs.

DSC officials stated that banks are not required to conduct independent testing on an annual
basis, although annual testing is recommended in DSC Guidelines for Monitoring Bank Secrecy
Act Compliance, dated August 1, 1996. DSC officials stated that because Section 326.8(c) states
that independent testing should be conducted by bank personnel or an outside party and does not
specifically require “annual” testing, BSA weaknesses involving a lack of annual testing should
not be cited as violations. DSC officials added that banks cannot violate “guidelines”—rather,
violations should be cited for noncompliance of laws or regulations only. However, our review
of examination reports indicated that examiners were not consistent in this area. When citing
violations related to independent testing, the examiners sometimes stated in their reports that
banks were required to perform annual testing and used the DSC’s guidelines rather than the
regulations as the basis for citing such violations. DSC officials also stated that banks would not
necessarily be cited for a violation of independent testing if at least some testing was being
conducted; however, examiners did cite some violations when testing needed to be expanded.

DSC officials also stated that examination reports go through multiple levels of review.
Specifically, officials stated that the reports of examination are reviewed at the field supervisory
and case manager level, and by regional office management, who all have the opportunity to
reclassify these deficiencies as violations if they think a case warrants such reclassification. In
addition, DSC officials stated that examiners are expected to use their judgment in determining

                                                       15
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
whether BSA deficiencies should be cited as violations. Officials added that examiners include
these deficiencies in reports of examination as a means to bring those issues to bank
management’s attention. Further, bank management is required to address not only the cited
violations, but also weaknesses that are described in reports of examinations.

Handling of Violations Related to CTRs

We also noted variations in the handling of violations related to CTRs. While conducting
examinations, examiners identified instances in which financial institutions had improperly
exempted customers from currency transaction reporting requirements or otherwise failed to file
CTRs in accordance with 31 C.F.R. Part 103. According to DSC Transmittal 1993-149,
Extension of Filing Deadline for Currency Reports Filed Transaction on Magnetic Tape, dated
October 14, 1993, CTRs must be filed with the IRS within 15 days following the date of the
transaction (25 days if the financial institution files electronically). For those institutions that did
not file CTRs within the specified timeframe, FinCEN requests that examiners have bank
officials request permission to backfile CTRs. DSC regional offices did not handle violations
related to the backfiling of CTRs in a consistent manner. Some offices required the institutions
to request permission to backfile, while other offices allowed the institutions, in cases that
involved one or two CTRs, to file without requesting permission to backfile.

Handling of Referrals to the Treasury Department

DSC referrals of bank violations to the Treasury Department were infrequent. According to
information provided by the DSC, 34 referrals were made from January 1, 1997 to
December 31, 2003, and 28 referrals (82 percent) were made by 1 DSC regional office. DSC
officials added that since the FDIC reports summary information on BSA violations to the
Treasury Department through ViSION, Treasury sometimes requests copies of applicable
examination reports based on Treasury’s analysis of the violations. The following actions have
resulted from the referrals made by the FDIC from January 1, 1997 through December 31, 2003

        •   27 institutions received cautionary letters or letters of warning from the Treasury
            Department,

        •   1 institution received a civil money penalty,

        •   3 referrals were resolved by other means, and

        •   3 referrals were still open.

The Treasury Department’s 1990 referral guidelines state that one of the reasons the guidelines
were issued was that referrals had been made that were not significant enough to warrant
penalties. Consequently, it may be advisable for DSC to discuss the referral guidelines with the
Treasury Department and to request clarification. Treasury’s priorities and approaches to
penalties for BSA violations may have changed since the guidelines were issued over 13 years
ago.


                                                       16
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
Timeliness of Follow-up and Other Supervisory Actions

The timeliness of follow-up and other supervisory actions varied among the regional and area
offices. The time period ranged from immediate (during the examination process) to over 5 years
for bank management corrective action, FDIC verification of corrective action, or FDIC
regulatory action. During the extended time frames, subsequent examinations determined that
some previously cited BSA violations remained uncorrected even though bank management may
have indicated it would take corrective action.

For 27 of the 41 financial institutions we reviewed, the examination reports or supplemental
information provided by DSC showed that bank management promptly addressed certain BSA
violations during the examinations or within a 12-month period after the examinations as noted
below:

        •   Violations at 14 institutions related to the Treasury Department’s Part 103 only -- the
            financial recordkeeping and reporting requirements for CTRs and exemption status
            for specific customers;
        •   Violations at 4 institutions related to Treasury Department’s Part 103 and the FDIC’s
            Section 326.8.
        •   Violations at 4 institutions related to Treasury Department’s Part 103, the FDIC’s
            Section 326.8, and Section 353.3.
        •   Violations at 3 institutions related to the FDIC’s Rules and Regulations,
            Section 326.8 only.
        •   Violations at 2 institutions related to the Treasury Department’s Part 103 and the
            FDIC’s Rules and Regulations, Section 353.3.

In other cases, bank management did not take action to correct cited BSA violations within a 12-
month period. In these cases, more than 1-5 years elapsed before bank management took
corrective action or the FDIC took regulatory action to address the violations as shown in
Table 3. These cases included violations cited for both Treasury’s Part 103 and the FDIC’s
Rules and Regulations, Section 326.8 and Section 353.3.

Table 3: Time Taken to Address BSA Violations
    LENGTH OF TIME FOR ACTION                 NUMBER OF INSTITUTIONS*
            12 months or less                           27
            13 months-24 months                         13
            25 months-36 months                         16
            37 months-48 months                         10
            49 months-60 months                          1
            More than 60 months                          8
*
 The number of institutions will exceed the 41 sampled institutions because the length of time varied for
institutions with multiple BSA violations.
Source: OIG analysis of ViSION data and review of evaluation reports and supplemental information provided
by DSC for the 41 sampled institutions.




                                                       17
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
DSC officials stated that follow-up on BSA violations often occurs at the next FDIC examination
rather than between examinations. Although the FDIC can conduct visitations between regularly
scheduled examinations, we identified only a few visitations based on information provided by
the DSC that addressed BSA violations.

Generally, the FDIC alternated examinations of the sampled institutions with state regulatory
agency examinations for those institutions. However, 45 of the 72 examination reports we
reviewed from state regulatory agencies did not specifically address BSA compliance.
Therefore, the FDIC could not rely on those examinations to determine whether bank
management took corrective actions to address previously cited violations or to identify any new
BSA violations. Consequently, follow-up by the FDIC on some previously cited BSA violations
did not occur until the next FDIC examination, generally 24 to 36 months after the violations
were initially identified.

The following examples illustrate inadequate follow-up on BSA violations and regulatory
actions imposed and the timeliness of those actions.

          •    During a joint examination conducted in ****** 1997, examiners identified significant
               deficiencies in the bank’s BSA policies and operating procedures. Examiners
               concluded that the bank’s BSA compliance program was inadequate and in immediate
               need of revision. The bank was cited for:

                         failure to have an adequate written bank board of directors-approved BSA
                          compliance program,
                         lack of independent testing of BSA compliance,
                         failure to designate individuals responsible for BSA compliance,
                         failure to provide adequate BSA training—overall noncompliance with the
                          FDIC’s Section 326.8 minimum requirements—and
                         one violation related to Treasury’s Part 103.

              The bank’s president promised to take corrective action necessary for the cited
              violations. At the ***** 1999 examination, the bank was cited for having an
              inadequate system of internal controls and lack of independent testing. During the ***
               2***** 2002 examination, the bank was cited for numerous violations of Treasury’s
              Part 103, an inadequate system of internal controls for BSA compliance, and SAR
              violations. FDIC officials stated that no follow-up visitation was conducted for this
              institution after the ***** 1999 examination and that given the promise of corrective
              action by the bank president within 90 days of receipt of the report, as stated in the
              report of examination, further follow-up was apparently determined to be unnecessary.
              In ****** 2003, however, the FDIC entered into a Memorandum of Understanding
              with the bank for various safety and soundness issues and BSA compliance concerns.

      •       During examinations conducted in **** 1997,**** 1999, and ****** 2002, a bank was
              cited for violations related to the lack of independent testing of BSA compliance,
              failure to provide adequate BSA training, and violations related to the Treasury
              Department’s Part 103. However, no adequate bank corrective action or supervisory

                                                          18
                                      This Report Contains Confidential Information
                     For Official Use Only                                   Restricted Information
         action was taken until after the ****** 2002 examination. The FDIC issued a cease
         and desist order effective ******, 2002, more than 5 years after the violations were
         initially cited. Violations related to the lack of independent testing and failure to
         provide adequate BSA training were repeat violations during the 1999 and 2002
         examinations. The DSC issued a cease and desist order on ******, 2002 which was
         terminated in ******** 2002.

     •   During an examination conducted in *** 1998, a bank was cited for violations related
         to a lack of independent testing for BSA compliance and failure to designate
         individual(s) responsible for BSA compliance. Violations of lack of independent
         testing was cited again during the ******* 2001 and ******2003 examinations—three
         consecutive FDIC examinations. Supervisory action was not taken until ****** 2003,
         when the FDIC, state regulatory authority, and the bank signed a memorandum of
         understanding to correct the BSA violations, more than 5 years after the violations were
         initially cited.

     •   During an ****** 1998 examination, a bank was cited for violations related to the
         failure to file CTRs, failure to furnish information on CTRs, improper exemptions, and
         failure to develop or implement an adequate BSA compliance program. The next
         examination, conducted in **** 2001, cited the bank for: failure to follow identification
         procedures or failure to record identification method, untimely filing of CTRs or failure
         to retain CTRs for 5 years, failure to furnish information required in CTRs, and failure
         to develop or implement an adequate BSA compliance program. DSC officials stated
         that the violations cited in the 1998 examination and repeat violations cited in the 2001
         examination triggered a supervisory response requiring a progress report from the bank
         and the on-site visitation conducted in ******** 2001.

         DSC conducted a follow-up visit in ******** 2001 and cited the bank for continued
         violations for: failure to file CTRs for nonexempted transactions over $10,000,
         untimely filing of CTRs or failure to retain CTRs for 5 years, and failure to furnish
         information required in CTRs. The visitation showed that bank management’s
         documentation of BSA training efforts needed improvement, the scope of the
         independent review needed to be enhanced, and internal controls could be strengthened.
         The visitation also noted a couple of previously cited violations involving transactions
         prior to the **** 2001 examination that either had not been corrected or the bank had
         not retained evidence of correction. Further, the visitation identified new violations
         related to the failure to furnish information required in CTRs, no record at FinCEN of
         IRS receipt of CTRs, and untimely filings of CTRs or failure to retain CTRs for 5 years.
         Based on the progress report and the visitation, DSC concluded, however, that the bank
         was making a good faith effort to comply with BSA and deemed that no further
         supervisory efforts were necessary other than regular examinations.

In contrast to the previous examples, DSC took prompt action for an institution with similar
violations. During a joint examination conducted in **** 2003 by the FDIC and the state
regulatory agency, the examiner concluded that the bank’s BSA program was less than
satisfactory and further stated that the bank was in apparent violation of virtually every

                                                      19
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
requirement of Section 326.8 of the FDIC Rules and Regulations. The bank was cited for the
following violations related to the Treasury Department’s Part 103, FDIC’s Section 326.8 and
Section 353:

     •   failure to file CTRs for nonexempted transactions over $10,000;
     •   failure to treat multiple transactions totaling over $10,000 as a single transaction;
     •   failure to develop or implement an adequate BSA compliance program;
     •   failure to have adequate written board-approved BSA compliance program;
     •   inadequate system of internal controls for BSA compliance;
     •   lack of independent testing of BSA compliance;
     •   failure to designate individuals responsible for BSA compliance;
     •   failure to provide adequate BSA training; and
     •   various violations related to SARs.

Within 6 months after the examination, the FDIC issued a proposed cease and desist order. The
bank responded with evidence that it had taken material steps to improve its BSA compliance.
DSC conducted a visitation the following month to assess the bank’s progress and concluded that
the bank had exerted considerable effort in addressing the violations but that additional effort
was necessary to make the bank’s BSA program satisfactory. After the visitation, the DSC
provided an MOU to the institution to address the remaining concerns. The MOU became
effective in ******* 2004.

As discussed previously, the DSC conducts examinations of its supervised institutions on a 12-
or 18-month cycle and usually alternates examinations with state regulatory authorities. Since
the state regulators do not usually review BSA compliance at their examinations, 2 to 3 years can
elapse until the next FDIC examination without any follow-up on BSA violations. This delay in
ensuring that BSA violations are corrected could result in additional or continued BSA violations
and could hinder the detection of criminal activity.


CONCLUSION AND RECOMMENDATIONS

The DSC has adequately followed up on some BSA violations to ensure bank management has
taken appropriate corrective action. However, the DSC could better ensure that prompt and
effective actions are taken by bank management to ensure compliance with BSA regulations.

In light of the increased congressional interest in BSA compliance and emphasis on national
security concerns, DSC should re-evaluate and update its examination guidance to help ensure
adequate DSC follow-up and timely corrective action by bank management. DSC should also
discuss and update the referral policy with the Treasury Department, encourage state coverage of
BSA compliance, and develop alternative processes to compensate for the lack of state coverage
of BSA compliance. We noted that DSC is currently conducting a reassessment of its BSA-
related policies and procedures to update its BSA guidance and may be able to address our
recommendations in conjunction with this assessment.



                                                      20
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
Recommendations

We recommend that the Director, DSC:

            (1) Re-evaluate and update examination guidance to strengthen monitoring and
                follow-up processes for BSA violations, including:

                •     prompt, appropriate, and consistent regulatory action in cases where
                      management action is not timely, including cease and desist orders for repeat
                      violations as appropriate;

                •     consistent and timely follow-up of BSA violations between examinations to
                      ensure management is taking corrective action;

                •     consistent citation and recordation of all apparent violations in reports of
                      examination and in ViSION; and

                •     a consistent approach to the backfiling of CTRs.

            (2) Review DSC’s implementation of the process for referring institution violations
                of BSA to the Treasury Department, and discuss with Treasury the need to
                update or modify the referral guidelines based on changes in priority and
                approach in recent years.

            (3) Coordinate with state regulatory agencies to cover BSA compliance in state
                examinations of FDIC-supervised institutions and for those states that do not
                cover BSA compliance, develop an alternative FDIC process to address BSA
                compliance when relying on alternating state examinations.


CORPORATION COMMENTS AND OIG EVALUATION


On March 22, 2004, the DSC Director provided a written response to the draft report. The
response is presented in Appendix IX to this report. DSC concurred with the three
recommendations. As part of its appended response, DSC provided a legal opinion by the FDIC
General Counsel and an unaudited DSC internal assessment of its program to evaluate bank
compliance with the BSA.

In addressing Congress’s intent in Section 8(s) of the FDI Act, which states that the appropriate
federal banking “agency shall issue an order… requiring such depository institution to cease and
desist from its violation” in cases of repeat violations of requirements for establishing and
maintaining BSA procedures, the General Counsel’s legal opinion provides the following
guidance:



                                                         21
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
       The absence of a mandate to bring a cease and desist action to address every violation of
       Section 8(s) or the regulations does not imply that the alternative is to take no action. To
       the contrary, the statutory intent must be to take an appropriate corrective action based
       upon the severity of the problem, the risks it poses, and the bank’s willingness to comply
       expeditiously.

The audit, however, identified cases where DSC had not taken regulatory action to address repeat
violations of these BSA requirements. We also observed numerous violations for which bank
management indicated a willingness to take corrective actions to prevent recurrence of those
violations. However, in several cases, corrective action either was not implemented or was
implemented but was not effective in preventing repeat violations. In our opinion, a bank’s
indicated willingness to correct violations should be only one factor considered in determining
whether to impose regulatory action. This conclusion is also supported by the FDIC’s Formal
and Informal Action Procedures Manual, which states that “The belief that the institution’s
management has recognized the deficiencies and will institute corrective action is not a sufficient
basis, in and of itself, to preclude taking corrective action.”

DSC’s response provided detailed analyses and comments on several issues that relate to DSC’s
overall BSA program. Because our audit focused on supervisory actions taken in response to
BSA violations, not DSC’s overall BSA program, we offer no response to these comments.
However, in reviewing DSC’s other comments that relate generally to our audit and specifically
to our audit results and scope, there are several issues that warranted further discussion and
clarification.


General DSC Comments on Audit

1. DSC Statement:
 “. . . the DSC’s approach has been to differentiate between serious BSA program problems
within an institution versus isolated and technical weaknesses. In practice, isolated and technical
weaknesses can be addressed within the normal course of supervisory process.”

OIG Response:
During this audit, DSC officials initially stated that they do not “. . . generally characterize BSA
violations as either substantive or technical,” consistent with the “zero tolerance” policy
espoused by the Treasury Department. Accordingly, we included in the universe for the selected
sample all BSA violations recorded in ViSION. We based our analyses and conclusions on the
premise that DSC’s approach to such violations would not differentiate between substantive and
technical violations. After being provided the preliminary results of the audit, DSC then
indicated that, in fact, it does differentiate between BSA violations based on significance, but
could provide no basis upon which these determinations are made. Contrary to DSC’s assertion,
for the sample of institutions we reviewed, we found little or no evidence to indicate that there
was a distinction made among BSA violations in deciding whether or in what manner follow-up
action would be taken.



                                                      22
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
2. DSC statement:
“Therefore, we do not concur with the inference that the FDIC’s supervisory actions are
materially lacking or that an increased risk of money laundering exists in the institutions for
which we are the primary federal regulator.”

OIG response:
We continue to conclude that the FDIC needs to strengthen its follow-up process for BSA
violations, based on the following:

   o Of the 41 institutions sampled, 27 institutions (66 percent) had repeat violations for
     multiple examinations; 17 (63 percent) of the 27 institutions did not have any type of
     regulatory action imposed.
   o Of the 17 institutions for which no regulatory actions had been taken, 15 had repeat
     violations related to FDIC’s Section 326.8, which establishes the minimum requirements
     for a BSA compliance program.
   o We reviewed 82 reports for the 41 sampled institutions. Twenty-five (30 percent) of the
     reports cited violations for which the DSC waited until the next examination to follow up.
     Additionally, in many cases, alternating examinations conducted by state regulatory
     agencies did not address BSA and/or did not follow up on previous violations cited in
     FDIC reports of examinations. For those states that do not assess BSA compliance, 2 to
     3 years could elapse without BSA examination coverage for institutions in those states.
   o DSC regional and field offices are inconsistent in deciding whether or when to follow up
     on BSA violations or to take regulatory action.
   o Numerous reports of examination described deficient BSA compliance programs but did
     not cite violations, which we have concluded may receive less attention from bank
     management and from the DSC in its follow-up efforts.
   o Inconsistencies exist among DSC regional offices in deciding how to handle violations
     related to the backfiling of CTRs.
   o Inconsistencies exist among DSC regional offices in making referrals to the Treasury
     Department; of the 34 referrals made by the FDIC, 28 (82 percent) were made by 1 DSC
     regional office.
   o All identified BSA violations have not been included and tracked in the FDIC’s
     automated system, ViSION, and as a result, not all BSA violations have been reported to
     the Treasury Department.

These problems, taken collectively, represent increased risk of illegal activity going undetected
and unreported.


3. DSC statement:
“In 38 of the 41 cases, we found the supervisory actions to be consistent with the problems
identified and the risks posed by the circumstances.”

OIG response:
These 38 cases included 25 institutions with repeat violations and 13 institutions that did not
have repeat violations. Of these 25 institutions with repeat violations, 15 institutions

                                                      23
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
(60 percent) had been cited for violations of the FDIC’s Rules and Regulations Section 326.8,
indicating noncompliant BSA programs for multiple examinations. Ten institutions (40 percent)
had been cited for repeat violations related to either the Treasury Department’s Part 103 or the
FDIC’s Section 353.3, indicating noncompliance with Treasury’s reporting and recordkeeping
requirements related to CTRs or SARs. Many of these institutions with repeat violations were
not subject to any regulatory action. In our opinion, regulatory action was appropriate under
these circumstances.


4. DSC statement:
“The OIG also did not look at supervisory actions taken in instances of serious BSA program
deficiencies, analyze the risk for money laundering in the sample institutions, have discussions
with examiners, or assess the BSA examination process.”

OIG response:
DSC has introduced matters that were not the subject of this audit. We selected a sample of
institutions with BSA violations identified by FDIC examiners. We did not add to our sample
those institutions for which DSC considered that it had done a good job of addressing BSA
program deficiencies. Similarly, we did not alter our sample to focus on institutions that DSC
now considers being at higher risk for illegal activities. There was no evidence to indicate that
DSC had systematically analyzed the risks at our sample institutions. The documented risk
analyses provided to us after our audit had started were not contemporaneously prepared with the
BSA examinations performed. We did not include the entire BSA compliance examination
program in the scope of our audit. Therefore, we did not interview examiners or review
examination working papers. Those activities were not required to meet our audit objectives.
Rather, we focused on actions taken on reported violations. During the audit, however, we did
provide our analysis of BSA actions to DSC and requested DSC to address the questions we
raised and provide its input on our preliminary findings. In doing so, we relied on DSC
management to enlist appropriate staff, including examiners, in providing its responses and any
additional evidence of supervisory actions for us to consider in reaching our conclusions.


5. DSC statement:
“We do not concur with the OIG’s criticism that recommendations for improvement and the
supporting discussion may be confused with apparent violations of the BSA.”

OIG Response:
The requirements for an adequate BSA compliance program based on the FDIC’s Rules and
Regulations Section 326.8 are explicit. Each FDIC-supervised institution is required to develop
and administer a program to ensure compliance with the BSA and 31 C.F.R. Part 103. The
institutions’ boards of directors must approve the compliance program in writing and in
accordance with Section 326.8(c). The program should include four minimum requirements:

        •   a system of internal controls to assure ongoing compliance,
        •   independent testing for compliance with the BSA and 31 C.F.R. Part 103 to be
            conducted by bank personnel or an outside party,

                                                      24
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
        •   designation of individual(s) responsible for coordinating and monitoring compliance
            with the BSA, and
        •   training in BSA requirements for appropriate personnel.

Accordingly, our position is that institutions not meeting the minimum requirements specified by
Section 326.8 do not have an adequate BSA compliance program and have violated the BSA.
We noted cases in which FDIC examiners described deficiencies in institutions’ BSA
compliance programs, including cases in which the programs did not meet the minimum
requirements outlined in Section 326.8. However, the examiners did not specifically cite the
deficiencies as BSA violations.

We continue to conclude that deficiencies described in the reports of examination, but not cited
as violations in the Violations of Laws and Regulations section of the reports or recorded in
ViSION, receive less attention from bank management and/or in follow-up by the DSC.
Documentation provided by DSC on follow-up of examination results did not identify responses
from bank management on deficiencies that were described but not cited as violations in reports
of examination. In addition, we identified multiple examinations that described but did not cite
violations, allowing them to continue for extended periods. In some cases, subsequent
examinations cited the violation. We also noted that examiners were inconsistent in citing BSA
violations – the same violations at different institutions were being treated dissimilarly for
examination report purposes.


General Comments on Audit Results

1. Our determination of the adequacy of follow-up for BSA violations that had been
   cited for the sampled institutions was based on the (1) timeliness of corrective action by bank
   management and/or follow-up by the FDIC and (2) effectiveness of follow-up in preventing
   repeat BSA violations. We continue to conclude that it is ineffective to wait for follow-up
   until subsequent examinations, especially when state regulatory agencies do not review BSA.
   In addition, we continue to conclude that BSA violations, particularly repeat violations,
   should be followed up in a timely, effective manner, regardless of an institution’s location,
   asset size, deposit base, familiarity with its customer base, stability of management and
   employee base, and number of reportable transactions. Delays or inadequate follow-up can
   send the wrong message to possible wrongdoers – that BSA violations receive less attention
   at certain types of institutions, such as those that do not fit DSC’s high-risk profile. Also,
   more serious consideration of other forms of regulatory action, up to and including cease and
   desist orders, is warranted.

2. DSC stated that our evaluation of the adequacy of follow-up for the 41 sampled institutions
   did not consider DSC’s categorization of “BSA/AML risk profiles” (BSA/anti-money
   laundering). However, according to DSC, the division did not have BSA risk-profile
   definitions and had no plans to define BSA risk profile(s). During the audit, DSC requested
   regional and area office officials to (1) evaluate BSA risk for the institutions included in our
   sample so that DSC could make an evaluation of each situation and (2) focus on the
   institutions that we identified as receiving less than “adequate” corrective action by the bank

                                                       25
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
or follow-up by DSC personnel. In the regions’ efforts to evaluate each institution and in
cases where the audit report identified deficiencies, DSC also asked the regions to assess the
money-laundering vulnerability of each institution based on factors relevant to each
institution and to the specific situations we identified. We concluded that those assessments
were not prepared contemporaneously with the examinations, but were made only for the
purpose of responding to our audit. Therefore, the assessments were not official
management tools to assist in planning or conducting the examinations. However, in
reviewing information DSC provided in its official written response relative to the BSA risk
profiles, including whether the institutions were located in Metropolitan Statistical Areas
(MSAs) and High Intensity Money Laundering and Related Financial Crime Areas
(HIFCAs), we noted the following for the institutions for which regulatory actions had been
taken by the DSC or initiated by state regulatory agencies:

   ¾    Our review of the 41 sampled institutions identified 11 for which regulatory actions
        had been taken. Of these 11 institutions, 9 (80 percent) were not located in MSAs
        and 9 (80 percent) were not located in HIFCAs.

   ¾    According to the examination reports that prompted regulatory action, four
        institutions had composite ratings of 2 and management ratings of 2. DSC
        considered three of the four institutions to have a “low” BSA risk profile. The
        remaining institution was located in an HIFCA.

   ¾    According to the examination reports that prompted regulatory action, four
        institutions had composite ratings of 3 and management ratings of 3. One of the four
        institutions was considered by the DSC to have a “high” BSA risk profile. The
        remaining three institutions were not located in either an MSA or HIFCA.

   ¾    According to the examination reports that prompted regulatory action, three
        institutions had composite ratings of 4 and management ratings of 3, 4, or 5.

           •   The one institution with a 3 management rating was issued a cease and desist
               order; the institution was not located in either an MSA or HIFCA and had a
               “low” BSA risk profile according to DSC.
           •   The institution with a 4 management rating was issued a memorandum of
               understanding and had a “moderate/low” BSA risk profile according to DSC.
           •   The institution with a 5 management rating was issued a determination letter
               but had a “low” BSA risk profile according to DSC.

Based on this analysis, neither the institution’s BSA risk profile nor its location in an MSA or
HIFCA appeared to play a significant role in determining whether to impose actions against
the institutions. Only 1 of the 11 institutions had a high BSA risk profile assigned by the
DSC, and only 2 were located in HIFCAs. Additionally, actions were not imposed on
three institutions with repeat BSA violations which DSC identified as having a “moderate” or
“moderate/high” risk profile.



                                                    26
                                This Report Contains Confidential Information
               For Official Use Only                                   Restricted Information
3. Our review of information provided by the DSC regarding referrals made to FinCEN for
   FDIC-supervised institutions showed that there were 208 referrals during the audit scope
   period of January 1, 1997 through September 30, 2003. Of those 208 referrals, DSC made
   only 34 referrals (16 percent), and the remaining referrals were made by other sources, such
   as FinCEN, the IRS, or the institutions themselves. As previously indicated, 28 of these 34
   referrals were made by 1 of the 6 DSC regions.


General Comments on Audit Scope

     1. We informed the DSC of our audit scope and methodology for achieving the audit
        objective. The objective was to review a sample of BSA violations for the audit scope
        period to determine whether DSC adequately follows up on BSA violations reported by
        examinations of FDIC-supervised financial institutions to ensure that institutions take
        appropriate corrective action. Accordingly, we limited the audit results and findings to
        issues specifically related to the agreed-upon audit objective. We based our conclusions on
        the FDIC’s automated system data, supplemental data provided by the DSC, and our
        review of reports of examination from both the Corporation and state regulatory agencies.
        The FDIC did not inform us until the end of our field work that it had identified
        inaccuracies in BSA data resident in its information systems resulting from the conversion
        from a prior system to ViSION. For the institutions in our sample, we verified the data
        used in this audit to the reports of examination and DSC’s supplemental data.

2.     The banks which DSC referred to in its response as “inactive” became inactive more than 12
       months after the examinations for which BSA violations had been cited. Accordingly, we
       did not delete those institutions from the sample selection. In addition, two other
       institutions referenced in DSC’s response had been deleted from our sample analyses and
       were not included in our findings and conclusions.

3.     DSC’s comment that we did not request reports of examination for one of the sampled
       institutions is incorrect because we made a global request for all reports of examination
       associated with the institutions in our sample, including the FDIC's examination reports and
       those from state regulatory agencies.

4.     DSC stated that the community banks it supervises have a strong inherent deterrent to
       money laundering because they operate in areas where bank management’s knowledge of
       customers is high, making criminal activity harder to disguise. This information is relevant
       to the examination and potentially to reporting BSA violations, but not to the pursuit of
       corrective action on known BSA violations. We did not assess how well management for
       the 41 sampled institutions knows their customers, but limited our assessment of BSA
       compliance to (1) results described in the examination reports and captured in ViSION and
       (2) information on the regulatory actions imposed for noncompliance.




                                                         27
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
During our audit, the FDIC did not have a corporate objective specifically related to BSA.
However, in the course of preparing our final report, we became aware that such an objective
recently had been established. The Corporation's final 2004 Corporate Performance Objectives,
as approved by the FDIC Chairman, includes the following objective:

       Implement revised examination and enforcement strategies/guidance, as appropriate, to
       address OIG/GAO [General Accounting Office] audit findings relating to the Bank
       Secrecy Act, anti-money laundering programs, and counter-terrorist financing. Develop
       and implement a communications strategy to facilitate industry understanding of newly
       implemented regulations in these areas.

We support this objective as a positive action on the part of the Corporation because the
objective will prompt a concerted effort and focus attention on strengthening follow-up on
reported BSA violations.


DSC Responses to OIG Recommendations

Presented below are DSC’s responses to the specific recommendations made in our audit. The
recommendations are considered resolved, undispositioned, and open until the corrective actions
are implemented.

Recommendation 1: Re-evaluate and update examination guidance to strengthen
monitoring and follow-up processes for BSA violations, including:

       •   prompt, appropriate, and consistent regulatory action in cases where
           management action is not timely, including cease and desist orders for repeat
           violations as appropriate;

       •   consistent and timely follow-up of BSA violations between examinations to
           ensure management is taking corrective action;

       •   consistent citation and recordation of all apparent violations in reports of
           examination and in ViSION; and

       •   a consistent approach to the backfiling of CTRs.

DSC agreed with this recommendation. By March 30, 2005, and as part of current initiatives to
revisit and update FDIC guidance and with inter-agency cooperation, the DSC will address
formal supervisory actions, follow-up actions, citation of apparent violations and recordkeeping,
and backfiling of CTRs. The DSC will also work with the FDIC Legal Division to clarify and
update, as necessary, enforcement action guidance on BSA.




                                                      28
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
Recommendation 2: Review DSC’s implementation of the process for referring institution
violations of BSA to the Treasury Department, and discuss with Treasury the need to
update or modify the referral guidelines based on changes in priority and approach in
recent years.

DSC agreed with the recommendation. By year-end 2004, the DSC representative to the
Financial Crimes Enforcement Network’s Bank Secrecy Act Advisory Group will introduce the
question raised on referral guidelines at an upcoming meeting of the group.

Recommendation 3: Coordinate with state regulatory agencies to cover BSA compliance in
state examinations of FDIC-supervised institutions and for those states that do not cover
BSA compliance, develop an alternative FDIC process to address BSA compliance when
relying on alternating state examinations.

DSC agreed with this recommendation. DSC stated that it is focused on strengthening processes
to address variations in the state examination coverage of BSA and believes this action will
increase the consistency and reliability of the follow-up to its BSA examinations. DSC expects
to complete its review and revisions to BSA guidelines and procedures for BSA coverage during
state examinations by March 30, 2005.




                                                     29
                                 This Report Contains Confidential Information
                For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX I


                                  OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The audit objective was to determine whether the Federal Deposit Insurance Corporation (FDIC)
Division of Supervision and Consumer Protection (DSC) adequately follows up on reported Bank
Secrecy Act (BSA) violations to ensure that institutions take appropriate corrective action. To
accomplish our objective, we reviewed supervisory actions that DSC has taken to ensure
compliance, including efforts to follow up with bank management after examinations and the use of
regulatory actions to prompt management action. We conducted the audit in accordance with
generally accepted government auditing standards from November 2003 through January 2004.


Scope and Methodology

We held an entrance conference and conducted interviews with officials from DSC headquarters
and DSC’s regional and area offices. In addition, we held periodic briefings with DSC officials and
solicited their opinions and comments regarding the BSA violations and supervisory actions
included in our review. We also interviewed officials in DSC’s Special Activities Section who are
responsible, along with regional offices, for coordinating and monitoring DSC’s field and regional
efforts for identifying, reporting, and tracking BSA violations and issuing related enforcement
actions.

To gain an understanding of procedures that the DSC uses to determine compliance with the BSA,
we reviewed the DSC Manual of Examination Policies, and various transmittals, directives, and
guidelines issued by the FDIC or the Treasury Department. Further, we reviewed DSC memoranda
to obtain an understanding of the processes and procedures used to identify, report, track, and
follow up on BSA violations. We also interviewed officials responsible for the Virtual Supervisory
Information On the Net system (ViSION), the automated system used by the DSC to compile
information on BSA violations as well as to track these violations.

We also reviewed data from applicable FDIC automated systems; reviewed information from other
sources, including FDIC and state reports of examination (ROEs); and analyzed DSC supplemental
data, including information from FDIC correspondence files and data on the overall profile of
financial institutions. To determine the number and type of BSA violations identified during DSC’s
examinations of FDIC-supervised institutions from January 1, 1997 to September 30, 2003, we
obtained and reviewed ViSION data that included the following:

            •   each institution’s certificate number, name, and location;

            •   dates of ROEs that reported BSA violations;

            •   BSA violation codes, descriptions, and numbers of occurrences; and

            •   types of violations (including repeat and nonrepeat violations).


                                                         30
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                          APPENDIX I

Table 4 provides a synopsis of the ViSION data, by DSC regional and area offices.

Table 4: FDIC-Supervised Financial Institutions With BSA Violations From January 1, 1997 Through
September 30, 2003 and Financial Institutions With Repeat Violations Based on ViSION Data
                          Number of Financial               Number of Financial                Percent of Regional/Area
 DSC Regional or           Institutions With                 Institutions With                 Office Institutions With
    Area Office             BSA Violationsa                Repeat BSA Violationsb               Repeat BSA Violations
Atlanta                            234                               44                                   19
Boston                             142                               23                                   16
Chicago                            446                               43                                   10
Dallas                             284                               52                                   18
Kansas                             963                              205                                   21
Memphis                            348                               68                                   20
New York                            72                                 3                                    4
San Francisco                      183                               20                                   11
Totals                           2,672                              458                                   17
a
 Total number of financial institutions that had one or more BSA violations recorded in ViSION for examinations
completed during the period noted.
b
  Total number of financial institutions that had one or more BSA violations recorded in ViSION for examinations
completed during the noted period, with at least one of those violations identified as a repeat violation.

Source: OIG review of ViSION data on BSA violations for the noted period.



Based on the ViSION data, we selected a random sample19 from the universe of BSA violations and
a judgment sample of repeat violations. Of the total 2,672 financial institutions for which BSA
violations had been reported in ViSION, we reviewed 41 institutions in detail. The random sample
consisted of 22 institutions selected from the 8 DSC regional or area offices, and the other
19 institutions consisted of a judgment sample of institutions with repeat violations. Of those
19 institutions, we confirmed that 18 had repeat violations. The random sample of 22 institutions
also included 9 institutions with repeat violations so that, in total, 27 institutions with repeat
violations were in our sample. Table 5 provides a breakdown of those 41 institutions, by FDIC
office.




19
  From the random sample of institutions with BSA violations, we judgmentally selected three institutions from each
regional and area office for detailed review. We restricted the sample size to three rather than five due to the constricted
time frame to complete the audit. The selection of those institutions for review was based strictly on the randomly
generated numbers without giving any consideration for the institutions’ violations recorded in ViSION or demographic
information. We later made adjustments to the number of randomly selected institutions reviewed as shown in Table 5.
                                                            31
                                        This Report Contains Confidential Information
                       For Official Use Only                                   Restricted Information
                                                                                                       APPENDIX I


Table 5: Financial Institutions Selected for Review
    DSC Regional         Universe of               Number of Financial Institutions Included in OIG Sample
    or Area Office   Financial Institutions   Initial Selection    Number of Deleted           Total Included in
                     With BSA Violations                               Institutions*             OIG Analyses
Atlanta                       234                      6                     0                         6
Boston                        142                      6                     4                         2
Chicago                       446                      6                     0                         6
Dallas                        284                      6                     0                         6
Kansas City                   963                      6                     0                         6
Memphis                       348                      6                     0                         6
New York                      72                       6                     2                         4
San Francisco                 183                      6                     1                         5
Total                        2,672                    48                     7                        41
*
 Includes financial institutions that (1) became inactive or merged with another institution less than 12 months after
BSA violations were identified, (2) were cited for BSA violations in examinations conducted less than 12 months before
the end of the audit scope period, and (3) were determined not to be institutions with repeat violations, which was the
initial basis for their selection.

Source: OIG review of ViSION data on BSA violations for the period January 1, 1997 through September 30, 2003;
and FDIC institution directory information on the status of financial institutions.



Our specific objectives in reviewing the sampled financial institutions were to determine:

      •   the types of BSA violations identified during examinations;

      •   the types of corrective actions that financial institution management implemented or the
          supervisory actions FDIC pursued for BSA violations;

      •   differences in the type of BSA violations and actions recorded in ViSION and in the ROEs;
          and

      •   whether enforcement actions were recorded in the FDIC’s Formal and Informal Action
          Tracking system20 (FIAT) for BSA violations identified for the sampled institutions.

In addition, we requested that DSC provide all ROEs for the sampled 41 financial institutions for
the period January 1, 1997 through September 30, 2003. Nine of those ROEs were not available for
review, primarily for examinations conducted January 1, 1997 through December 31, 1999, because
the ROEs either had been archived and were not retrieved or were state examination reports that had
not been retained and, therefore, were not available. Because the FDIC and state regulatory
agencies usually alternated examination responsibilities and may occasionally conduct joint
examinations, we also requested and reviewed available state examination reports for the sampled
financial institutions for the same period. We reviewed 200 ROEs—128 ROEs from the FDIC and
72 ROEs from state regulatory agencies.

20
 FIAT is the FDIC’s system for tracking the status of informal supervisory actions and formal enforcement actions. In
conjunction with reviewing information from FIAT, we also reviewed FDIC’s Formal and Informal Action Procedures
Manual.
                                                           32
                                       This Report Contains Confidential Information
                      For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX I

To determine the number and type of regulatory actions related to BSA in general and specifically
for our sampled institutions, we reviewed reports on formal and informal actions recorded in FIAT
and supplemental information that DSC provided. We also discussed the FDIC’s position on the
circumstances for which the FDIC might consider formal or informal actions for BSA violations.

We provided specific questions on the BSA violations to DSC officials and requested that they
provide supplemental information on (1) related corrective actions taken by bank management or
regulatory actions imposed by the FDIC and (2) follow-up activities conducted by the FDIC on
those violations. For those institutions that were cited for BSA violations related to the filing of
Currency Transaction Reports (CTR), we used the FDIC’s CTR Backfiling Request report for the
period January 1, 1999, through September 30, 2003, in conjunction with supplemental information
from DSC, to determine whether CTRs had been filed for the previously cited violations. Because
DSC examiners were not required to track BSA violations related to Suspicious Activity Reports
(SAR) in the FDIC’s ViSION system prior to October 2003, our review of SAR violations was
limited to information obtained from ROEs provided to us for the sampled institutions.

Our verification of computer-processed data was limited to comparing data obtained from ViSION
to data reported in the ROEs and DSC’s supplemental information. We identified inconsistencies in
some of the ViSION data when compared to the ROEs and supplemental information. According to
DSC officials, the March 2003 conversion from a prior system to ViSION may have led to
incomplete records in ViSION for information predating the conversion, and system data entered
prior to the conversion may not be fully complete or accurate because edit checks were less
thorough in the previous system. To compensate for these inconsistencies, we based our
observations on a pooling of the data available from multiple hardcopy and electronic sources and
did not rely on any one source except in making our initial sample selection from the data in
ViSION. However, we did not validate DSC’s assertions and there is a risk that our audit
procedures may not have identified instances, if any, where violations were not included in the prior
system and thus not reported to Treasury.


Management Controls Reviewed

We gained an understanding of the management control activities associated with the identification,
reporting, and tracking of BSA violations by reviewing DSC’s policies and examination procedures
and by performing limited testing of ViSION data. Additionally, we reviewed FDIC’s
responsibilities as a financial institution supervisor related to the following:

   •   The Bank Secrecy Act of 1970, codified to 31 U.S.C. Section 5311 et seq. (BSA), also
       known as the Currency and Foreign Transactions Reporting Act.

   •   Code of Federal Regulations (C.F.R.), Title 31—Money and Finance; Subtitle B—
       Regulations Relating to Money and Finance; Chapter 1—Monetary Offices, Department of
       the Treasury; Part 103—Financial Recordkeeping and Reporting of Currency and Foreign
       Transactions, the BSA’s implementing regulations.



                                                        33
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                   APPENDIX I

   •   Section 8(s) of the FDI Act, codified to 12 U.S.C. 1818(s), which requires each federal
       banking agency, including the FDIC, to (a) prescribe regulations requiring insured
       depository institutions to establish and maintain procedures reasonably designed to ensure
       and monitor compliance with the BSA, (b) review such procedures during their
       examinations of these institutions, and (c) enforce compliance with the BSA monetary
       transaction recordkeeping and report requirements.

   •   Section 326.8(b) of the FDIC’s Rules and Regulations, codified to 12 C.F.R. Section 326.8,
       which requires each FDIC-supervised institution to develop and administer a program to
       ensure compliance with the BSA and 31 C.F.R Part 103.

   •   The FDIC Rules and Regulations 12 C.F.R. Part 353 related to the filing of Suspicious
       Activity Reports.

   •   Title 12 U.S.C. 1829b, the recordkeeping requirements for insured financial institutions.

During our review, we identified actions that DSC could take to improve management controls over
the corrective action process for BSA violations, as described under Results of Audit.


Government Performance and Results Act

We reviewed DSC’s performance measures under the Government Performance and Results Act,
Public Law 103-62 (GPRA). We determined that the FDIC did not have a corporate performance
objective specifically related to the BSA. However, according to the FDIC’s 2003 Annual
Performance Plan and as shown in Table 6 on the next page, the FDIC has established the
following strategic goal and objective and annual performance goals related to its supervision and
examination responsibilities that include BSA in general.




                                                       34
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
                                                                                                      APPENDIX I


Table 6: Performance Measures Related to Supervision and Examinations

    STRATEGIC GOAL                     STRATEGIC OBJECTIVE                                 ANNUAL
                                                                                 PERFORMANCE GOALS
FDIC-supervised institutions          FDIC-supervised institutions              Conduct on-site safety and
are safe and sound.                   appropriately manage risk.                soundness examinations to
                                                                                assess an FDIC-supervised
                                                                                insured depository
                                                                                institution’s overall financial
                                                                                condition, management
                                                                                practices and policies, and
                                                                                compliance with applicable
                                                                                regulations.

                                                                                Take prompt supervisory
                                                                                actions to address problems
                                                                                identified during the FDIC
                                                                                examination of FDIC-
                                                                                supervised institutions
                                                                                identified as problem insured
                                                                                depository institutions.

                                                                                Monitor FDIC-supervised
                                                                                insured depository
                                                                                institutions’ compliance with
                                                                                formal and informal
                                                                                enforcement actions.
Source: Federal Deposit Insurance Corporation 2003 Annual Performance Plan.



Fraud and Illegal Acts

The limited nature of the audit objective did not require that we assess the possibility for fraud and
illegal acts. Although we were alert to the possibility of fraud and illegal acts, no instances came to
our attention.

Prior Audit Coverage

We reviewed the OIG’s audit report entitled Examination Assessment of Bank Secrecy Act
Compliance (Audit Report Number 01-013, dated March 30, 2001) to obtain an understanding of
previous OIG audit work related to the BSA. The objective of that audit was to determine the
extent to which FDIC safety and soundness examinations reviewed institutions’ compliance with
the BSA. As a result of that audit, the OIG recommended improvements in the FDIC’s
documentation of work related to the BSA. FDIC officials generally concurred with the OIG’s
recommendations and agreed to implement procedures or issue guidance to address the OIG’s


                                                          35
                                      This Report Contains Confidential Information
                     For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX I

concerns. We did not follow up on these recommendations or assess the adequacy of BSA
examination procedures and documentation during this current audit.

In addition, we coordinated with the U.S. General Accounting Office to determine whether there
were any previous or ongoing audits or reviews related to BSA violations by FDIC-supervised
institutions and associated supervisory actions. We also reviewed the applicable section of the DSC
Regional Office Review Program to determine whether regional office reviews cover BSA
violations and BSA-related enforcement actions. Based on these actions, we determined that except
for the FDIC OIG’s BSA-related report noted above, there was no prior or ongoing work related to
the objective of this audit. In addition, we contacted the OIG Counsel’s office to obtain information
related to statutory requirements and analysis of enforcement authority for the Treasury Department
and the FDIC.

We also reviewed Treasury Department Web sites to obtain information on the BSA and a
September 2003 report entitled OTS: Enforcement Actions Taken for Bank Secrecy Act Violations,
which was prepared by the Treasury Department OIG on the Office of Thrift Supervision’s BSA
enforcement.

During this audit, we did not do the following:

          •   Determine the adequacy of the examinations that identified the BSA violations.

          •   Review the underlying workpapers generated by DSC examiners or interview the
              field office supervisors or examination staff responsible for examining the institutions
              included in our sample.

          •   Interview state banking authorities regarding their ROEs or BSA coverage.




                                                        36
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                                                             APPENDIX II


                          FDIC RULES AND REGULATIONS (12 C.F.R. Section 326.8) ON BSA COMPLIANCE AND
                                    FDIC GUIDELINES FOR MONITORING COMPLIANCE WITH SECTION 326.8
Section 326.8(b)(1)   Requires that on or before April 27, 1987, each bank shall develop a BSA compliance program and provide for the continued administration of
                      such a program.

Section 326.8(b)(1)   Requires that the BSA compliance program shall be in writing, approved by the board of directors, and noted in the minutes.


Section 326.8(c)(1)  Requires that the written BSA compliance program provide for a system of internal controls to assure ongoing compliance by:
                          ¾ identifying all reportable transactions;
                          ¾ ensuring that all required reports are completed accurately and properly filed;
                          ¾ ensuring that customer exemptions are properly granted and recorded;
                          ¾ providing for adequate supervision of employees who accept currency transactions, complete reports, grant exemptions, or engage in
                              any other activity covered by 31 C.F.R. Part 103; and
                          ¾ establishing dual controls and providing for separation of duties.
Section 326.8(c)(2) Requires that the written BSA compliance program provide for a system of independent testing for compliance by bank personnel or by an
                     outside party. Independent testing should:
                          ¾ be conducted at least annually, preferably by the internal audit department, outside auditors, or consultants; and
                          ¾ include, at a minimum:
                                   • a test of the institution’s internal procedures for monitoring compliance with the BSA,
                                   • a sampling of large currency transactions followed by a review of CTR filings,
                                   • a test of the validity and reasonableness of the customer exemptions granted,
                                   • a test of the institution’s recordkeeping system for BSA compliance, and
                                   • documentation of the scope of the testing procedures performed and the findings.
Section 326.8(c)(3) Requires that the written BSA compliance program must provide for the designation of an individual or individuals to coordinate and monitor
                     day-to-day compliance. To meet the minimum requirement:
                          ¾ each financial institution must designate a senior bank official to be responsible for overall BSA compliance, and
                          ¾ another individual should be designated responsible for the day-to-day compliance.
Section 326.8(c)(4) Requires that the written BSA compliance program provide for the training of appropriate personnel. At a minimum, a financial institution’s
                     training program must:
                          ¾ provide training of all personnel whose duties may require knowledge of the BSA, including, but not limited to, tellers, new accounts
                              personnel, lending personnel, bookkeeping personnel, and wire room personnel;
                          ¾ provide an overview of the BSA to new employees; and
                          ¾ include efforts to keep executives informed of changes and new developments in BSA regulation.
Source: OIG review of FDIC Rules and Regulations, Subpart B of Part 326, and DSC Memorandum 6462.10, entitled Guidelines for Monitoring Bank Secrecy
Act Compliance, dated August 1, 1996.



                                                                               37
                                                           This Report Contains Confidential Information
                                          For Official Use Only                                   Restricted Information
                                                                                                             APPENDIX III

            CONTROL AND PERFORMANCE STANDARDS AND ASSOCIATED RISKS

                       STANDARDS                                                      ASSOCIATED RISKS
                                             MANAGEMENT AND CONTROL

The Board [the bank’s board of directors] establishes             Inadequate anti-money laundering and Know Your Customer
adequate policies and procedures in accordance with anti-         policies and procedures could involve the bank and senior
money laundering laws and regulations.                            management in criminal activity and result in possible
                                                                  regulatory action.
The board establishes adequate “Know Your Customer”
Policies.                                                         The bank faces possible damage to its reputation if its name is
                                                                  associated with money laundering.

Internal reviews and audits are sufficient to identify            Management may inadequately identify, communicate, and
deficiencies in the BSA program, and reports are provided         correct deficiencies.
directly to senior management and the board.
                                                                  Failure to detect existing or emerging problems could result in
                                                                  non-compliance with internal policies and applicable rules
                                                                  and regulations.

Management develops a system to identify large currency           Management’s detection of possible money laundering and
deposits, including numerous small deposits that when             suspicious activities may be impeded by a weak identification
aggregated, exceed the reporting threshold.                       system.

Management identifies, investigates, and reports suspicious       A weak identification system may result in inadequate
transactions.                                                     reporting to the board and regulatory authorities.

The board assigns responsibility for ongoing compliance with      An inadequate or poorly trained staff could result in non-
the BSA and financial recordkeeping regulations (31 C.F.R.        compliance with policies and regulations and the possible use
103) to a qualified and knowledgeable staff.                      of bank services for money laundering activities.


                       STANDARDS                                                      ASSOCIATED RISKS
                                                      PERFORMANCE

Employees comply with written guidelines and policies.            Regulatory violations and money laundering may occur if
                                                                  procedures are not followed.



Management addresses previously identified criticisms, which      Continuing deficiencies or violations can lead to enforcement
include implementing procedures to correct apparent               action.
violations and adhering to the mandatory compliance
program.

Management files required reports, including CTRs and             Violations can result in monetary fines and penalties.
SARs, accurately and in a timely manner.
                                                                  Possible money laundering activities may not be detected.


Source: DSC Transmittal 98-096, Bank Secrecy Act (BSA) Examination Procedures, dated December 7, 1998, as
supplemented by interim guidance in Transmittal 03-042, Bank Secrecy Act Examination Procedures, dated August 15, 2003.




                                                               38
                                           This Report Contains Confidential Information
                          For Official Use Only                                   Restricted Information
                                                                                                                     APPENDIX IV

           AUTHORITY TO TAKE ENFORCEMENT ACTIONS FOR BSA VIOLATIONS
                                                          TREASURY DEPARTMENT

   12    Requires the maintenance of appropriate types of records by insured depository institutions where such records would have a
 U.S.C.  high degree of usefulness in criminal, tax, or regulatory investigations or proceedings. The Secretary of the Treasury is
 1829b   authorized to prescribe regulations to carry out these purposes under this section. Subsection (j) of this section imposes civil
         penalties on any insured depository institution, officer, or employee of such institution who willfully or negligently violates
         the regulations prescribed under this section. The penalties assessed under this section will be carried out according to 31
         U.S.C. 5321(b) and (c).
    31   Authorizes the Secretary of the Treasury to promulgate regulations requiring the reporting of certain monetary transactions.
 U.S.C. Under 31 U.S.C. 5318, the Secretary of the Treasury is authorized to require a class of domestic financial institutions, trades,
 5311 et or businesses to maintain appropriate procedures to ensure compliance with Subchapter II (Records and Reports on
   seq.  Monetary Instruments Transactions) of Chapter 53; examine any books, papers, records, or other data of domestic financial
         institutions, trades, or business relevant to the recordkeeping or reporting requirements of the subchapter; summon a
         financial institution, trade or business to appear before the Secretary and give testimony under oath; and prescribe an
         appropriate exemption from a requirement of the subchapter, but only in connection with investigations for the purpose of
         civil enforcement violations of the subchapter and 12 U.S.C. 1829b, etc. Under 31 U.S.C. 5318, the Secretary may require
         any financial institution and any director, officer, employee, or agent to report any suspicious transaction relevant to a
         possible violation of law.
    31   The Secretary may require any financial institution and any director, officer, employee, or agent to report any suspicious
 U.S.C. transaction relevant to a possible violation of law.
  5318
    31   The Secretary may bring a civil action to enjoin a violation or enforce compliance against a person believed to have violated
 U.S.C. the laws or regulations of Chapter 53, Subchapter II.
  5320
    31   Authorizes the imposition of civil money penalties by the Secretary of the Treasury for willful violations of Subchapter II,
 U.S.C. specifically 31 U.S.C. 5314, 5316, 5318, 5318A, and 5324; and negligent violations of any section of Chapter 53. The range
 5321(a) of civil money penalties that may be imposed by the Department of the Treasury is outlined in 31 C.F.R. 103.57.
    31   The Secretary is to delegate authority to the appropriate Federal Banking Agencies to assess a civil money penalty under this
 U.S.C. section on depository institutions. The Department of the Treasury is proposing rulemaking that would delegate to the
 5321(e) appropriate Federal banking regulatory agencies, as required by 31 U.S.C. 5321(e), the authority to assess civil money
         penalties on depository institutions for violations of the BSA. The regulation would prescribe the parameters of the
         delegated authority.
    31   Overall authority for enforcement and compliance, including coordination and direction of procedures and activities of all
 C.F.R. agencies exercising delegated authority under Part 103, is delegated to the Assistant Secretary of the Treasury
 103.56 (Enforcement). Authority to examine institutions for compliance with Part 103 is delegated to the Federal Banking
         Agencies and to other agencies for institutions not regulated by the Federal Banking Agencies. Authority for the imposition
         of civil penalties is delegated to the Assistant Secretary for Enforcement. The authority to enforce the provisions of 31
         U.S.C. 5314 and 31 C.F.R. 103.24 and 103.32 has been redelegated from Treasury’s Financial Crimes Enforcement
         Network (FinCEN) to the Internal Revenue Service by means of a Memorandum of Agreement. Such authority includes the
         authority to: assess and collect civil penalties under 31 U.S.C. 5321 and 31 C.F.R. 103.57; investigate possible civil
         violations of these provisions; employ the summons power of Subpart F of Part 103; issue administrative rulings under
         Subpart G of Part 103; and take any other action reasonably necessary for the enforcement of these and related provisions,
         including pursuit of injunctions.

                                            FEDERAL DEPOSIT INSURANCE CORPORATION

   12      If the appropriate Federal Banking Agency determines that an insured depository institution has failed to establish or
 U.S.C.    maintain BSA procedures or failed to correct any problem with the procedures previously reported, the agency shall issue
 1818(s)   an enforcement order requiring the institution to cease and desist from its violation. The FDIC is authorized under
   (3)     12 U.S.C. 1818(i)(2)(ii) to impose a civil penalty of not more than $5,000 per day for violations of final or temporary orders
           issued pursuant to 12 U.S.C. 1818(s).

Source: Analysis by OIG Counsel’s office.




                                                                 39
                                          This Report Contains Confidential Information
                         For Official Use Only                                   Restricted Information
                                                                                                   APPENDIX V

      BSA VIOLATIONS REPORTED FOR 41 SAMPLED FINANCIAL INSTITUTIONS
BANK        PART 103        SECTION 326.8       REPEAT BSA VIOLATION                REGULATORY ACTION

1.             No                 Yes                       Yes                 No
2.             Yes                No                        No                  No
3.             No                 Yes                       Yes                 No
4.             Yes                Yes                       Yes                 Memorandum of Understanding
                                                                                Bank Board Resolution
5.                Yes                 No                          No            No
6.                Yes                Yes                         Yes            No
7.                Yes                 No                          No            No
8.                Yes                Yes                          No            Memorandum of Understanding
9.                Yes                 No                          No            No
10.               Yes                 No                         Yes            No
11.               Yes                Yes                         Yes            No
12.               No                 Yes                         Yes            No
13.               Yes                 No                          No            No
14.               Yes                Yes                         Yes            Memorandum of Understanding
15.               Yes                Yes                         Yes            Memorandum of Understanding
16.               Yes                 No                          No            No
17.               Yes                Yes                         Yes            No
18.               No                 Yes                          No            No
19.               Yes                Yes                         Yes            State Determination Letter
20.               Yes                Yes                         Yes            No
21.               Yes                Yes                          No            No
22.               Yes                Yes                         Yes            Bank Board Resolution
23.               Yes                Yes                         Yes            No
24.               Yes                 No                         Yes            No
25.               Yes                Yes                         Yes            No
26.               Yes                Yes                         Yes            No
27.               Yes                Yes                         Yes            No
28.               Yes                Yes                         Yes            No
29.               Yes                Yes                         Yes            Bank Board Resolution
30.               Yes                 No                          No            No
31.               Yes                Yes                          No            No
32.               Yes                Yes                         Yes            No
33.               No                 Yes                          No            No
34.               Yes                 No                          No            No
35.               Yes                 No                        Yes*            Bank Board Resolution
36.               Yes                Yes                         Yes            No
37.               Yes                Yes                         Yes            Cease and Desist Order
38.               Yes                Yes                        Yes*            Memorandum of Understanding
39.               Yes                Yes                         Yes            Memorandum of Understanding
40.               Yes                 No                          No            No
41.               No                 Yes                         Yes            No
           Yes=35 No=6         Yes=29 No=12               Yes=27 No=14
*Repeat status is based on Suspicious Activity Report violations.
Source: OIG review of ViSION and ROE data and supplemental information provide by DSC.




                                                       40
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
                                                                                                                                                              APPENDIX VI
                    SUMMARY OF BSA VIOLATIONS BY TYPE OF VIOLATION FOR 41 SAMPLED FINANCIAL INSTITUTIONS
                                 Number of
   Violation        Violation Institutions With
   Category          Code        Violations                         Description of Violation
 Treasury’s
 31 C.F.R.
 Part 103
                      60000                  22             Failure to file CTR for nonexempted transactions over $10,000
                      65000                  16             Failure to maintain records on sales of monetary instruments of $3,000 through $10,000
                      63001                  14             Failure to furnish information required in CTR
                      63000                  13             Untimely filing of CTR or failure to retain CTR for 5 years
                      60001                  10             Failure to treat multiple transactions totaling over $10,000 as a single transaction
                      64000                  7              Failure to follow [customer] identification procedures or failure to record identification method
                      60004                   5             Failure to properly exempt a domestic insured financial institution
                      60002                  4              Improper designation of exempt person
                      60007                  4              Failure to file CTR for transactions of an agent of an exempt person
                      60006                  3              Failure to document monitoring of exempt person transactions
                      60003                   2             Failure to file designation of exempt person form
                      60005                  2              Failure to perform annual review of exempt person
                      67000                  2              Failure to obtain Taxpayer Identification Number (TIN) or keep list of customers with missing TINs
                      62000                  1              Failure to report foreign financial accounts
                      65002                  1              Failure to retain records of cash purchases of monetary instruments for 5 years
                      68000                  1              Failure to retain required records for 5 years

 FDIC’s
 12 C.F.R.            80004                  16             Lack of independent testing of BSA compliance
 Section 326.8        80000                  15             Failure to develop or implement adequate BSA Compliance Program
                      80003                  10             Inadequate system of internal controls for BSA compliance
                      80006                  7              Failure to provide adequate BSA training
                      80005                  4              Failure to designate individual(s) responsible for BSA compliance

Source: OIG review of BSA violations identified in ROEs for the sampled 41 institutions for the period January 1, 1997 through September 30, 2003 and DSC Transmittal
No. 03-048, dated October 20, 2003, entitled Bank Secrecy Act Examination Violation Codes.

Note: Most institutions had multiple violations and, accordingly, the noted violations will not total 41. In addition, when differences were identified between the violation code
recorded in ViSION and the description of the violation cited in the ROE, we used the ROE description. Accordingly, totals shown will not match totals shown in ViSION data.
Some violations were “grouped” because there was no specific violation code included in DSC’s guidance on BSA violation codes for those violations. Some sampled institutions
also had violations related to Suspicious Activity Reports. However, because there was no specific code related to SAR violations, they were not captured in ViSION and are not
included in this table.



                                                                                        41
                                                                   This Report Contains Confidential Information
                                                  For Official Use Only                                   Restricted Information
                                                                                               APPENDIX VII

                                             ACRONYMS

BBR                 Bank Board Resolution

BSA                 Bank Secrecy Act

C&D                 Cease and Desist Order

C.F.R.              Code of Federal Regulations

CMP                 Civil Money Penalties

CTR                 Currency Transaction Report

DSC                 Division of Supervision and Consumer Protection (formerly the Division of
                    Supervision)

FDI Act             Federal Deposit Insurance Act

FDIC                Federal Deposit Insurance Corporation

FIL                 Financial Institution Letter

FinCEN              Financial Crimes Enforcement Network

FIAT                Formal and Informal Action Tracking System

HIFCA               High Intensity Money Laundering and Related Financial Crime Area

MOU                 Memorandum of Understanding

MSA                 Metropolitan Statistical Area

OIG                 Office of Inspector General

ROE                 Report of Examination

SAR                 Suspicious Activity Report

PATRIOT Act         USA PATRIOT Act

U.S.C.              United States Code

ViSION              Virtual Supervisory Information on the Net




                                                   42
                               This Report Contains Confidential Information
              For Official Use Only                                   Restricted Information
                                                                                                         APPENDIX VIII



                                               GLOSSARY

           Term                                                      Definition
                                    Bank board resolutions (BBRs) are informal commitments,
                                    developed and adopted by a financial institution’s board of directors
                                    (often at the request of the FDIC), directing the institution’s
                                    personnel to take corrective action regarding specific noted
Bank Board Resolutions              deficiencies. BBRs may also be used as a tool to strengthen and
                                    monitor the institution’s progress with regard to a particular
                                    component rating or activity. The FDIC is not a party to these
                                    resolutions but may approve and accept them as a means of initiating
                                    corrective action.
                                    Codified at 31 U.S.C. 5311-5330 and gives the Treasury Department
                                    broad powers to implement anti-money laundering regulations for
                                    financial institutions; such regulations are implemented by the
                                    Treasury Department through 31 C.F.R. Part 103. The Act consists
                                    of two Titles: Title I, Financial Recordkeeping, and Title II, Reports
The Bank Secrecy Act (BSA)          of Currency and Foreign Transactions. Title I authorizes the
of 1970                             Treasury Department to issue regulations requiring insured financial
                                    institutions to maintain certain records related to financial
                                    transactions. Title II directs the Treasury Department to prescribe
                                    regulations governing the reporting of certain transactions by and
                                    through financial institutions in excess of $10,000 into, out of, and
                                    within the United States.
                                    A report of completed BSA examinations with violations for a
                                    specific time period. The report is broken down by region and
                                    includes the certificate number, institution name, city, state,
BSA Regional Report
                                    examination date, examiner-in-charge, violation code, violation
                                    description, number of violations, BSA hours, systemic or repeated
                                    violations, and action code.
                                    Cease and desist orders authorized by Section 8(b) of the FDI Act
                                    may be issued to prevent or halt violations of a law, rule, regulation,
Cease and Desist Orders
                                    or written agreement with the FDIC; written condition imposed by
                                    the FDIC; or unsafe or unsound practices.
                                    Civil money penalties (CMPs) can be imposed on financial
                                    institutions for violations of: final and temporary orders, written
                                    agreements with the FDIC, laws and regulations, and breaches of
                                    fiduciary duty. The Financial Institutions Regulatory and Interest
                                    Rate Control Act of 1978 granted the FDIC authority to levy CMPs
Civil Money Penalties
                                    against both insured financial institutions and individuals for
                                    violations of statutes. The Financial Institutions Reform, Recovery,
                                    and Enforcement Act of 1989 broadened the scope of conduct for
                                    which CMPs can be assessed and significantly increased the amount
                                    of the permissible penalties.




                                                             43
                                         This Report Contains Confidential Information
                        For Official Use Only                                   Restricted Information
                                                                                                        APPENDIX VIII


                                              GLOSSARY

           Term                                                     Definition
                                   Each financial institution is assigned a composite rating based on an
                                   evaluation and rating of six essential components of an institution’s
                                   financial condition and operations. These component factors address
                                   the adequacy of capital, the quality of assets, the capability of
                                   management, the quality and level of earnings, the adequacy of
                                   liquidity, and the sensitivity to market risk. Evaluations of the
                                   components take into consideration the institution’s size and
Composite Rating
                                   sophistication, the nature and complexity of its activities, and the
                                   risk profile. Composite ratings are assigned based on a 1 to 5
                                   numerical scale. A 1 indicates the highest rating, strongest
                                   performance and risk management practices, and least degree of
                                   supervisory concern, while a 5 indicates the lowest rating, weakest
                                   performance, inadequate risk management practices and, therefore,
                                   the highest degree of supervisory concern.
                                   The FDIC may issue informal or formal actions against a financial
                                   institution to obtain correction of noted safety and soundness or
                                   compliance deficiencies. Those actions may be informal or formal.
                                     •   Informal actions are voluntary commitments made by an
                                         insured financial institution’s board of directors. Such actions
                                         are designed to correct noted safety and soundness deficiencies
                                         or ensure compliance with federal and state banking laws.
                                         Informal actions are not legally enforceable and are not
Corrective Actions
                                         disclosable to the public.
                                     •   Formal actions are notices or orders issued by the FDIC against
                                         insured financial institutions and/or individuals. Their purpose
                                         is to correct noted safety and soundness deficiencies, ensure
                                         compliance with federal and state banking laws, assess civil
                                         money penalties, and/or pursue removal proceedings. Formal
                                         actions are legally enforceable. Final formal orders are
                                         available to the public after issuance.
                                   A financial institution in the United States generally must file a
                                   currency transaction record for each transaction in currency over
                                   $10,000. A transaction in currency is any transaction involving the
Currency Transaction               physical transfer of currency from one person to another and covers
Report                             deposits, withdrawals, exchanges, or transfers of currency or other
                                   payments. Currency is defined as currency and coin of the United
                                   States or any other country as long as it is customarily accepted as
                                   money in the country of issue.




                                                            44
                                        This Report Contains Confidential Information
                       For Official Use Only                                   Restricted Information
                                                                                                      APPENDIX VIII


                                            GLOSSARY

           Term                                                   Definition
                                 The Department of the Treasury’s mission is to (1) promote
                                 prosperous and stable American and world economies, (2) manage
                                 the Government’s finances, (3) safeguard our financial systems, (4)
                                 protect our Nation’s leaders, (5) secure a safe and drug-free
                                 America, and (6) continue to build a strong institution. Organized
Department of the Treasury       into offices and bureaus, the Department of the Treasury
                                 encompasses a wide range of programmatic and operational
                                 activities. The Treasury’s Financial Crimes Enforcement Network
                                 (FinCEN) supports law enforcement investigative efforts against
                                 domestic and international financial crimes. Refer to “FinCEN” for
                                 more information.
                                 The DSC promotes the safety and soundness of FDIC-supervised
                                 institutions, protects consumers’ rights, and promotes community
                                 investment initiatives by FDIC-supervised insured depository
                                 institutions. The mission of the DSC is to promote stability and
                                 public confidence in the nation's financial system by:
Division of Supervision and      •    examining and supervising insured financial institutions to
Consumer Protection (DSC)             ensure they operate in a safe and sound manner, consumers'
                                      rights are protected, and FDIC-supervised institutions invest in
                                      their communities; and
                                 •    providing timely and accurate deposit insurance information to
                                      financial institutions and the public.

                                 Sections 10(b) and (c) of the FDI Act empower examiners to make a
                                 thorough examination of all of the affairs of the bank. Section 10(d)
                                 of the FDI Act requires an annual full-scope on-site examination of
                                 every insured state nonmember bank at least once during each 12-
                                 month period. Annual examination intervals may be extended to
                                 18 months under certain conditions. The FDIC also alternates
                                 examination cycles with state regulatory agencies. The statutory
Examinations
                                 requirements in Section 10(d) of the FDI Act do not apply to
                                 specialty examinations. Thus, specialty examinations are governed
                                 by internal DSC policy, not statute. Specialty examinations, which
                                 include BSA examinations, should generally be conducted
                                 concurrently with safety and soundness examinations. Examinations
                                 can be risk-focused to properly assess a financial institution's risk
                                 profile.




                                                          45
                                      This Report Contains Confidential Information
                     For Official Use Only                                   Restricted Information
                                                                                                      APPENDIX VIII


                                            GLOSSARY

           Term                                                   Definition
                                 According to the FDIC Manual of Examination Policies, banks may
                                 exempt certain categories of customers and are not required to file
                                 CTRs for those classes of “Exempt Persons.” Exempted entities
                                 may include, but are not limited to:
                                 •   A bank, to the extent of such bank’s domestic operations;
                                 •   A non-listed business, which is defined as any other commercial
                                     enterprise, to the extent of its domestic operations, except certain
                                     operations included under the Treasury Department’s Part
Exemptions
                                     103.22. Non-listed businesses must meet certain other criteria to
                                     be eligible for exemption status.
                                 •   A payroll customer with respect solely to withdrawals for
                                     payroll purposes from existing transaction amounts.
                                 Banks must verify, at least annually, the status of all entities
                                 designated as exempt. The specific methodology for performing this
                                 assessment is largely at the bank’s discretion; however, results of the
                                 review must be documented.
                                 The FDIC’s Supervision Program promotes the safety and soundness
                                 of FDIC-supervised institutions, protects consumers’ rights, and
                                 promotes community investment initiatives by FDIC-supervised
                                 insured depository institutions.

                                 As supervisor, the FDIC performs safety and soundness
                                 examinations of FDIC-supervised institutions to assess their overall
                                 financial condition, management practices and policies, and
                                 compliance with applicable laws and regulations. Through the
                                 examination process, the FDIC also assesses the adequacy of
                                 management and internal control systems to identify and control
                                 risks. Procedures normally performed in completing this assessment
FDIC Supervision
                                 may disclose the presence of fraud or insider abuse.

                                 The FDIC supervises FDIC-insured state-chartered banks that are
                                 not members of the Federal Reserve System, described as state
                                 nonmember banks. This includes state-licensed insured branches of
                                 foreign banks and state-chartered mutual savings banks. The FDIC
                                 also has special examination authority for state member banks that
                                 are supervised by the Federal Reserve Board, national banks that are
                                 supervised by the Office of the Comptroller of the Currency, and
                                 savings associations that are supervised by the Office of Thrift
                                 Supervision. This authority is exercised in the FDIC’s role as
                                 insurer of those institutions.
                                 The FDIC’s mission is to maintain the stability of and public
Federal Deposit Insurance        confidence in the nation's financial system. To achieve this goal, the
Corporation                      FDIC was created in 1933 to insure deposits and promote safe and
                                 sound banking practices.



                                                          46
                                      This Report Contains Confidential Information
                     For Official Use Only                                   Restricted Information
                                                                                                        APPENDIX VIII


                                              GLOSSARY

            Term                                                    Definition
                                   The Federal Reserve, the central bank of the United States, was
                                   founded by Congress in 1913 to provide the nation a safer, more
                                   flexible, and more stable monetary and financial system. The
                                   Federal Reserve is responsible for
                                   (1) conducting the nation’s monetary policy;
Federal Reserve System
                                   (2) supervising and regulating banking institutions and protecting
                                        the credit rights of consumers;
                                   (3) maintaining the stability of the financial system; and
                                   (4) providing certain financial services to the U.S. government, the
                                        public, financial institutions, and foreign official institutions.
                                   The Formal and Informal Action Tracking system serves as a central
                                   automated source of information on DSC regulatory actions. When
FIAT
                                   a formal or informal action is contemplated or initiated, a record of
                                   that action is created in FIAT.
                                   Financial Institution Letters are addressed to the chief executive
                                   officers of financial institutions, generally FDIC-supervised
                                   institutions, and may announce new regulations, special alerts
                                   concerning counterfeit financial institutions, new FDIC publications,
Financial Institution Letters
                                   and a variety of other matters, including information related to the
                                   PATRIOT Act, of principal interest to those responsible for
                                   operating a bank or savings association. Refer also to the USA
                                   PATRIOT Act.
                                   The Financial Crimes Enforcement Network is an office within the
FinCEN                             Office of the Under Secretary (Enforcement) of the Department of
                                   the Treasury.
                                   The FDIC may issue formal actions pursuant to Section 8 of the
                                   Federal Deposit Insurance Act. Formal actions include termination
Formal Actions
                                   of federal deposit insurance; cease and desist action; removal,
                                   prohibition, and suspension actions; and civil money penalties.
                                   High Intensity Money Laundering and Related Financial Crime
                                   Areas (HIFCA) is a categorization announced in the 1999 National
                                   Money Laundering Strategy and was conceived in the Money
High Intensity Money               Laundering and Financial Crimes Strategy Act of 1998 as a means of
Laundering and Related             concentrating law enforcement efforts at the federal, state, and local
Financial Crime Area               levels in high intensity money laundering zones. HIFCAs may be
                                   defined geographically, or they can also be created to address money
                                   laundering in an industry sector, a financial institution, or groups of
                                   financial institutions.
                                   Informal actions include a bank board resolution (BBR) and a
                                   Memorandum of Understanding (MOU). DSC may recommend that
                                   an institution commit to address specific noted deficiencies by
Informal Actions
                                   adopting a BBR. DSC may issue an MOU to institutions when there
                                   is reason to believe the deficiencies noted during an examination will
                                   not be addressed adequately by a BBR.


                                                            47
                                        This Report Contains Confidential Information
                       For Official Use Only                                   Restricted Information
                                                                                                       APPENDIX VIII


                                             GLOSSARY

           Term                                                    Definition

Insured Depository                The term insured depository institution means any bank or savings
Institution                       association, the deposits of which are insured by the FDIC.

                                  Any bank, including a foreign bank having a branch, the deposits of
                                  which are insured in accordance with the provisions of the Federal
                                  Deposit Insurance Act, which is not a member of the Federal
Insured Nonmember Bank
                                  Reserve System. The term does not include any institution chartered
                                  or licensed by the Comptroller of the Currency, any District of
                                  Columbia bank, or any savings association.
                                  Internal control is an integral component of an organization’s
                                  management that provides reasonable assurance of achieving
Internal Control
                                  effectiveness and efficiency of operations, reliability of financial
                                  reporting, and compliance with applicable laws and regulations.
                                  A Memorandum of Understanding (MOU) is an informal agreement
                                  between an institution and the FDIC and is signed by both parties.
                                  MOUs, usually drafted by an FDIC official, are designed to address
                                  and correct identified weaknesses in an institution’s condition. The
Memorandum of                     FDIC generally uses MOUs instead of BBRs, especially when there
Understanding                     is reason to believe the deficiencies noted during an examination will
                                  not be addressed adequately by a BBR. The use of an MOU does
                                  not rule out recourse to formal action if the FDIC believes the
                                  institution’s management is unwilling or unable to voluntarily take
                                  necessary corrective action.
                                  Defined by the Office of Management and Budget. A Metropolitan
                                  Statistical Area (MSA) is a large population nucleus, together within
                                  adjacent communities that have a high degree of economic and
                                  social integration with that nucleus. An area qualifies for
                                  recognition as an MSA in one of two ways: (1) if it includes a city
                                  with a population of at least 50,000, or (2) if it includes a Census
                                  Bureau-defined urbanized area (a population of at least 50,000) with
Metropolitan Statistical Area     a total metropolitan population of at least 100,000 (75,000 in New
                                  England). In addition to the county(ies) containing the main city or
                                  urbanized area, an MSA may include additional counties that have
                                  strong economic and social ties to the central county(ies) and meet
                                  specified requirements of metropolitan character. The ties are
                                  determined chiefly by census data on commuting to work. A
                                  metropolitan statistical area may contain more than one city with a
                                  population of 50,000 and may cross state lines.
                                  In federal law, money laundering is the flow of cash or other
                                  valuables derived from, or intended to facilitate, the commission of a
                                  criminal offense. More specifically, money laundering is the process
Money Laundering                  by which criminals or criminal organizations seek to disguise the
                                  illicit nature of their proceeds by introducing them into the stream of
                                  legitimate commerce and finance. Federal authorities attack money
                                  laundering through regulations, criminal sanctions, and forfeitures.

                                                           48
                                       This Report Contains Confidential Information
                      For Official Use Only                                   Restricted Information
                                                                                                      APPENDIX VIII


                                            GLOSSARY

           Term                                                   Definition
                                 Codified to 31 U.S.C. 5301, Improvement of Identification of
                                 Money Laundering Schemes: Required enhanced training,
                                 examinations, and referrals by banking agencies. Each appropriate
                                 federal banking agency shall, in consultation with the Secretary of
                                 the Treasury and other appropriate law enforcement agencies were
                                 required to (1) review and enhance training and examination
                                 procedures to improve the identification of money laundering
                                 schemes involving depository institutions; and (2) review and
Money Laundering
                                 enhance procedures for referring cases to any appropriate law
Suppression Act of 1994
                                 enforcement agency. In addition, the Act required improved
                                 reporting of criminal schemes by law enforcement agencies. The
                                 Secretary of the Treasury and each appropriate law enforcement
                                 agency shall provide, on a regular basis, information regarding
                                 money laundering schemes and activities involving depository
                                 institutions to each appropriate federal banking agency in order to
                                 enhance each agency's ability to examine for and identify money
                                 laundering activity.
                                 There are four federal regulators of banks and savings and loan
                                 institutions:
                                 •    Federal Deposit Insurance Corporation (FDIC) – The primary
                                      federal regulator responsible for state-chartered banks that are
                                      not members of the Federal Reserve System and for state-
                                      chartered savings banks.
                                 •    Board of Governors of the Federal Reserve System (FRB) – The
                                      primary federal regulator responsible for state-chartered
Primary Federal Regulator
                                      commercial bank members of the Federal Reserve System.
                                 •    Office of the Comptroller of the Currency (OCC) – The primary
                                      federal regulator responsible for nationally chartered commercial
                                      banks.
                                 • Office of Thrift Supervision (OTS) – The primary federal
                                      regulator responsible for federally chartered savings and loan
                                      associations, federal savings banks, and state-chartered savings
                                      and loan associations.
                                 The objective of a risk-focused examination is to effectively evaluate
                                 the safety and soundness of the bank, including the assessment of
                                 risk management systems, financial condition, and compliance with
Risk Focused Supervision         applicable laws and regulations, while focusing resources on the
                                 bank’s highest risks. According to DSC examination guidance, the
                                 exercise of examiner judgment to determine the depth of review in
                                 each functional area is crucial to the success of the risk-focused
                                 supervisory process.




                                                          49
                                      This Report Contains Confidential Information
                     For Official Use Only                                   Restricted Information
                                                                                                        APPENDIX VIII


                                              GLOSSARY

            Term                                                    Definition
                                   These periodic, on-premise examinations help maintain public
                                   confidence in the integrity of the banking system and in individual
                                   banks, provide the best means of determining a bank’s adherence to
Safety and Soundness               laws and regulations, protect the financial integrity of the deposit
Examinations                       insurance funds, and provide supervisory agencies with an
                                   understanding of the nature relative seriousness, and ultimate cause
                                   of a bank’s problems and thus the factual foundation to soundly base
                                   corrective measures, recommendations, and instructions.
                                   A suspicious activity report (SAR) must be filed when there are
                                   suspicions that a financial transaction falls into one or more of the
                                   following categories:
                                   •    Is derived from illegal activity or is intended or conducted in
                                        order to hide or disguise funds or assets derived from illegal
Suspicious Activity Report              activity.
                                   •    Is designed to evade BSA requirements, whether through
                                        structuring or other means.
                                   Serves no business or apparent lawful purpose, and the financial
                                   institution can determine no reasonable explanation for the
                                   transaction after examining all available facts.
                                   An act of terrorism can include both domestic and international
                                   actions that (1) involve acts dangerous to human life that violate
                                   criminal laws of the United States or of any state; (2) appear to be
                                   intended to intimidate or coerce a civilian population, influence the
Terrorism
                                   policy of a government by intimidation or coercion, or affect the
                                   conduct of a government by mass destruction, assassination, or
                                   kidnapping; and (3) occur primarily within the territorial jurisdiction
                                   of the United States.
                                   The United and Strengthening America by Providing Appropriate
                                   Tools Required to Intercept and Obstruct Terrorism Act of 2001,
                                   also known as the USA PATRIOT Act. The USA PATRIOT Act
                                   was enacted on October 26, 2001 and is directed primarily at anti-
USA PATRIOT Act                    terrorism. Title III of the Act contains several anti-money
                                   laundering provisions that affect financial institutions. The
                                   Secretary of the Treasury has the authority to impose provisions
                                   under this Act on financial institutions. The Act expands
                                   requirements that are included under the Bank Secrecy Act of 1970.
                                   Virtual Supervisory Information on the Net system, which is used to
                                   capture data on the results of DSC’s reports of examination,
ViSION
                                   including identified BSA violations and to report those violations to
                                   the Treasury Department.




                                                            50
                                        This Report Contains Confidential Information
                       For Official Use Only                                   Restricted Information
                       APPENDIX IX



CORPORATION COMMENTS
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     52
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     53
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     54
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     55
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                       APPENDIX IX



CORPORATION COMMENTS
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     57
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     58
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     59
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     60
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     61
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     62
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                                                                                 APPENDIX IX
                 CORPORATION COMMENTS




                                     63
                 This Report Contains Confidential Information
For Official Use Only                                   Restricted Information
                                                                                                 APPENDIX IX
                                 CORPORATION COMMENTS

                                              EXHIBIT II


          Internal Assessment of the FDIC Division of Supervision and
          Consumer Protection’s Program to Evaluate Bank Compliance
                           with the Bank Secrecy Act


Primary Objective: Provide an internal assessment of the Division of Supervision and
Consumer Protection’s responsibility under the Bank Secrecy Act, the corresponding supervisory
program that ensures state non-member institutions comply with the regulatory rules that
implement the BSA, and current DSC initiatives to execute BSA rule modifications.


Secondary Objective: Evaluate institutions sampled by the Office of Inspector General and
discussed in the draft audit report Supervisory Actions Taken for Bank Secrecy Act Violations.


Date:     March 17, 2004


Contact: Lisa D. Arquette
         Special Activities Section Chief
         (202) 898-8633




                                                     64
                                 This Report Contains Confidential Information
                For Official Use Only                                   Restricted Information
                                                                                               APPENDIX IX

                               CORPORATION COMMENTS


           INTERNAL ASSESSMENT OF DSC’S PROGRAM TO EVALUATE
                     BANK COMPLIANCE WITH THE BSA



Executive Summary                                                                                     66

Responsibilities of the FDIC to Facilitate BSA Compliance                                             68

BSA Supervisory Approach                                                                              69
        Risk-Focused Supervisory Strategy                                                             70
        Enforcement Actions Related to the BSA                                                        71
        Individual Enforcement Action Cases                                                           74

Refining Supervisory Strategies                                                                       78
         Industry Outreach                                                                            79
         Global Counter-Terrorist Financing Initiatives and Technical                                 80
         Assistance
         Domestic Anti-Money Laundering and Counter-Terrorist                                         81
         Financing Initiatives

Overall Assessment of DSC Supervisory Approach                                                        81

Appendix A: OIG Audit of DSC’s BSA Program                                                            83
        Conclusion of DSC Supervisory Approach to OIG-Sampled                                        131
        Institutions

Appendix B: History of the BSA                                                                       132
         BSA Legislative Changes                                                                     133


Tables and Maps

Table 1   Summary of Individual Enforcement Action Case Activity                                      77

Table 2   OIG’s Sampled Institutions                                                                  85

Map 1     Banks from OIG Sample                                                                       86

Map 2     Banks Identified from OIG Sample as Inadequate Follow Up                                    87




                                                   65
                               This Report Contains Confidential Information
              For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA


EXECUTIVE SUMMARY

The primary objective of this document is to provide an internal assessment of the Division of
Supervision and Consumer Protection’s (“DSC”) responsibility under the Bank Secrecy Act
(“BSA”), the corresponding supervisory program that ensures state non-member institutions
comply with the regulatory rules that implement the BSA, and current DSC initiatives to execute
BSA rule modifications. A secondary objective is to evaluate institutions sampled by the Office
of Inspector General (“OIG”) and described in the draft audit report, Supervisory Actions Taken for
Bank Secrecy Act Violations (refer to Appendix A).

Overall, the findings of the internal assessment suggest the DSC has developed and implemented
an effective supervisory program to monitor and enforce BSA compliance in FDIC-supervised
institutions. The DSC has established effective policies, guidance, and practices for educating
and examining FDIC-supervised institutions, identifying areas of non-compliance with the BSA,
and ensuring that any weaknesses in an institution’s BSA program are corrected.

In general, the DSC has implemented a risk-focused approach to assess compliance with the
BSA, which emphasizes a strong control and compliance environment within FDIC-supervised
institutions. The vast majority of FDIC-supervised institutions are small, community-based,
locally-owned institutions that operate in rural or suburban environments. The institutions’
customers are well known by bank management and unusual cash transactions are uncommon.
In light of this, the DSC believes a flexible supervisory approach using technical guidance, moral
suasion and a gradual escalation of enforcement action is appropriate.

While issuing enforcement actions has proven effective in numerous instances where serious
noncompliance with the BSA was noted, the DSC has determined that enforcing BSA
compliance is most effectively handled in the majority of FDIC-supervised institutions within the
normal course of supervisory efforts. This supervisory approach relies upon the proven ability
and willingness of bank management to correct deficiencies and establish an adequate
compliance program. The DSC has generally relied on this approach to address technical
noncompliance where the exposure to risk of potential money laundering activities is low based
on the profile of the institution and history of management’s actions in addressing identified
weaknesses.

However, the DSC responds aggressively in cases where a greater risk for potential money
laundering exists within an institution. These more serious situations may include willful non-
compliance, absence of a BSA program, or significant apparent violations of law. The FDIC’s
supervisory response in various cases often involves the use of formal and informal enforcement




                                                      66
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                   APPENDIX IX
                                   CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

actions. Enforcement actions are generally pursued when immediate corrective action is
required in order to prevent elevated risks from potential money laundering activities. These
actions have also been issued against unresponsive or ineffective management and boards of
directors. The DSC has issued several formal actions, including Orders to Cease and Desist and
Orders of Prohibition from Further Participation, which address substantially deficient programs
and illicit activities of insiders. Additionally, informal actions have also been used to effect
compliance at institutions where policies and practices need significant improvement.

A notable change to the BSA focus and the DSC’s corresponding supervisory approach
unexpectedly occurred in 2001. Prior to the terrorist events of September 11, 2001, the emphasis
behind enforcement of the BSA was primarily directed toward the criminal activities of
organized crime syndicates and international drug trafficking organizations and preventing those
entities from utilizing the United States banking system to engage in money laundering activities.
However, since the tragic events of September 11th, the BSA has taken on an elevated level of
national priority. Efforts directed towards this national and global initiative have been amplified
to provide assistance to the war on terror. The anti-money laundering (“AML”) provisions of the
BSA were augmented (with the passage of the USA PATRIOT Act of 200121) and have become
a useful tool in tracing terrorist financing activities The identification and prevention of potential
money laundering and terrorist financing is a primary element of bank supervision.

As a primary federal regulator, the FDIC recognizes the importance of this issue to the banking
industry and homeland security. In response, the DSC has been proactive in the development
and issuance of interagency examination guidance and examiner training to ensure appropriate
enforcement of the provisions of the BSA and the USA PATRIOT Act. Additionally, the DSC
has organized and participated in numerous outreach programs intended to inform and educate
the banking industry of USA PATRIOT Act compliance requirements, given the rapidly
changing landscape of money laundering and terrorist financing concerns. Furthermore, while
the DSC has considerably expanded its bank supervision policies and practices in this area; much
of the DSC’s efforts to proactively respond involve interagency and joint law enforcement
initiatives.

Many of these initiatives include domestic and international partnerships. These initiatives
include: participation in the Financial Actions Task Force (“FATF”) and in the FATF’s Working
Group on Terrorist Financing (“WGTF”); participation in the Basel Committee decision-making
process in reviewing the “Know Your Customer” risk management report; participation in

21
  USA PATRIOT Act is the acronym for “Uniting and Strengthening America by Providing
Appropriate Tools Required to Intercept and Obstruct Terrorism Act of 2001.”




                                                       67
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

working groups and technical assistance missions sponsored by the Departments of State and
Treasury, which are designed to assess vulnerabilities to terrorist financing activity worldwide
and to develop and implement plans to assist foreign governments concerning these issues; and
serving as point-of-contact (“POC”) liaison between the Financial Crimes Enforcement Network
(“FinCEN”) and FDIC-supervised institutions in the USA PATRIOT Act Section 314(a)
terrorist-subject biweekly searches. The DSC also issues Financial Institution Letters to relay
regular updates on Specifically Designated Nationals and Blocked Persons and Specifically
Designated Global Terrorists as required by the Department of the Treasury’s (“Treasury”)
Office of Foreign Assets Control (“OFAC”).

Overall, the DSC has been responsive to the intent of the BSA by establishing a comprehensive
supervisory approach, which includes conducting BSA compliance examinations and ensuring
appropriate supervisory follow up when BSA concerns exist in FDIC-supervised institutions.
Additionally, the DSC has been proactive in addressing recent changes to the BSA by being an
active participant in the USA PATRIOT Act rulemaking process, incorporating those rules into
examiner and industry guidance, providing various forms of examiner and industry training and
outreach sessions, and assisting in global anti-money laundering and counter-financing of
terrorism efforts.


RESPONSIBILITIES OF THE FDIC TO FACILITATE BSA COMPLIANCE

While the BSA statute designates the Secretary of the Treasury as the authority to administer the
BSA,22 the Treasury regulations allow the Secretary to delegate authority to examine financial
institutions to determine compliance with the requirements of Part 103, Treasury’s Financial
Reporting and Recordkeeping Regulations. The FDIC’s responsibilities under Section
103.56(b)(3) and (e) are to examine financial institutions for compliance with Part 103 and to
make periodic reports to the Assistant Secretary of the Treasury. The DSC reviews compliance
with Part 103 at every safety and soundness examination. Part 103 does not prescribe the
frequency at which compliance should be reviewed. The DSC conducts BSA compliance
reviews concurrent with all full-scope on-site safety and soundness examinations of every FDIC-
supervised institution.


22
   FinCEN was established in April 1990 to provide a government-wide, multi-source intelligence and analytical
network. FinCEN’s operation was broadened in 1994 to include regulatory responsibilities. In October 2001, the
USA PATRIOT Act elevated FinCEN to bureau status and emphasized its role in fighting terrorist financing.
FinCEN administers the BSA (comprehensive anti-money laundering statute) and is responsible for expanding the
regulatory framework to industries vulnerable to money laundering, terrorist financing, and other crime.




                                                         68
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Section 8(s) of the Federal Deposit Insurance Act (“FDI Act”) provides additional BSA-related
responsibilities [refer to Exhibit I for the Legal Division’s Analysis of Section 8(s)]. Section
8(s)(1) of the FDI Act requires each appropriate Federal banking agency to prescribe regulations
requiring insured depository institutions to establish and maintain procedures reasonably
designed to assure and monitor the compliance of such depository institutions with the
requirements of Subchapter II of Chapter 53 of Title 31, United States Code. The implementing
regulation for Section 8(s) of the FDI Act is Part 326, Subpart B - Procedures for Monitoring
BSA Compliance (12 CFR Section 326.8). In addition, Section 8(s)(2)(A) requires that each
examination of an insured depository institution by the appropriate Federal banking agency shall
include a review of the procedures required to be established and maintained under Section 326.8
of the FDIC Rules and Regulations (refer to Appendix B for BSA History and Legislative
Changes).


BSA SUPERVISORY APPROACH

BSA Compliance Examination Process. The FDIC is responsible for ensuring that state-
nonmember banks comply with the BSA. At each safety and soundness examination, the
adequacy of an institution’s BSA compliance program and procedures is assessed. After a
complete analysis of the bank, which includes capital, asset quality, management, earnings,
liquidity, and sensitivity to market risk, ratings are assigned and a report of examination is
prepared. Composite ratings are based on a careful evaluation of an institution’s managerial,
operational, financial, and compliance performance. The BSA compliance examination is
considered very important and is conducted as part of the entire examination process. BSA
findings contribute most significantly to the management component rating, but can have a
significant influence on the composite rating, when notable deficiencies exist.

Over the past seven years, the FDIC has conducted more than 17,750 BSA compliance
examinations. Examiners document their findings in a Report of Examination. The DSC
provides an aggregate report to FinCEN on apparent violations of the Treasury’s Financial
Reporting and Recordkeeping Regulations (31 CFR 103) and the FDIC’s Section 326.8
identified during examinations. Also, the DSC makes referrals to FinCEN on significant matters
and informs FinCEN of actions that the FDIC has taken against FDIC-supervised institutions or
institution-affiliated parties (“IAPs”).

Financial institutions are required to have a written BSA policy and program. Employee training
programs, audit procedures, and senior-level oversight are also required. The DSC employs a
variety of supervisory methods to ensure that financial institutions establish and maintain an
adequate BSA program. The majority of apparent BSA violations involve minor infractions,




                                                      69
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

generally isolated to a few occurrences, and those infractions are generally corrected while the
examiners are still in the institution or shortly after their departure. Occasionally, there are some
institutions that fail to correct violations or implement adequate compliance programs, which the
DSC examiners discover at subsequent examinations. Generally, for those institutions, the DSC
performs additional monitoring through on-site visitations conducted between the regularly
scheduled examinations and, when appropriate, takes other supervisory action. Over the past
seven years, the DSC has taken 40 formal actions and entered into 75 informal agreements with
institutions that demonstrated significant and/or recurring weaknesses regarding BSA
compliance.

Risk-Focused Supervisory Strategy. The FDIC is the primary federal regulator of approximately
5,300 insured financial institutions holding total assets of almost $1.7 trillion. By contrast, the
Federal Reserve Board (“FRB”) supervises 935 banks with assets of $1.9 trillion, and the Office
of the Comptroller of the Currency (“OCC”) supervises about 2,000 banks with assets of $4.1
trillion. The majority of FDIC-supervised institutions are smaller and located in less-densely
populated areas. Of the 5,300 institutions supervised by the FDIC, 2,850, or 54 percent, are not
located in metropolitan areas or MSAs23 and hold 22 percent of FDIC-supervised assets. The
remaining 46 percent of FDIC-supervised banks are located in metropolitan areas and hold 78
percent of FDIC-supervised assets.

The DSC has adopted a risk-focused approach to proactively assess risk for institutions and apply an
appropriate amount of supervisory resources. In doing so, the DSC considers an institution’s BSA risk
prior to and during an examination. An examiner might consider an institution with the following
characteristics to have a low BSA risk: located in a rural area (non-MSA) or suburban area; not located
in a high-risk money laundering and related financial crimes area (HIFCA24); small asset size; small
deposit base; known and stable customer base; stable management and employee base; and relatively
few reportable transactions (as defined by CFR 103). The DSC factors an institution’s risk of money
laundering into examination planning as well as into the evaluation of identified BSA weaknesses.


23
   MSAs or metropolitan statistical areas are defined by the Office of Management and Budget. An MSA is a large
population nucleus, together with adjacent communities that have a high degree of economic and social integration
with that nucleus. Each MSA must contain either a minimum population of 50,000 or a Census Bureau-defined
urbanized area with a total population of at least 100,000. MSAs comprise one or more counties and may include
one or more outlying counties that have close economic and social relationships with the central county. An outlying
county must have a specified level of commuting to the central counties and also must meet certain standards
regarding metropolitan character. For example, the Washington, D.C. MSA extends from Frederick, Maryland, to
Fredericksburg, Virginia, and includes two counties in West Virginia.
24
   HIFCA is a categorization announced in the 1999 National Money Laundering Strategy and was conceived in the
Money Laundering and Financial Crimes Strategy Act of 1998 as a means of concentrating law enforcement efforts
at the federal, state, and local levels in high intensity money laundering zones.




                                                         70
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

An important factor in risk-focusing BSA compliance examinations is considering whether an institution
is located in a HIFCA, which may be defined geographically or can also be created to address money
laundering in an industry sector, a financial institution, or group of financial institutions. Relevant
federal, state, and local enforcement authorities, prosecutors, and federal financial supervisory agencies
form groups that monitor activity in HIFCAs. Current HIFCA designations for money laundering are
assigned to the MSAs of New York City, New York; Los Angeles, California; Chicago, Illinois; San
Francisco, California; and Miami, Florida. HIFCAs also include the Mexican borders of Texas and
Arizona and San Juan, Puerto Rico. Generally, institutions located in a HIFCA receive more scrutiny
for BSA compliance than the institutions located outside a HIFCA, due to the elevated risk profile of the
market area.

The DSC recognizes that an effective BSA supervisory approach must include a flexible
response towards a financial institution’s money laundering risk and the severity of the
deficiencies noted. Generally, institutions that operate within a HIFCA, have a large and diverse
customer base (including high-risk businesses), transact a large volume of reportable
transactions, and are expected to have comprehensive BSA compliance programs. When those
programs are deficient, the DSC aggressively acts to effect immediate change within those
institutions. Such responses generally involve a form of formal or informal enforcement action.
Enforcement Actions Related to the BSA. The FDIC has the authority to take enforcement action
related to BSA program problems. Enforcement actions are generally taken when bank
management willfully and knowingly neglects the BSA rules and/or is unresponsive to identified
examination weaknesses and apparent violations of the BSA or implementing rules. Enforcement
action authority is granted by Section 8(s) of the FDI Act. While 8(s)(3) authorizes the FDIC to
issue enforcement actions against institutions for BSA program problems and violations of law, the
DSC has taken the position that this authority is discretionary and should be used judiciously.25

When the DSC conducts BSA compliance examinations, weaknesses and apparent BSA
violations are documented in the report of examination and discussed with bank management
and, if serious, the institution’s board of directors. Generally bank management responds to
identified weaknesses during or shortly after the examination. In instances when corrections

25
   Excerpt from the Legal Division’s analysis of Section 8(s) [see Exhibit I, Interpretation and Application of
Section 8(s), dated March 12, 2004]: “Section 8(s)(3) applies to violations that demonstrate a flaw in the BSA
compliance procedures or program which are violations of Section 326.8(c) of the FDIC Rules and Regulations, 12
C.F.R. 326.8(c), not to individual violations of the BSA or implementing regulations (such as isolated instances of
misfiling Currency Transaction Reports (“CTRs”) or Suspicious Activity Reports (“SARs”), or the failure to carry
out a piece of an adequate written program). In addition, Section 8(s)(3)(B), with regard to previously reported
problems with the procedures, applies only to failures to correct problems identified previously with respect to the
procedures, not to chronologically successive violations that do not indicate that the procedures or program are
flawed.”




                                                         71
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                      APPENDIX IX
                                      CORPORATION COMMENTS

         Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

do not occur, and the DSC determines that a serious program flaw continues to exist, a more
aggressive supervisory action is taken. However, it should be noted that an isolated or
technical problem or violation does not rise to the level of a serious program flaw; initiating
an enforcement action in such cases would not be an effective manner to address those
problems.26 Consistent with the Legal analysis, the DSC’s approach has been to
differentiate between serious BSA program problems within an institution versus isolated
and technical weaknesses. In practice, isolated and technical weaknesses can be addressed
within the normal course of supervisory process.

The DSC believes a flexible supervisory approach using technical guidance, moral suasion,
and a gradual escalation of enforcement action is appropriate. However, a more aggressive
supervisory approach is taken to effect correction when a greater risk for potential money
laundering exists within an institution and there is willful non-compliance of the BSA,
absence of a BSA program, and/or significant apparent violations of law.27 For example,
from January 1, 1997, through September 30, 2003, FDIC institutions and IAPs were subject
to 115 formal and informal enforcement actions that addressed deficiencies in compliance
with rules implementing the BSA. These actions, in whole or in part, address criticisms and
apparent violations cited in reports of examination. These actions consist of the following:

     •    Bank Board Resolutions (“BBR”) require the institution’s board of directors to draft a
          written response addressing weaknesses cited in FDIC reports of examination and present
          this document to the FDIC for notification.

     •    Memorandums of Understanding (“MOU”) serve as a written agreement between the
          institution’s board of directors and the FDIC, on specific weaknesses cited in reports of


26
   Excerpt – “Moreover, a different procedural or program flaw in each of two consecutive examinations of a bank
would not, in our opinion, constitute a “repeat” violation by the bank. Therefore, many problems under and
violations of Section 326.8 do not fall within the scope of Section 8(s) regardless of the interpretation of the term
“shall” in Section 8(s).”
27
   Excerpt -“The absence of a mandate to bring a cease and desist action to address every violation of Section 8(s)
or the regulations does not imply that the alternative is to take no action. To the contrary, the statutory intent must
be to take an appropriate corrective action based upon the severity of the problem, the risks it poses, and the bank’s
willingness to comply expeditiously. For example, where there is a repeat procedural problem identified during an
examination but it is immediately corrected by management, there is no need for a cease and desist order to achieve
correction. Similarly, if correction immediately after an examination is assured either by an informal MOU or
otherwise, there is no need for an order. In addition, where correction is mandated or obtained by a cease and
desist order issued under section 8(b) as part of an overall correction program for BSA and other violations no
other or separate action under section 8(s) is necessary. This has been the FDIC’s practice, and we believe it
comports with the intent of the statute.”




                                                          72
                                      This Report Contains Confidential Information
                     For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

        examination that include cited apparent violations and systematic weaknesses in
        compliance efforts.

   •    Orders include provisions/requirements from the FDIC to the institution’s board of
        directors and senior management, which require the institution, or IAPs, to cease and
        desist from activities that weakened the institution’s BSA compliance program. Orders
        also include the removal or prohibition of individuals from further participation with
        insured institutions.

The type of enforcement action pursued by the DSC against an institution or IAP is directly
related to the severity of the offense, management’s willingness and ability to effectively
implement corrective action, as well as the extent to which the program has failed to identify
and/or deter potential money laundering. Additionally, the nature of the criticism, the response
to prior weakness or violation notifications and the overall risk profile of the institution are
factored into the type of supervisory action, as well as any determination to assess civil money
penalties. When weaknesses are identified at institutions that have a high BSA risk profile, such
as those located within a HIFCA, the DSC has been aggressive in taking supervisory action.
Formal actions taken against institutions that operate within HIFCAs represent more than half of
the total actions taken over the audit timeframe.

Formal actions have generally been imposed on institutions or IAPs where the activities of the
individuals, or inaction, are so negligent that the bank has allowed or has significantly increased
its exposure to potential money laundering activities. Supervisory enforcement actions taken
since 1997 includes several Section 8(e) Orders of Prohibition from Further Participation
against IAPs that not only failed to establish effective compliance programs within their
institutions, but also actively engaged in activities that intentionally violated governing rules
implementing the BSA. Also included within the summary of enforcement actions for this time
period are Section 8(b) Orders to Cease & Desist against institutions that failed to establish
adequate compliance programs that effectively identify and report potential money laundering
activities. In many cases, the bank deficiencies and apparent violations were so egregious and
demonstrated such a blatant disregard for compliance with the BSA, that civil money penalties
were assessed (one in the amount of $7,500,000). While these actions demonstrate the diligence
of the DSC to effect immediate change when necessary, the DSC has also effectively utilized
informal actions to strengthen the compliance efforts of its supervised institutions.

Informal actions against institutions and IAPs remain the FDIC’s most effective tool in creating
an environment within the banking industry to identify and deter potential money laundering
activity in institutions where significant weaknesses have been identified. BBRs and MOUs
provide the written notice to bank management and boards of directors that significant




                                                      73
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

deficiencies exist within BSA compliance programs; BBRs and MOUs also establish the
mechanism for corrective action. By establishing a written agreement and expedient timeframes
for correction, the FDIC has been able to strengthen the AML environment within certain of its
supervised institutions.

Included within the total number of enforcement actions are several cases in which the FDIC has
taken targeted and aggressive action against the board of directors and senior management of
certain institutions that had substantially ineffective BSA compliance program policies and
procedures in place. Some of these cases are discussed more fully below.

Individual Enforcement Action Cases. The following case descriptions demonstrate that the
DSC takes aggressive, appropriate measures when the risk for potential money laundering and
serious BSA program problems exist.

Foreign-owned, state non-member bank and its Federally-insured foreign branches.

At the time of this enforcement action, the institution operated four separately chartered foreign
branches and a state non-member institution. In 2002, one branch was subject to a Section 8(p)
Order to Terminate Deposit Insurance, as it was not engaged in the business of receiving deposits
(other than trust funds). Also, in 1994, the state non-member institution and its affiliates
consented to the issuance of a Section 8(b) Order to Cease & Desist for operating in violation of
FDIC Rules and Regulations that implement Treasury’s rules for BSA compliance. The Order
required the prompt correction of numerous significant violations resulting from an inadequate
BSA compliance program. The Order was terminated in 1995. All of these entities operate
within HIFCAs.

A 2001 examination of the foreign branches, conducted concurrently by the FDIC, Federal
Reserve Bank (“FRB”), and a state banking department, identified a number of deficiencies and
violations, including significant BSA compliance weaknesses. The deficiencies cited at the
branches and agencies of the foreign branches did not include the state non-member institution,
which was the subject of the previous enforcement action taken in 1994 and terminated in 1995
(see paragraph above). Additionally, subsequent to the deficiencies noted at the 2001
examination of the foreign branches, the FDIC initiated a targeted BSA examination of the state
non-member institution. The examination concluded that the state non-member institution had
maintained an effective BSA compliance program.

Appropriate guidelines at these branches are considered vital since its operations are considered
to be high-risk for AML purposes, due to the large volume of wire transfer activity and U.S.
dollar-denominated checks purchased by customers at the 700 domestic and foreign branches.




                                                      74
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                   APPENDIX IX
                                   CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

As a result of the high-risk profile of the institution and the severity of these problems, including
the repetitive nature of the BSA-related deficiencies, the supervising agencies jointly issued, in
2001, a Section 8(b) Order to Cease & Desist and assessed a civil money penalty against the
branches. However, the state non-member institution was not made a part of those formal
actions.

State non-member institution and two principals, individually

In this instance, the state non-member institution is located in a HIFCA. In 2003, the former
president and director, stipulated to the issuance of an Order of Prohibition from Further
Participation. The Order resulted from discovery of activities conducted by the former president
on behalf of a family member and a former bank director, which were in violation of the BSA.
Specifically, the individual, while serving as bank president willfully and repeatedly engaged in
the structuring of cash transactions to avoid reporting requirements and attempted to conceal
those activities. This matter was discovered by bank staff in 2001, which prompted a FDIC
visitation and ultimately a full-scope BSA examination, which was jointly conducted by the
FDIC and the state banking authority. The individual resigned from the bank in 2002.

The full-scope BSA examination conducted in 2002, identified numerous deficiencies in policies
and procedures relating to BSA compliance. In 2003, the FDIC and state regulator jointly issued
a Section 8(b) Order to Cease & Desist, which was primarily a result of the significant
weaknesses in the bank’s BSA compliance program, including numerous violations of law.

The FDIC also pursued a Section 8(e) action against a former bank director for participation in
structuring cash transactions to avoid reporting requirements. In 2004, the individual executed a
Stipulation and Consent to the Issuance of an Order of Prohibition.

Federally-insured foreign branches

In this example, a foreign bank had two United States Federally-insured foreign branches, both
of which are located in HIFCAs. Targeted BSA examinations of both branches were conducted
in 1999. These visitations identified significant weaknesses in the branch policies and practices
related to BSA compliance, including numerous apparent violations of the rules implementing
the BSA. The FDIC issued a Section 8(b) Order to Cease and Desist in 2000, against both
branches.

FinCEN assessed a Civil Money Penalty for failure to comply with the reporting and
recordkeeping requirements of the BSA. Additionally, the branches’ failure to comply with




                                                       75
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

currency transaction report (“CTR”) filing requirements exposed the entities to elevated risk of
possible money laundering activities.

State-chartered savings bank and insider, individually

In 2000, the former president and chief executive officer of the institution, stipulated to the
issuance of a Section 8(e) Order of Prohibition from Further Participation. The Order resulted
from discovery of activities by the respondent which were in violation of the BSA. Specifically,
the individual, while serving as president and chief executive officer of the bank, willfully and
repeatedly engaged in the structuring of cash deposits on behalf of a bank customer and
attempted to conceal these activities. This matter was discovered internally by the bank BSA
officer. The former president and chief executive officer was removed from banking industry in
2001.

State non-member institution and two insiders, individually

This state non-member institution is located in a HIFCA. The institution stipulated to a Section
8(b) Order to Cease & Desist in 2002, as a result of the poor financial condition and weak
management of the institution as detailed in a 2002 Report of Examination. While under the
existing Order, the FDIC and state banking regulator conducted a joint examination in 2003.
During that examination problems were identified in the institution’s BSA compliance program,
including a number of apparent violations related to poor program controls, as well as suspected
illicit activities of the former president and chief executive officer and former chief lending
officer. The apparent violations included structuring currency transactions to avoid reporting
requirements, directing bank staff not to file required CTRs and facilitating check kiting and
money laundering by bank customers.

State non-member institution

This state non-member institution is located in a HIFCA. Findings documented in the 1998
FDIC visitation report relate to the institution’s inadequate BSA compliance efforts, significant
weaknesses in policies and practices, and numerous apparent violations of the rules
implementing the BSA. As a result of the weaknesses identified at the visitation and the
repetitive pattern of apparent violations, the FDIC issued a Section 8(b) Order to Cease and
Desist. The institution implemented acceptable and appropriate corrective actions, and the Order
was terminated in 2000.FinCEN assessed a civil money penalty for deficient BSA compliance
procedures and failure to comply with suspicious activity report (“SAR”) filing requirements.




                                                      76
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                              APPENDIX IX
                              CORPORATION COMMENTS

 Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Table 1                Summary of Individual Enforcement Action Case Activity

          Institution Name                  Enforcement            Effective         CMP Assessed
                                            Action Type              Date
Foreign-owned, state non-member                     8(b)                 2001                     Yes
bank and affiliated Federally-                      8(b)                 1994                    None
insured foreign branches
State non-member institution and                 8(b); 8(e);               2003                  None
two principals, individually                            8(e)               2004

Federally-insured foreign                                8(b)              2000                   Yes
branches
State-chartered savings bank and                         8(e)              2000                  None
insider, individually
State non-member institution and                         8(b)              2003                  None
two insiders, individually

State non-member institution                             8(b)              1998                   Yes




                                                  77
                              This Report Contains Confidential Information
             For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

REFINING SUPERVISORY STRATEGIES

The FDIC is proactive in the development and implementation of measures to comply with the
USA PATRIOT Act and combat money laundering and terrorist financing. One fundamental
activity has been participation in numerous interagency working groups formed for the purpose
of drafting risk-based revisions to the BSA, as required by the USA PATRIOT Act, and
developing interpretive guidance for the financial services community. The DSC has
participated in the following working groups, which were established for the following Sections
of the USA PATRIOT Act:
•    311- Special Measures for Jurisdictions, Financial Institutions, or International Transactions of
     Primary Money Laundering Concern
•    312 -Special Due Diligence for Correspondent Accounts and Private Banking Accounts
•    313/319- Prohibition on United States Correspondent Accounts with Foreign Shell Banks and
     Forfeiture of Funds in United States Interbank Accounts
•    314-Cooperative Efforts to Deter Money Laundering
•    324-Report and Recommendation (On Subtitle A- International Counter Money Laundering and
     Related Measures of Title III of The Act)
•    325-Concentration Accounts at Financial Institutions
•    326-Verification of Identification
•    327-Consideration of AML Record
•    352-AML Programs

In accordance with the provisions of the USA PATRIOT Act and through cooperation with other
regulatory partners, the DSC revised the BSA Examination Procedures28 to establish guidance
for reviewing AML and counter-terrorist financing (“CTF”) compliance programs. This
guidance was released to examiners on August 15, 2003, and to the banking community on
October 17, 2003. The DSC is currently updating the Division’s Manual of Examination
Policies to incorporate relevant provisions of the USA PATRIOT Act, augment the OFAC
guidance, and update a variety of other sections. Furthermore, the DSC continues to work with
other bank supervisors, including the many State authorities that comprise the Conference of
State Bank Supervisors (“CSBS”), in issuing both examiner and industry guidance.


28
  When the DSC released the augmented examiner guidance to the banking industry in October 2003, it was slightly
different than the guidance released by the FRB, OCC, and NCUA. Although the revised guidance was a result of
interagency efforts, there is one notable difference. The other agencies released guidance for only Sections 313/319
and 314 of the USA PATRIOT Act. Our examination guidance is comprehensive and covers all of the newly issued
rules required by the USA PATRIOT Act. Given the importance of the Customer Identification Program rule as a
gatekeeper to prevent money launderers and terrorists from having access to U.S. banks, we believed it was
necessary that examiners have guidance to review compliance with this rule as soon as possible.




                                                         78
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Additionally and in relation to potential money laundering or terrorist financing threats, the DSC
changed the application review program to consider prohibitions against certain types of
relationships with financial institutions, particularly foreign shell banks. The DSC has amended
the Statement of Policy on Bank Merger Transactions to consider the effectiveness of any
insured depository institution involved in a proposed merger transaction in combating money
laundering activities, including in overseas branches.

To help facilitate cooperation with law enforcement authorities in their ongoing investigation of
terrorist activities through the implementation of Section 314(a) of the USA PATRIOT Act, the
DSC worked with the other federal banking agencies to add emergency contact and Section
314(a) POC information to the Consolidated Reports of Condition and Income (“Call Report”).
The POC line item ensures that the information is current and updated quarterly. The FDIC is
the first among the banking regulators to automate the process that provides the most current
POC information to FinCEN, who in turn distributes Section 314(a) name search requests to
financial institutions. Also, with respect to Section 314(a) banker POC data, in 2004 the FDIC
will function as the liaison between FinCEN and the OCC.

Industry Outreach. The DSC has already taken steps to educate field staff and members of the
banking industry on USA PATRIOT Act and BSA compliance rules at training conferences,
seminars, Directors’ Colleges, and FDIC-sponsored training courses. In 2003 alone, FDIC staff
discussed AML issues at approximately 130 different venues.

The DSC also implemented a written form of communication to distribute AML guidance to the
banking industry through Financial Institution Letters (“FILs”). The FDIC issues FILs
addressing AML measures as well as lists of Specifically Designated Nationals and Blocked
Persons and Specifically Designated Global Terrorists. Since 2002, the DSC has issued 16 FILs
addressing BSA compliance and AML measures. These FILs provide bankers with guidance on
topics such as: customer due diligence and detecting terrorist activity; rule changes and required
BSA forms, including changes related to the USA PATRIOT Act; and SAR Reviews, which are
prepared and issued by FinCEN. Since 2002, the DSC has also issued 68 FILs notifying the
banking industry of changes to the OFAC list of terrorists and specially designated nationals.

Furthermore, the DSC’s Manual of Examination Policies as well as examination procedures were
made available to bankers via the FDIC’s external website. The DSC is in the process of
incorporating BSA, AML, and CTF guidance on the FDIC’s external website.




                                                      79
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                   APPENDIX IX
                                   CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Global Counter-Terrorist Financing Initiatives and Technical Assistance. The DSC believes
that strong governance of foreign banking programs contributes to the stability of foreign
economies, enhances trade opportunities for U.S. companies, and reduces opportunities for
money laundering. Therefore, the DSC actively participates in working groups and technical
assistance missions sponsored by the Departments of State and Treasury to assess vulnerabilities
to terrorist financing activity worldwide and to develop and implement plans to assist foreign
governments in the enforcement efforts directed towards financial crimes. To facilitate its
commitment to these assignments, the FDIC established a twenty-two member task force
comprised of examiners and attorneys that have received specialized AML and CTF training.

In 2002, the FDIC provided AML technical assistance and CTF training to the governments of
the Republic of Marshall Islands, Fiji, and Pakistan. Also in 2002, FDIC’s staff met with
supervisory and law enforcement representatives, senior prosecutors, and financial intelligence
unit directors from Brazil, St. Lucia, Dominica, Barbados, St. Vincent and the Grenadines,
Antigua, Grenada, Chile, and Russia. Another foreign-directed BSA training program was held
by the FDIC for representatives from Germany, Armenia, Venezuela, Bosnia and Herzegovina,
Serbia, Bulgaria, Hungary, Canada, Estonia, Hong Kong, China, Indonesia, Japan, Thailand,
Czech Republic, Mozambique, and Turkey.

In 2003, FDIC experts participated in technical assessment missions to Bangladesh, the Republic
of Palau, Macau, China, and Panama and also provided AML and CTF training to regulators
from Bahrain, Egypt, Jordan, Pakistan, Qatar, Saudi Arabia, Panama, Brazil, Argentina,
Paraguay, Venezuela, Thailand, Malaysia, Philippines, and Indonesia. Also, in 2003, FDIC met
with supervisory representatives from Anguilla, Antigua, Armenia, Aruba, Austria, the Bahamas,
Barbados, Barbuda, Belize, Brazil, British Virgin Islands, the Cayman Islands, Dominica,
Estonia, Grenada, Guyana, Haiti, Italy, Jamaica, Montserrat, Netherlands Antilles, Poland,
Russia, St. Kitts and Nevis, St. Lucia, St. Vincent and the Grenadines, Suriname, Taiwan,
Trinidad and Tobago, and the Turks and Caicos Islands. In addition, the FDIC provided training
to central bankers from Korea, Nigeria, and Bahrain on AML and the USA PATRIOT Act. In all
cases, the visitors were very interested in the FDIC’s AML examination programs and our
progress in implementing the USA PATRIOT Act provisions.

Also, the FDIC has participated in a number of meetings with the FATF on developing anti-
money laundering recommendations, including the October 2001 extraordinary plenary held in
Washington, D.C. This plenary developed several anti-terrorist funding recommendations that
are currently used as standards by the international community when assessing a country’s
vulnerabilities to terrorist funding and the adequacy of the measures it has in place to curtail such
activity. The FDIC continues to participate in FATF’s WGTF through interagency meetings
held at the Treasury.




                                                       80
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Furthermore, through participation on the Basel Committee, the FDIC has been involved in the
decision-making process that led to the approval and issuance of a number of international
guidelines on money laundering. For example, the DSC participated in the decision-making
process of the Basel Committee in reviewing the “Know Your Customer” risk management
report and evaluated the progress report on jurisdictions with cross-border banking impediments.

Domestic Anti-Money Laundering and Counter-Terrorist Financing Initiatives. For many years,
the DSC has worked with the Treasury, FinCEN and the other banking agencies in setting
international standards, developing policies, and implementing best practices to combat money
laundering and more recently, terrorist funding, as part of the United States AML regime. For
example, the Money Laundering Suppression Act of 1994 required the agencies, in consultation
with the Treasury and appropriate law enforcement agencies, to review and enhance their
procedures to better evaluate financial institutions’ programs to identify money laundering
schemes involving depository institutions. This statute led to an interagency project to revise
examination procedures. Since then, the DSC continues to work with the other federal and state
banking agencies to issue risk-focused examination procedures designed to evaluate a financial
institution’s AML program and compliance with the BSA and rules implementing the USA
PATRIOT Act.

Since 1999, the DSC has participated in the Steering Committee to oversee the implementation
of the National Money Laundering Strategy, an annual effort led by the Departments of Justice
and Treasury. The interagency effort was required by the Money Laundering and Financial
Crimes Strategy Act of 1998. The DSC works with each of the sub-groups charged with
addressing the Strategy’s action items related to the supervision of financial institutions. The
DSC also participates in a workgroup to draft the “International Narcotics Control Strategy
Report,” which is the Department of State’s annual report on illicit drug-control and money
laundering activities.

Finally, another of the DSC’s proactive efforts to ensure that examiners can better identify
money laundering schemes is our participation in the planning and development of AML training
for examiners that is sponsored by the Federal Financial Institutions Examination Council
(“FFIEC”).


OVERALL ASSESSMENT OF DSC SUPERVISORY APPROACH

The DSC agrees that a vigilant BSA supervisory program requires that appropriate supervisory
actions be taken to support compliance with Treasury and FDIC guidance. Our supervisory




                                                      81
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

processes are risk focused and designed to correlate our efforts to areas of risk, thereby
deploying appropriate emphasis across a continuum of low- to high-risk areas. Thorough
examiner assessment and our internal supervisory reviews are critical to these determinations.
The DSC is committed to proactive, vigilant, and effective examination processes to monitor and
mitigate risks in the institutions we supervise. The DSC continues to assess potentially high-risk
situations, through onsite and offsite examination programs, and is confident that our supervision
of such situations is effective and efficient.

Overall, the DSC has been responsive to the intent of the BSA by establishing a comprehensive
supervisory approach, which includes conducting BSA compliance examinations and ensuring
an appropriate supervisory approach when BSA concerns exist in FDIC-supervised institutions.
Additionally, the DSC has been proactive in addressing recent changes to the BSA by being an
active participant in the USA PATRIOT Act rulemaking process, incorporating those rules into
examiner and industry guidance, providing various forms of examiner and industry training and
outreach sessions, and assisting in global AML and CTF efforts.




                                                      82
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                   APPENDIX IX
                                   CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

APPENDIX A: OIG AUDIT OF DSC’S BSA

The FDIC OIG conducted an audit concerning the BSA. The draft audit report Supervisory Actions
Taken for Bank Secrecy Act Violations was issued February 20, 2004. The objective of the audit is to
determine whether FDIC adequately follows up on BSA violations reported for FDIC-supervised
financial institutions, to ensure the institutions take appropriate corrective action. The OIG’s
sample for the audit consisted of a large percent (63 percent) of banks that are not located in
MSAs. Statistically, FDIC-supervised financial institutions are located in more rural areas.
Additionally, in these non-MSA institutions, management and staff have considerably more
knowledge of the customer base, and therefore a significantly reduced risk of money laundering
exists.

Appendix A provides an evaluation of institutions in the OIG’s sample, wherein the OIG
determined that the DSC did not have adequate follow-up29 to the violations and criticisms cited
in the sampled reports of examination (see Table 2). Each Regional Office (“RO”) provided an
analysis of the supervisory approach taken regarding each of the criticized institutions. The
following analysis discusses the OIG’s concern(s), the supervisory approach to the criticized
issues, and an overall conclusion of the supervisory approach. This analysis also considers each
institution’s BSA risk coupled with the supervisory approach.

Data on Table 2 represents: (a) the 43 institutions in the OIG’s original sample (two
institutions30 were removed from the OIG sample); (b) limited supervisory data;
(c) asset-ranges; (d) the OIG’s assessment of the DSC’s supervisory approach to each
institution’s situation (the OIG determined that an adequate follow-up process should occur with
12 months, and as part of that process the DSC should issue an enforcement action for repeat
violations); and (e) the DSC’s evaluation of its supervisory approach related to each institution.
For the 17 institutions where the OIG determined that DSC had an adequate follow-up process
(2, 4, 6, 7, 10, 13, 15, 16, 18, 22, 28, 29, 31, 32, 35, 36, and 38), no further analysis is provided.
However, for the 24 institutions where the OIG determined that DSC did not have an adequate
follow-up process, a comprehensive evaluation of DSC’s supervisory approach is documented.
Additionally, there is an analysis regarding the supervisory approach taken for the two
institutions eliminated from the sample since those institutions were categorized as having an
inadequate follow-up process by the OIG in January 2004: the two institutions were
unexpectedly removed from the sample during the DSC analysis phase.


29
  Adequate follow up as described by the OIG must occur within 12 months.
30
  Two institutions were removed from the OIG’s sample in January 2004. The reason(s) for the
removal is unknown.




                                                       83
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

The DSC’s assessment of its supervisory program is that appropriate corrective measures were
taken with all institutions in the sample. The DSC’s findings of the sampled institutions is that in
the vast majority (38 of 41, or 92.7 percent) of instances, the DSC responded expeditiously while
incorporating the sufficient response time for bank management to correct identified problems.
In serious cases where bank management willfully neglected BSA rules or was unresponsive to
regulatory criticism and guidance, or when the DSC identified insider abuse, enforcement action
was taken. The assessment of the OIG’s sample confirms the DSC’s effective supervisory
approach regarding FDIC-supervised institutions’ compliance with the BSA. However, the DSC
recognizes that in three of the 41 (7.3 percent) institutions, a more expeditious response should
have occurred.

None of the OIG’s sampled institutions have money laundering problems, reputational risk
related to the BSA, or increased safety and soundness risk to the institution. Rather, most of the
institutions had internal weaknesses that could be easily strengthened, addressed, and corrected
by management and monitored with the normal supervisory approach employed by the DSC.

The OIG sample did not target geographic concentrations of higher money laundering risk, or
institutions where money laundering has been suspected or detected. The OIG also did not look
at supervisory actions taken in instances of serious BSA program deficiencies, analyze the risk
for money laundering in the sample institutions, have discussions with examiners, or assess the
BSA examination process.

The map inserted on page 19 (the map has been removed from this document to protect the
identities of the OIG-sampled institutions) displays the OIG’s sampled institutions delineated
between metropolitan areas, non-metropolitan areas, and HIFCAs (to show geographic areas of
high-risk in regard to potential money laundering). Only two of the 41 financial institutions
included in the OIG audit sample are located within HIFCAs. Additionally, the map inserted on
page 20 (the map has been removed from this document to protect the identities of the OIG-
sampled institutions) shows institutions identified by the OIG as having inadequate follow-up.

The DSC closely monitors and escalates its supervisory approach, as necessary, for institutions
located in HIFCAs and other metropolitan areas as well as institutions that have a high volume of
reportable transactions. Based on our review of the seven-year audit period, the majority of
formal enforcement actions taken by the FDIC against financial institutions and individuals
occurred in HIFCAs, which, in our opinion, supports the designation of such areas.




                                                      84
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                           APPENDIX IX
                           CORPORATION COMMENTS

                                  Table
Internal Assessment of DSC’s Program    2 aluate Bank Compliance with the BSA.
                                     to Ev




                                               85
                           This Report Contains Confidential Information
          For Official Use Only                                   Restricted Information
                                                                                           APPENDIX IX
                           CORPORATION COMMENTS

Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

                          This page is intentionally left blank.




                                               86
                           This Report Contains Confidential Information
          For Official Use Only                                   Restricted Information
                                                                                           APPENDIX IX
                           CORPORATION COMMENTS

Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

                          This page is intentionally left blank.




                                               87
                           This Report Contains Confidential Information
          For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


                                            OIG Bank Sample

Institution #1                                                           Low BSA Risk

    Year           Total            Rating                      BSA Violations (#)
                   Assets
                  ($ Million)
     2003          $101 - $125 Highly Rated        (1)-Inadequate controls/326.8(b)
     2002           $51 - $100 Highly Rated        (1)-Independent testing/326.8(c)(2)
     2000           $51 - $100 Highly Rated        (1)-Independent testing/326.8(c)(2)
     1999           $51 - $100 Highly Rated        NA
     1997           $51 - $100 Highly Rated        None
 State performs review of prior BSA violations.

OIG Concerns:
OIG indicated the following concern from the 2000 examination.

        1. Independent testing of BSA had not been performed by bank personnel, consultants,
           or external auditors. Bank management agreed to have testing performed in 2000.
           Follow-up by the state examiners during the 2002 examination indicated that the bank
           was still in violation and had not performed independent BSA testing. Report of
           Examination (“ROE”) dated 2003, does not specifically address independent BSA
           testing.

OIG indicated the following concern from the 2003 examination.

        2. Examiners found 25 cases totaling $225,000 where cash withdrawals from checking
           accounts were just below $10,000. Bank management agreed to review large cash
           items, continue to monitor this account, and comply with the provisions of the BSA.

Supervisory Actions:
1. A violation of Section 326.8 (c)(2) was cited at the 2000 FDIC examination for failure to
   provide for an independent test of the bank’s compliance with BSA. No other BSA
   violations were cited. The ROE notes that BSA practices at the bank are adequate. The
   interim president stated that the bank’s external auditors would perform the test in 2000.

    The bank’s response letter to the ROE findings and transmittal letter, in




                                                         88
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

    2001, indicates that the bank’s external auditors, had not yet conducted a BSA review but
    would include a review as part of their audit.

    The bank’s external auditors had not reviewed BSA by the next examination, which was
    conducted by the state. A violation of Section 326.8 (c) was cited in the state’s 2002
    examination for failure to provide for independent testing. The bank’s auditors had
    conducted a BSA review by the time of the next FDIC examination. The work papers for the
    2003 FDIC examination include documentation of the bank’s external auditor performing an
    independent test of BSA at their audit in 2002.

2. Bank management, in response to the ROE findings and transmittal letter, agreed to review
   large cash items, continue to monitor these accounts, and comply with the provisions of the
   BSA.

Assessment of Follow-up Action:
While Section 326.8(c) violations were cited at consecutive examinations, the violations were
isolated and technical in nature and the overall BSA compliance program was considered
adequate. Management obtained an independent review of the program prior to the subsequent
FDIC examination; therefore, no additional follow-up supervisory action was necessary. Given
the bank’s small asset size, rural location, low volume of reportable transactions, adequate
management, and no prior BSA supervisory concern, follow-up on management deficiencies
within the regular examination cycle is considered appropriate.

Institution #3                                                                    Low BSA Risk

   Date           Total             Rating                      BSA Violations (#)
                  Assets
                  ($Million)
    2002           $126 - $150 Highly Rated        NA
    2001           $101 - $125 Highly Rated        None
    1999            $51 - $100 Highly Rated        NA
    1998            $51 - $100 Highly Rated        (1)-Independent testing/326.8(c)(2)
 State performs review of prior BSA violations.

OIG Concern:
Adequate independent testing at the bank had not been conducted. This violation was also cited
in the 1995 examination. Bank management assigned an independent employee at the bank to
perform the testing.




                                                         89
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Supervisory Actions:

The 1995 FDIC compliance examination of this $51 - $100 million bank cited violations of
Sections 326.8 (b) and (c)(2) for not having an adequate compliance program, due to a lack of
independent testing. The BSA officer was also responsible for reviewing the adequacy of the
bank’s compliance program. No other BSA exceptions were cited in the 1995 examination. The
bank’s 1995 response to the ROE transmittal letter states that management had reviewed the
BSA policy and that the policy would be amended to include a system of independent testing for
compliance by bank personnel or by an outside party. The response also stated that the subject
was reviewed by the CPA firm that does the bank’s directors’ audit and that testing for
compliance will be included in their report to the directors.

The 1998 ROE again noted a violation of Section 326.8(c)(2) for lack of independent testing.
The examiners recognized independent testing by the bank’s CPA, but the testing was conducted
in the form of questioning employees regarding their knowledge of BSA. The method of testing
was not considered adequate independent testing. The ROE further notes that the bank president
designated an employee, who was independent of the BSA function, during the examination to
periodically perform testing on an ongoing basis. No other BSA problems were noted.

The bank provided an audit report conducted by the bank’s CPA firm in 1998, that stated that
they had: (1) reviewed the bank’s policy; (2) noted that training sessions are conducted for all
new hires and annually for all staff; (3) that CTRs, the large items report, and the uncollected
funds reports are reviewed daily; (4) monthly internal audits of BSA compliance are conducted
by formal reports; and (5) the CPAs had sampled CTRs filed in 1998 for completeness and
timeliness. The audit report findings stated that the BSA system appeared to ensure BSA
compliance.

Assessment of Follow-up Action:
Bank management responded to and addressed the problem within four months of the 1995
examination. The repeat nature of the violation in the 1998 examination is not due to a lack of
testing, but to the thoroughness of testing. When identified during the 1998 examination, the
bank again responded immediately during the examination. The bank also provided
documentation from a CPA audit in 1998 (a copy was sent to the RO) confirming the form and
type of testing.




                                                      90
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Institution #5 (“inactive”)                                                 Low BSA Risk
  Date      Total Assets           Rating                       BSA Violations (#)
                ($ Million)
   1999           $101 - $125     Highly Rated     NA
   1998            $51 - $100     Highly Rated     (8)- Improper exemption or limit/103.22(b),(c)
 State performs review of prior BSA violations.

OIG Concern:
Follow-up of apparent violations cited for inappropriate exemption limits in the
1998 ROE exceeded 12 months.

Supervisory Action:
Bank is INACTIVE. The bank had established inappropriate exemption limits for six exempted
customers, as a result of a misinterpretation of the regulation. The violations were technical in
nature involving CTRs and corrected at the examination. The issue of backfiling was referred to
the IRS. The IRS sent a letter in 1998 to the bank discussing the issue and did not require the
bank to backfile the CTRs. The level of follow-up is appropriate for this type of violation. The
bank was merged into another institution in 2000.

Assessment of Follow-up Action:
During the examination, management corrected the exemption limits and indicated that the IRS
would be contacted concerning backfiling of CTRs. Supervisory action was appropriate, given
the isolated and technical nature of the infractions, as well as the overall low-risk BSA profile of
the institutions.

Institution # 8                                                                   Moderate BSA Risk
    Date          Total              Rating                       BSA Violations (#)
                  Assets
                 ($ Million)
    2003          $51 - $100     Highly Rated      None
    2002          $51 - $100     Highly Rated      None
    2000          $51 - $100    Moderately Rated   (10)- Late CTR Filings/103.27(a);
                                                   (1)- Inadequate controls/326.8(c)(1)
     1999         $51 - $100      Low Rated        None
     1998         $51 - $100 Moderately Rated (1)- Independent testing/326.8(c)(2)
 State does include BSA examination procedures within the scope of its regular examinations.

OIG Concern:
Follow-up did not occur within 12 months on violations and concerns noted in 1998 FDIC ROE.




                                                         91
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                   APPENDIX IX
                                   CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Supervisory Action:
The 1998 ROE cited apparent violations of Section 326.8(c)(2) for lack of independent testing of
the BSA compliance program. During the examination, bank management committed to
corrective action. The 1999 ROE from the state bank regulator cited numerous errors in CTRs,
but did not repeat the criticism of independent testing. Apparent violations of Sections
103.27(a)(1) and 326.8(c)(1) were cited at the 2000 FDIC examination, due to numerous late
filings of CTRs and several deficiencies in the internal control structure of the bank.
Independent testing at the 2000 examination was deemed to be adequate. Due to the poor
financial condition of the bank and pronounced management deficiencies noted in the 1999 state
regulator ROE, the institution entered into a MOU. Provisions within the MOU did not specify
BSA weaknesses; however, there was a provision requiring management to correct all violations
cited within the ROE, which includes those cited for BSA. Substantial compliance was not
noted until the 2002 FDIC examination.

Bank Profile:
Bank is a $51-$100 million institution in a northeast state. The bank has experienced some
problems, indicated by the low rating assessed in 1999 and moderate rating as recently as the
2000 examination. However, the institution was upgraded to highly rated in the 2002
examination. Bank management is currently highly rated. However, management has been rated
moderate or low at examinations dating back to 1996.

The bank is considered a moderate BSA risk due to overall management deficiencies within the
institution, continued identification of weaknesses in the BSA compliance program, and
examiner discovery of potential transaction structuring at the 2000 and 2002 FDIC examinations.
As a result of the 1998 FDIC examination, the institution was more closely watched by the RO.

Assessment of Follow-up Action:
In general, the DSC concurs with the OIG regarding the follow-up for this bank. The RO is
unable to locate documentation supporting the actions taken to ensure the bank corrected
deficiencies noted in the 1998 ROE.

A safety and soundness MOU was entered into as a result of the 1999 state examination;
however, the state examination does not cite any BSA weaknesses, therefore, the MOU does not
address BSA. The apparent violations of BSA cited in the 2000 ROE address different program
weaknesses than those cited in 1998 and are not considered repeat violations. As a result of the
findings from the 1998 examination, the institution was more closely watched by the RO.

Institution # 9                                                                 Moderate BSA Risk




                                                       92
                                   This Report Contains Confidential Information
                  For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


   Date           Total           Rating                           BSA Violations (#)
                  Assets
                ($ Million)
    2002        $101 - $125     Highly Rated   (12)- Instruments Log/103.29(a);
                                               (4)- CTR filing errors/103.27(d);
                                               (4)- Late CTR filings/103.27(a);
                                               (3)- Exemption/103.22(d)(5)(i);
                                               (1)- Identification procedures/ 103.28
    2000          $51 - $100 Highly Rated NA
    1999          $51 - $100 Highly Rated None
    1997          $51 - $100 Highly Rated NA
 State conducts limited-scope follow-up on banks’ corrective actions to address violations cited at prior
 FDIC examinations.

OIG Concern:
The OIG cited concerns over supervisory follow-up for violations cited at the 2002 examination.
All of the violations noted at this examination were attributed to errors in CTR filings.

Supervisory Action:
The violations were largely attributed to errors in completing the CTR form completely and
within the 15-day reporting requirement. Failures to record the sale of monetary instruments
over $3,000 also resulted in apparent violations. The examiners discussed these issues with bank
management during the examination and received a commitment to implement corrective action,
including increased training and expanded review process.

Assessment of Follow-up Action:
Given the BSA history of the bank, management’s responsiveness to BSA deficiencies, small
asset size, rural location, and adequate management, supervisory follow-up that consists of
review at the next examination is considered appropriate.




                                                         93
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Institution # 11                                                                  Low BSA Risk

   Date          Total            Rating                       BSA Violations (#)
                 Assets
                ($ Million)
    2002          $51 - $100    Highly Rated   NA
    2001          $51 - $100    Highly Rated   None
    1999          $51 - $100    Highly Rated   NA
    1998           $26 - $50    Highly Rated   (6)- CTR filing/103.22(a);
                                               (1)- Improper exemption or limit/103.22(b),(c);
                                               (1)- Inadequate controls/326.8(b)
 The state does not examine for BSA or provide meaningful follow-up on FDIC violations.

OIG Concern:
The OIG’s draft report cited concern over FDIC supervisory follow-up of apparent violations
cited within the 1998 ROE.

    1. Bank president stated repeat violations will not occur and that the BSA program is being
       delegated to a vice president who has a good working knowledge of these regulations.
    2. The ROE states that violations of Section 103.22(b) and (c) are a repeat from the 1995
       FDIC compliance examination.
    3. The ROE stated repeat violations of Section 326.8 may result in potential civil money
       penalties or a cease and desist order.
Supervisory Actions:
   1. The 1998 ROE cites a Section 326.8(b) violation for failure to implement an adequate
       BSA compliance program. The ROE also warns the bank that if not corrected, repeat
       violations may result in civil money penalties. The repeat violation statement is a
       warning to management, not a repeat of a previously cited Section 326.8(b) violation.
       The response to the 1998 ROE indicates that the bank took action to adequately address
       the BSA violations. The response details actions taken to effect correction, including the
       elimination of all CTR exemptions previously granted. Since the 1998 ROE did not
       reflect a repeat Section 326.8(b) violation, no formal or informal corrective action was
       necessary, and positive responses from management were immediate with the first
       corrective actions taken during the examination.

    2. The repeat violations of Sections 103.22(b) and (c) are technical issues. The bank is
       located in a rural area, has a small asset size, and a low volume of reportable transactions.
       The violations stem from one customer (with two gasoline/mini-mart business accounts)




                                                         94
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

        whose activity had been reviewed and who was granted exemptions for CTR filings.
        These exemptions had not been reviewed on an annual basis, and the exemption amount
        was required to be adjusted by $4,000. The bank’s compliance program at the 1998
        examination was deemed reasonable to assure and monitor compliance with BSA. The
        response to the 1998 ROE indicates the bank took action to adequately address the BSA
        violations. As a result, follow-up consisted of a regular-scope BSA review at the next
        examination. No violations were noted at the next examination. Follow-up at the next
        examination was appropriate.

   3. The ROE comment was a reminder to management of the potential for civil money
      penalties if violations were not corrected. These comments do not imply that civil money
      penalties were being considered, or that repeat violations of Section 326.8(b) occurred.

Assessment of Follow-up Action:
Given the bank’s small asset size, rural location, low volume of activity, adequate management,
and history regarding knowledge of the BSA, follow-up that consists of review at the next
examination is considered appropriate. Subsequent examination activity supports this
conclusion.

Institution # 12                                                                 Low BSA Risk
    Date           Total             Rating                      BSA Violations (#)
                   Assets
                 ($ Million)
      2003        $126 - $150 Moderately Rated        None
      2002        $101 - $125        Highly Rated     NA
      2000          $51 - $100       Highly Rated     (1)- Inadequate controls/326.8(b)
      1999          $51 - $100       Highly Rated     NA
      1998          $51 - $100       Highly Rated     (1)- Inadequate controls/326.8(b)
 State performs review of prior BSA violations.

OIG Concern:
   1. The 1998 ROE cited a violation for failing to provide for adequate administration of the
      BSA program, which was supported by a combination of deficiencies: the bank had not
      independently tested BSA compliance, had not established procedures for detecting
      multiple cash transactions aggregating over $10,000 in one business day, and had not
      filed two CTRs. The combination of these deficiencies led to the conclusion that the
      BSA program was not adequately administered. The ROE stated bank management will
      implement procedures relating to the recommendations to correct the violation of Section
      326.8(b).




                                                        95
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


   2. At the 2000 examination, a violation of Section 326.8(b) was cited. The president
      committed to reviewing BSA via independent testing and revising and approving BSA
      policy.

   3. The 2002 state examination indicates a repeat violation. Bank management indicated
      computer-generated reports will be reviewed daily and used for independent testing.


Supervisory Actions:
   1. The draft audit report does not include information from the 1999 state ROE indicating
       an interim period of corrective action for the Section 326.8(b) violation. The bank
       corrected the independent testing deficiency as noted by a 1998 letter to the FDIC RO
       from the bank’s president that contained a copy of the bank’s 1998 directors’
       examination, conducted by a CPA firm that included a review of BSA.

   2. The 2000 FDIC examination cited a violation of Section 326.8(b). That determination
      was made, because the bank had not independently tested BSA since the 1998 CPA
      review, and had not kept its BSA policy current or approved it annually. The FDIC
      examination indicates that overall procedures are generally adequate to prevent reportable
      transactions from going undetected. The bank’s 2000 response to the transmittal letter
      indicates that the bank plans for testing of BSA in the very near future.

   3. In the 2002 state examination, Section 326.8 violations were noted for lack of
      independent testing. Once again, the bank was found to have adequate policies and
      procedures. The state considered this to be a repeat violation, but made the determination
      that internal bank procedures implemented during the examination were sufficient to
      correct the violation and preclude regulatory action. The 2003 ROE notes that the BSA
      violations have been corrected.

Assessment of Follow-up Action:
The original violation was corrected shortly after the 1998 examination; an intervening state
examination (1999) reported no BSA concerns; and the 2000 FDIC examination violation was
cited for a different combination of deficiencies. Although the 2002 state examination again
noted a violation for no independent testing, the state was satisfied with the corrective measures
implemented during the examination. The subsequent FDIC examination (2003) confirmed
compliance. Bank management has demonstrated an ability and willingness to correct
deficiencies. Given the bank’s past corrective actions, small asset size, rural location, low




                                                      96
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                 APPENDIX IX
                                 CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

volume of reportable transactions, adequate management, and history of compliance with the
BSA, follow up that consists of review at the next examination is considered appropriate.




                                                     97
                                 This Report Contains Confidential Information
                For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Institution # 14                                                                  Moderate BSA Risk

   Date          Total            Rating                             BSA Violations (#)
                 Assets
               ($ Million)
       2002     $151 - $200        Low Rated   (17)- Late CTR filings/103.27(a);
                                               (16)- CTR filing errors/103.27(d);
                                               (13)- Annual review/103.22(d)(4);
                                               (13)- Exempt documentation/103.22(d)(6)(i);
                                               (11)- Instruments log/103.29(a);
                                               (11)- Record retention/103.38(d);
                                               (10)- Biennial exemption/103.22(d)(5)(i);
                                               (2)- CTR filings/103.22(b)(i);
                                               (1)- Inadequate program/326.8(b)
        2000      $151 - $200     Highly Rated NA
        1999      $126 - $150     Highly Rated (1)-Inadequate controls/326.8(c)(1);
                                               (1)-Independent testing/326.8(c)(2)
        1997     $101 - $ 125     Highly Rated (1)-Inadequate controls/326.8(c)(1);
                                               (1)-Independent testing/326.8(c)(2)
                                               (1)-BSA Officer/326.8(c)(3)
                                               (1)-Inadequate Training/326.8(c)(4)
                                               (1)-CTR Filing/103.22(a)
 State does not examine for BSA. Within the past 2 or 3 years the state has begun to perform limited follow up
 on violations cited at prior FDIC exams.

OIG Concern:
   1. Violations cited at the 1997 examination are not separately entered into ViSION.

    2. None of the 94 violations cited in the 2002 ROE are listed in ViSION. The regulations
       are Sections 326.8(c)(1), 103.29(a), 103.29(a)(1)(ii), 103.29(a)(2)(i), 103.29(a)(2)(ii),
       103.22(b)(1), 103.27(a)(1), 103.27(d), 103.22(d), 103.22(d)(6)(i), 103.22(d)(4),
       103.22(d)(5)(ii), 103.22(d)(6)(x), 353.3(a), 353.3(a)(2), 353.3(b)(1).

    3. Time frame for corrective action was protracted.

Supervisory Actions:
   1. The violations cited at the 1997 examination are included in ViSION with the safety and
       soundness examination.

    2. The violations cited at the 2002 examination are listed in ViSION with a 2003
       examination date.




                                                         98
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

    3. The 1997 ROE comments noted a BSA violation, as the bank policy did not address
       independent testing. The bank’s CPA firm was scheduled to conduct testing during third
       quarter of 1997. The 1999 ROE comments noted repeat violations of Section 326.8(c)(1)
       and (2). Supervisory action occurred at the next examination.

Assessment of Follow-up Action:
The DSC concurs in general with the OIG regarding the follow up for this bank. It appears that
the violation of Sections 326.8(c) (1) and (2) existed across examination cycles; however,
follow-up action after the 2002 examination was timely, extensive, and successful. The RO
issued a MOU in 2003 to address BSA deficiencies. A 2003 visitation was conducted to monitor
progress with the MOU. At the visitation, all deficiencies were found to have been addressed
and/or corrected, and sufficient BSA controls are in place.

Institution #17 (“inactive”)                                                      Low BSA Risk

   Date          Total             Rating                       BSA Violations (#)
                 Assets
               ($ Million)
    1998          $51 - $100      Highly Rated     (2)- Instrument logs/103.29(a)(2);
                                                   (4)- Improper exemption or limit/103.22(b),(c);
                                                   (3)- CTR filing errors/103.27(d);
                                                   (1)- Independent testing/326.8(c)(2)
 Bank merged with another institution in 1999.

OIG Concern:
OIG indicated the following concern from the 1998 examination.

“The violation code for 103.22(b) is 60000 not 60001. The violation code for 103.27(d) is 63001
not 63000. An additional violation 103.29(a)(2) is in the ROE that's not in VISION. The BSA
officer stated the apparent violations resulted from oversight and more care would be taken to
prevent future occurrence. The president committed to implementing the examiner's
recommendations. This bank became inactive after this examination in 1999.”

Supervisory Action:
[NOTE: The violation codes in effect at the time of this examination are based on Regional
Director Memorandum (“RD Memo”) 96-085 which was superceded in 1999 by RD Memo 99-
066 which was then superceded by RD 03-048. Thus, the violation code used to capture the
103.29(a)(2) citation was eliminated in 1999 due to a change in the BSA regulation.]




                                                         99
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

The bank merged into another institution in 1999. The bank was highly rated at the 1998
examination, as well as management. The bank was cited for four BSA violations: improperly
setting exemption limits; inadequate independent testing; incomplete CTRs; and missing
documentation on monetary instruments. The first and last were repeat violations from the 1995
compliance examination. During the examination, the bank president committed to correct the
violations cited. In 1998, the examiner-in-charge met with the bank’s directorate to present the
findings of the examination and noted the BSA violations. An e-mail in 1998, memorializes the
meeting with the board of directors. Again in 1998, the RO notified FinCEN that the RO
requested that the bank contact FinCEN for guidance on CTR backfilling.

In a letter dated in 1998, management indicated that corrective action was taken to eliminate
future BSA violations. Management also included a progress report on each item of BSA-related
criticism noted in the ROE.

Bank Profile:
The bank is INACTIVE. This institution was a $51-$100 million well-managed institution,
which was highly rated for four consecutive examination cycles dating back to 1993. The bank’s
trade area was primarily rural, with a moderate population estimated about 60,000. The money-
laundering risk was low. The board of directors and operating management were regarded as
active and conservative. Management was highly rated since 1992.

Assessment of Follow-up Action:
Supervisory action included meeting with the directorate, sending notification to FinCEN, and
receiving a progress report from bank management that indicated corrective action. Supervisory
action was completed within 100 days from the examination start date. Adequate supervisory
action was taken as the bank corrected apparent violations during the normal course of business.




                                                     100
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Institution # 19                                                                 Low BSA Risk

    Date           Total            Rating                        BSA Violations (#)
                   Assets
                ($ Million)
        2003        $0 - $10       Highly Rated    NA
        2003       $11 - $25    Moderately Rated   (18)- CTR filing errors/103.27(d);
                                                   (1)- Inadequate controls/326.8(c)(1);
                                                   (1)- Independent testing/326.8(c)(2)
         2002       $11 - $25               N/A NA
         2002       $11 - $25        Low Rated None
         2001       $11 - $25        Low Rated (1)- Independent testing/326.8(c)(2)
         2000       $11 - $25 Moderately Rated NA
         1999         $0 - $10     Highly Rated (1)- Independent testing/326.8(c)(2);
                                                   (1)- BSA Officer/326.8(c)(3)
         1998         $0 - $10     Highly Rated NA
         1997         $0 - $10     Highly Rated None
 State does not perform BSA examinations or review prior BSA violations.


OIG Concern:
The OIG notes a repeat violation from 2001 and 2003 examinations pertaining to Section 326.8
(c)(2), lack of adequate independent testing. Given that this institution was placed in the
inadequate follow-up period of 49 to 60 months, it appears that the OIG criticism may stem from
the violations cited in the 1999 examination.




                                                       101
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Supervisory Action:
The RO was unable to obtain the 1997 ROE from archives by the OIG’s deadline. The 1999
ROE notes two BSA-related violations: the lack of a specially designated individual to monitor
BSA compliance; and the lack of adequate independent testing. The ROE notes that procedures
are generally adequate considering the level of activity, size, and customer base. In a transmittal
letter dated 1999, the FDIC requested that management submit a response to the FDIC
containing its corrective measures regarding the ROE findings. The RO received
correspondence from the bank in 1999, stating that the violations had been corrected.

The 2000 examination conducted by the state did not include a review of BSA compliance. The
state entered into a MOU with the bank subsequent to this examination to address all safety and
soundness concerns.

The 2001 FDIC examination found the bank’s condition deteriorated significantly. The bank and
management were rated low. The ROE noted a repeat violation for failure to provide
independent testing for the BSA program. The examiners received management’s commitment
to correct the violation. The bank was later placed under an informal corrective action in 2001
that included a provision for the correction of violations cited during the examination, including
BSA program violation. Bank management submitted several reports detailing progress with the
informal action. The first progress report in 2001, stated that all violations had been corrected
and that an outside compliance audit had been completed. Subsequent quarterly progress reports
all state that the “BSA violation has been addressed and reviewed. The bank will include this
issue in the next third party review.”

The 2002 ROE reflects the bank’s serious and ongoing deterioration. The bank’s was again rated
low, and considered a potential failure. The ROE states, “The BSA violation concerning the
independent testing for compliance with financial recordkeeping requirements has been
corrected.” No BSA-related violations were cited during the examination.

The 2003 ROE cites a violation of Section 326.8 of the FDIC Rules and Regulations in addition
to Section 103.27(d) for incomplete CTRs filed during 2002. A violation of Section 326.8(c)(1)
was also cited. The ROE notes that management committed to correct the violations. The bank
provided a response to the examination dated in 2003, stating that it would adhere to the
regulations.

The 2003 state bank regulator’s ROE notes that management stated that the violations had been
corrected and that measures had been implemented to prevent recurrence.

Bank Profile:




                                                     102
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

The bank is $0–$10 million institution located in a small town in the southwestern part of the
United States, with a population of less than 600. The local economy is based on diversified
manufacturing, agri-business, oil-field operations, and service industries. The bank is the only
financial institution in town and does not operate any branches. The bank’s money-laundering
risk profile is low. The bank has a very low level of reportable transactions. The 2001 ROE
noted that the bank had only filed four CTRs since the previous FDIC examination in 1999.

Assessment of Follow-up Action:
For the 1999 examination, supervisory action consisted of sending a transmittal letter within 29
days of the examination start date and receiving a response from bank management indicating
that the violation was corrected within 78 days from the examination start date. The supervisory
action taken was adequate as management corrected the apparent violation during the normal
course of business.

For the 2001 examination, supervisory action consisted of an enforcement action executed within
62 days from the examination start date. Supervisory action taken was adequate as management
reported within 64 days that the violations were corrected. In addition, no BSA violations were
cited at the subsequent examination.

For the 2003 examination, supervisory action taken consisted of obtaining commitments to
correct violations during the examination. Supervisory action was completed within 63 days
from the start of the examination as management indicated in a letter that the violation had been
corrected.

Institution # 20                                                                  Low BSA Risk

   Date           Total             Rating                       BSA Violations (#)
                  Assets
                ($ Million)
       2003        $11 - $25       Highly Rated  None
       2001         $0 - $10       Highly Rated  NA
       2000         $0 - $10       Highly Rated  (1)- Multiple transactions/103.22(c)(2);
                                                 (1)- Late CTR filings /103.27(a);
                                                 (1)- Instrument logs/103.29(a);
                                                 (1)- Inadequate program/326.8(b)
        1998          $0 - $10  Highly Rated NA
        1997          $0 - $10  Highly Rated (1)- Inadequate program/326.8(b);
                                                 (1)- Inadequate controls/326.8(c)(1);
                                                 (1)- Inadequate training/326.9(c)(4)
 State does not perform BSA examinations or review prior BSA violations.




                                                        103
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


OIG Concern:
The OIG concerns are the intervals between the 1997 and 2000 examinations as well as the 2000
and 2003 examinations, and apparent repeat violations stemming from the 1997 examination. As
a result, the follow-up time was determined inadequate.

The OIG indicated the following concern from the 2000 examination.

“Follow-up not determinable. The audit does not include review of regional or field office files.
The bank’s BSA officer stated additional effort would be extended to correct noted deficiencies
and prevent recurrence. The examination date is 2000. ViSION has 1999, as examination date.”

Supervisory Action:
The 1997 FDIC ROE reflects BSA-related violations, including an inadequate training program,
lack of internal controls, and an inadequate independent audit program. The confidential section
of the ROE notes that no CTRs had been filed since the previous examination, and that the bank
had no exempt customers. The bank received an overall high rating during this examination, and
management was also highly rated. Correspondence dated 1997 from the bank responding to the
examination findings states that the bank implemented a new training program and that the BSA
program had been revised to improve compliance regarding internal controls and independent
audit coverage.

The 2000 FDIC ROE notes that management had taken steps to address violations cited at the
previous examination. However, a repeat violation pertaining to the bank’s inadequate BSA
training program was cited, and the ROE noted that training had not been performed since 1997.
Although management implemented a BSA training program to address the ROE deficiency,
additional follow-up training did not occur thereafter. While no follow up was requested, the RO
was comfortable that management would respond to the ROE criticisms, as it had in the past.
Management actions were confirmed at the next FDIC examination in 2003, where no BSA
violations or criticisms were noted.

Since neither the OIG nor the RO reviewed archived files on this bank relating to the 2000
examination, no correspondence indicating follow up was reviewed; however, highly-rated bank
management is generally found to be responsive. Given the historical responsiveness of bank
management and the overall profile of the institution, enforcement action was not considered
necessary.

Bank Profile:




                                                     104
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

The institution is an $11-$25 million institution located in a small community with a population
of approximately 500 located in the Midwest. The bank’s money-laundering risk is low. The
bank has had very few, if any, transactions reportable under the BSA regulation. Management
has been highly rated since 1987.

Assessment of Follow-up Action:
Supervisory action was taken by reviewing a response from bank management that indicated
corrective action was taken by management to eliminate the apparent violation. Supervisory
action was completed within 141 days from the start of the 1997 examination. Supervisory
action taken was considered adequate as management corrected the violation during the normal
course of business. Regarding the 2000 examination findings, since archived files were not
reviewed, follow-up action and times cannot be confirmed; however, as part of the normal
supervisory process, a transmittal letter accompanies the ROE and a response from bank
management is received within a reasonable time frame. Given the risk profile and the historical
responsiveness of bank management, in addition to the lack of violations cited at the subsequent
2003 examination, appropriate supervisory action was taken.

Institution # 21                                                                 Low BSA Risk

    Date            Total             Rating                      BSA Violations (#)
                    Assets
                  ($ Million)
        2003          $26 - $50     Highly Rated   (2)- Exempt bank/103.22(d)(3)(ii);
                                                   (1)- Independent testing/326.8(c)(2).
         2001          $26 - $50   Highly Rated NA
         2000          $26 - $50   Highly Rated None
 State does not perform BSA examinations or review prior BSA violations.

OIG Concern:
The OIG indicated that the lack of independent testing of BSA compliance is a repeat violation
that was cited in the 2001 and 2000 examinations. Bank management agreed in all three ROEs
to address the problem.

Supervisory Action:
Examination work papers noted that “independent testing” was not included in the audit program
for 2002 and prior years due to cost. Also noted was the intent to have this aspect of the BSA
program conducted in conjunction with the 2003 audit. A major mitigating factor is this small,
rural bank’s lack of reportable transactions as they have had only three in recent history (two in
2000 and one in 1996).




                                                       105
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


A review of the bank indicated that no BSA violations were cited in the 2000 ROE. ROE
comments also indicated that the bank was in compliance with the BSA program. Also, no
violation was cited in the 2001 examination conducted by the state.

The ROE dated 2003, cited two violations that the bank’s “independent testing had failed to
discover the bank’s failure to file a Designation of Exempt Person form for a correspondent
bank.” The RO indicated that the bank had been conducting independent testing, but the scope
was determined to be inadequate. Bank management indicated that the independent testing for
BSA compliance would be added to the scope of the directors’ examination.

Bank Profile:
The institution is located in a small, rural community (population of approximately 1,200) in the
Midwest. The bank operates from a single office, is not located in close proximity to any major
metropolitan areas, and has few large cash transactions. While an examination of the bank’s
BSA compliance practices and procedures has not resulted in serious violations, the most recent
ROE cited the inadequacy of its “independent” testing as that review failed to note that
exemptions were not filed for transactions with a correspondent bank. Given the absence of any
significant issues as well as the absence of significant cash transactions, the bank is considered to
be a low BSA Risk.

Assessment of Follow-up Action:
No supervisory action was taken since no BSA violations were cited at the 2000 and 2001
examinations. The institution remained on a normal examination schedule. Supervisory action
was deemed appropriate given the institution’s low risk profile and lack of any reported BSA
violations in the 2000 and 2001 examinations.

Institution # 23                                                                 Low BSA Risk

    Date           Total           Rating                           BSA Violations (#)
                   Assets
               ($ Million)
    2003           $51 - $100     Highly Rated     None
    2002           $51 - $100     Highly Rated     NA
    2000            $26 - $50     Highly Rated     (1)- Inadequate program/326.8(b)(1)
    1999            $26 - $50     Highly Rated     NA
    1997            $26 - $50                      (3)- Instrument log/103.29(a)(2);
                                                   (2)- Identity record (customer)/103.29(a)(1)(i)(ii);
                                                   (2)- CTR filings/103.22(b)(i);
                                                   (2)- Instrument log/103.29(a);




                                                       106
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

                                                 (1)- Inadequate program/326.8(b)(i).
                                                 (1)- Identity record (non-customer)/103.29(a)(2)(i)(ii);
 State does not perform BSA examinations or review prior BSA violations.

OIG Concern:
Examiner determined that the bank complied with the requirement to have independent testing of
BSA program. The violation was cited in both the 1997 and 2000 ROEs.

Supervisory Action:
This small, rural institution did not adopt an independent testing program due to cost. However,
the independent testing issue was resolved at (or shortly following) the time the bank acquired
some branches in a metropolitan area. Even with this expansion in office facilities, the number
of reportable transactions remains nominal (nine in 2001; eleven in 2002; and ten to the date of
the 2003 examination). No enforcement action was deemed necessary inasmuch as the bank’s
operations were in compliance with the BSA.

The ROE dated 1997, listed 10 Section 103 violations and one BSA violation for lack of
independent testing of the BSA program. The summary comments for this examination
indicated that management promised correction, and the RO requested a response within 60 days
on significant items.

The ROE dated 2000, indicated that all BSA violations had been corrected except for the lack of
independent testing. Bank management agreed to consider including a review of BSA as part of
the bank’s annual directors’ examination. Therefore, it appears the reason for not implementing
the testing after the 1997 examination was due to a cost issue. The RO concluded that no follow-
up was deemed necessary based on the bank’s satisfactory overall BSA compliance, strong
financial condition, and management’s history of following through on corrective action.

Bank Profile:
The institution is located in the Midwest (population approximately 1,000) with expansion of
operations into a nearby metropolitan area in 2001. The bank is one of more than 20 institutions
operating in that metropolitan are and, as such, one of many institutions in that market. Inherent
operations are based in a small, rural community where significant cash transactions are
minimal. The violation cited was limited to the lack of independent testing, although testing was
being conducted. The bank’s nature and scope of operations indicates that the bank is considered
a low BSA risk.

Assessment of Follow-up Action:




                                                        107
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Supervisory action taken indicates that the RO did follow-up on significant items at the 1997
examination. No enforcement action was necessary since the bank’s operations were in
compliance with the BSA. The bank’s correspondence to the RO dated 1998 indicated that all
BSA violations had been corrected. At the 2000 examination, the institution was cited for lack
of independent testing; however, bank management agreed to consider independent testing and
the RO determined that no additional follow-up was necessary, which is supported by the results
of the 2003 examination. Supervisory action was taken within an acceptable time frame.
Supervisory action was appropriate given the institution’s low-risk BSA profile and willingness
to comply with regulations.

Institution # 24                                                        Moderate/High BSA Risk
   Date        Total            Rating                          BSA Violations (#)
               Assets
             ($ Million)
   2001        Over $500       Highly Rated   None
   2000        Over $500       Highly Rated   NA
   1999        Over $500       Highly Rated   Not in BITS – ROE no violation
   1998        Over $500       Highly Rated   NA
   1997        Over $500       Highly Rated   (4)- Aggregate Transaction/103.22(c)(2);
                                              (2)- CTR filings/103.22(a)
 State does not perform BSA examinations or review prior BSA violations.

OIG Concern:
ROE states that the bank did not treat four cases of multiple transactions totaling over $10,000 as
a single transaction. Therefore, bank should have filed CTRs for those multiple transactions.
Bank management agreed that these were infractions and planned to revise the exemptions.
Supervisory Action:
The correspondence file for this bank was not requested from archives, so the RO had no
definitive evidence of examination follow-up; however, this institution has historically been a
sound, well-run bank and one which follows through with requested actions.

The ROE dated 1997, cited the bank for not filing two CTRs and failure to treat four cases of
multiple transactions totaling over $10,000 as a single transaction. The ROE indicated that bank
management agreed to file the required CTRs. The OIG did not find any documentation that the
corrective action was completed. The OIG also indicated that the violation code was not correct
in ViSION; however, the RO indicated that the code is correct based on the RD memorandum
outstanding at the time of the violation. The summary comments for the 1997 examination
indicated that corrective action was initiated during the examination.




                                                       108
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


The ROE dated 1999, did not cite any violations. The ROE stated that “improvements had been
made from the previous FDIC examination.” In addition, the OIG chart incorrectly shows this
bank as having repeat violations.

Bank Profile: This large and rapidly growing institution is (and has been) extremely-well
managed through its history and, likewise, its BSA compliance program has exhibited similar
strengths. While the bank’s main office is based in a small Midwest town (population of less
than 700), they have had a presence in the nearby city (population greater than 75,000) for many
years. Historical expansion has been predicated on communities near the city, with recent
expansion into the state’s second largest market (population greater than 150,000) generating
additional growth. With the close proximity to and in the city area as well as the newly entered
nearby market, the inherent BSA risks increased. Over the years, the bank’s BSA officer has
maintained close contact with the FDIC on BSA issues, and the bank’s goal of reporting all
significant transactions has occurred. The bank is considered a moderate- to high-BSA risk
based on the bank’s area of operations; however, it must be noted that the bank’s response is
more than adequate to meet inherent challenges.

Assessment of Follow-up Action:
Supervisory action was completed during the examination. All documents were filed within
acceptable timeframe. No further supervisory action was deemed necessary.




                                                     109
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Institution # 25                                                         Moderate BSA Risk

   Date           Total           Rating                       BSA Violations (#)
                  Assets
                ($ Million)
       2004      $51 - $100     Highly Rated  (2)–Late filing of CTR/103.27(a)
       2001               -                -  (5)- Late CTR filing/103.27(a);
                                              (1)- CTR filing/103.22(b)(1);
                                              (1)- CTR filing errors/103.27(d)
        2001       $26 - $50 Highly Rated (11)- Late CTR filing/103.27(a);
                                              (7)- CTR filing errors/103.27(d);
                                              (5)- Identification method/103.28;
                                              (1)- Biennial exemptions/103.22(d)(5)(i)
        2000       $26 - $50 Highly Rated NA
        1998       $26 - $50 Highly Rated (2)- Late CTR filings/103.27(a);
                                              (1)- Inadequate program/326.8(b)(1);
                                              (1)- CTR filing/103.22(b)(1);
                                              (1)- Exempt bank/103.22(d)(3)(ii)
 State does not perform BSA examinations or review prior BSA violations.

OIG Concern:
OIG indicated the following concerns from the 2001 BSA visitation.
     1. Five CTRs were not received by the Internal Revenue Service within the prescribed
          time period. Bank management agreed to address the infractions.

      2.      Examiner identified one new violation of Section 103.27(d). In addition, two other
              violations had not been corrected from the 2001 ROE resulting in a repeat violation
              from the 2001 examination. Management agreed to address the infractions.

      3.      Examiner identified one CTR that had not been filed as required. Management
              agreed to address the infraction.
Supervisory Action:
A 2001 transmittal letter for the 2001 ROE requested a progress report from the bank by quarter-
end 2001. The bank addressed the above issues in their follow-up report dated by quarter-end
2001, which was acknowledged by the RO in a letter dated quarter-end 2001. BSA issues were
again addressed during a RO outreach contact in 2002.

The 2001 BSA visitation report indicated that the examiner provided the bank with information
to follow-up on the inaccurate CTRs. However, subsequent verification was not requested from
the bank. The outreach contact record indicated that the BSA concerns were being addressed.




                                                        110
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Bank Profile:
The institution is located in the Midwest. With the addition of its most recent office in 2001, the
bank has experienced significant growth. The 1998 ROE identified several BSA deficiencies
which were also reviewed at the 2001 examination. Deficiencies noted in the latter prompted a
follow-up visit in 2001, which disclosed management had taken significant steps to improve
BSA compliance. In view of the number of reportable transactions the bank was handling prior
to making better use of the exemption programs (both Phase I and Phase II) and the noted growth
since 2000, the bank is considered a moderate-BSA risk.

Assessment of Follow-up Action:
Supervisory action consisted of a transmittal letter to the institution in 2001, and a follow-up
report from the bank dated in 2001. Additionally, a follow-up BSA visitation was conducted in
late 2001. The timeframe between the examination of 2001, and the visitation was 192 days.
Given the bank’s willingness to correct BSA violations, its favorable financial condition, and
management’s history of following through on commitments to regulatory agencies, the
supervisory action taken seems appropriate. The FDIC finalized an examination in 2004.
Findings identified two isolated late CTR filings. No other BSA problems were identified, and
overall the BSA program was determined to be effective.

Institution # 26                                                                 Moderate BSA Risk

    Date           Total            Rating                          BSA Violations (#)
                   Assets
                ($ Million)
    2003                    -                 -   None
    2003            $26 - $50      Highly Rated   (18)- Late CTR filings/103.27(a);
                                                  (13)- CTR filings/103.22(b)(1);
                                                  (1)- Instrument log/103.29(a);
                                                  (1)- Inadequate program/326.8(b)(1);
                                                  (1)- Independent testing/326.8(c)(2);
                                                  (1)- Inadequate training/326.8(c)(4)
     2002            $26 - $50    Highly Rated NA
     2001            $11 - $25    Highly Rated (3)-Late CTR filings/103.27(a)
 State does not perform BSA examinations or review prior BSA violations.

OIG Concern:
OIG indicated the following concern from the 2001 examination.




                                                       111
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

ROE cites a violation that the bank did not file a SAR when a customer of the bank reported
$22,000 missing from a safe deposit box. An acquaintance of the customer reportedly forged the
signature of one of the individuals with authority to enter the safe deposit box. The next day the
customer reported the funds missing. The bank contacted local authorities. Bank management
committed to filing the report. Subsequent ROEs/visits do not seem to address this issue.

Supervisory Action:
The bank’s correspondence file contains a copy of the requisite SAR prepared as in
2001. The 2001 ROE cited the bank for not filing a SAR with the appropriate authorities. The
ROE indicated that bank management committed to filing the required report. The OIG did not
see any subsequent documentation supporting the filing. However, the RO has provided from
the bank’s correspondence file a copy of the SAR filing dated 2001.

Bank Profile:
The institution is a relatively new institution (chartered in 2000) which is situated in a popular
vacation destination. As such, the volume of “visitors” and attendant cash is significant. The
bank’s BSA compliance program was not deemed adequate at the 2003 examination and a
follow-up visitation was conducted later in 2003. The latter onsite review noted that substantial
progress had been attained in achieving compliance with BSA and management committed
further efforts. In view of the environment in which this bank operates, a strong BSA
compliance program is deemed imperative and will be monitored closely. The bank is
considered a moderate-BSA risk.

Assessment of Follow-up Action:
The institution provided the RO with a copy of the SAR filing. The document was filed within
an acceptable timeframe. No further supervisory action was deemed necessary.




                                                     112
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Institution # 27                                                                 Low BSA Risk

    Date           Total           Rating                      BSA Violations (#)
                   Assets
                 ($ Million)
     2002           $26 - $50    Highly Rated   None
     2001           $26 - $50    Highly Rated   NA
     2000           $26 - $50    Highly Rated   (11)-CTR filing errors/103.27(d);
                                                (1)- Inadequate program/326.8(b)
      1998           $26 - $50 Highly Rated NA
      1997           $26 - $50 Highly Rated (9)- CTR filing errors/103.27(d);
                                                (7)- CTR filing /103.22(a);
                                                (2)- Identification procedures/103.28
 State does not perform BSA examinations or review prior BSA violations

OIG Concern:
OIG indicated the following concern from the 2000 examination.

“The examiners noted 11 apparent violations of Section 103.27(d). The president stated that
CTRs would be reviewed more closely before filing and the bank would begin conducting the
reviews annually. The bank had not provided for independent testing of the BSA program. This
deficiency was noted in a prior examination conducted in 1997 and remains uncorrected as of
this examination. During the examination, bank management appointed an employee to perform
independent testing of the BSA program.”

Supervisory Action:
The 1997 ROE prepared by the FDIC detailed three apparent violations with a modest level of
frequency. These apparent violations were not considered systemic, and given satisfactory
management, with a strong history of responding to supervisory concerns, no enforcement action
was warranted. Due to the lack of systemic violations and management’s willingness to address
supervisory concerns, no follow-up between examinations was necessary.

In 1997, the RO transmittal letter to the bank asked for follow-up on all regulatory concerns,
including BSA-related deficiencies. A few weeks later in 1997, the bank’s chairman and chief
executive officer responded to the examination findings. The chairman indicated that the bank
had strengthened the audit and review procedures to improve the BSA compliance program. He
further indicated that personnel are better trained and knowledgeable of BSA compliance, and he
also filed corrected CTRs.




                                                       113
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

The 2000 FDIC ROE cited violations of Part 103 for failure to provide all required information
on the CTR and Section 326.8 for failure to have independent testing. The violations pertaining
to Part 103 were not repeat violations. A transmittal letter was sent from the RO in 2000, and the
bank was instructed to correct the apparent BSA-related violations. The transmittal letter also
required the bank’s response to the ROE to include action taken to correct BSA-related
weaknesses. Approximately a month later, the bank’s president responded to the RO, indicating
the BSA deficiencies had been corrected and independent testing was being performed. Given
the risk profile and outstanding rating of the institution, a BSA visitation to ensure correction
was not necessary.

The 2002 FDIC ROE detailed a generally adequate BSA compliance program. While the BSA
training was considered adequate, the ROE noted a minor deficiency, in that there was lax
documentation of the employee training. The adequacy of employee training is evidenced by the
correction of prior examination violations and no further BSA-related violations. The president
indicated that future training would be better documented. There were no material weaknesses
in the BSA compliance program and no apparent BSA-related violations were cited.
Consequently, there was no need for supervisory action. It should be noted that during the 2002
examination, it was determined that there were no reportable transactions since 2001. The
overall improvement in this bank’s BSA compliance supports no enforcement actions.

Bank Profile:
The bank is a $26-$50 million institution with one office located in the Southeast. The
population of the county as reported in 2000 was approximately 30,000. The money- laundering
risk profile is low. The trade area is rural, with an agrarian-based economy. The 2002 FDIC
ROE work papers reflected a low level of CTR filings, with no currency transaction greater than
$10,000 for approximately 10 months prior to the examination. The 2002 work papers indicate
the level of CTRs had declined between the 2000 and 2002 examinations, as a result of a large
customer closing its deposit account. Bank management has been highly rated since 1982.

Assessment of Follow-up Action:
For the 1997 examination, supervisory action consisted of sending a transmittal letter within 42
days of the examination start date requesting bank management to address the deficiencies cited
in the ROE. Supervisory action was completed within 73 days of the examination start date
upon receiving confirmation from bank management that the violations were corrected.
Adequate supervisory action was taken as management corrected violations during the normal
course of business.

For the 2000 examination, supervisory action consisted of sending a transmittal letter to the bank
requesting corrective action. Supervisory action began within 48 days of the examination start




                                                     114
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

date and was completed within 101 days of the examination start date upon receiving
confirmation from bank management that the violations were corrected. Supervisory action was
adequate as the violations were corrected during the normal course of business.

Institution # 30 (“inactive”)                                                    Low BSA Risk

    Date           Total            Rating                     BSA Violations (#)
                   Assets
                 ($ Million)
     2000         $151 - $200     Highly Rated   NA
     1999          $51 - $100     Highly Rated   None
     1998           $26 - $50     Highly Rated   NA
     1997           $26 - $50     Highly Rated   (6)-Identification method/103.28;
                                                 (1)-Improper exemption or limit/103.22(b)(1);
                                                 (1)-Exemption Form/103.22(d);
                                                 (1)-Record of Exemption/ 103.22(f);
                                                 (1)-Instrument Log/103.29(a)(1)
 State does not perform BSA examinations or review prior BSA violations.

OIG Concerns:
Length of time between follow up on violations cited at the 1997 examination was between 25-
36 months.

Supervisory Action:
The 1997 FDIC ROE cited numerous violations of Part 103, specifically pertaining to
exemptions, required information for completion of CTRs, and monetary log data.

In 1997, the RO sent the bank a transmittal letter requesting that management provide a written
response within 45 days, detailing corrective actions to eliminate deficiencies cited within the
ROE. Bank management responded one month later stating that additional training would be
provided and audit coverage of the BSA compliance program would be completed.

Given the risk profile of the institution and the outstanding ratings, a BSA visitation to ensure
correction was not necessary.

The 1999 ROE revealed no weaknesses, material or otherwise, in the BSA compliance program.
The examiner-in-charge noted in the ROE that the operating procedures for managing the BSA
program had improved since the last FDIC examination.




                                                       115
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Bank Profile:
Bank is INACTIVE. This institution resulted from the merger of two institutions in 2000, with
the charter of the first bank being dissolved. The surviving institution changed its name to
Institution #30 and relocated its main office. This institution subsequently merged into another
institution in 2001. The last FDIC ROE was completed in 1999.

The money-laundering risk at this institution prior to its merger was low. The customer base was
local and appeared well known by bank personnel. Nothing in the ROEs indicates any unusual
or suspect transactions. The last two FDIC ROEs rated management highly. Management has
been highly rated since 1982.

Assessment of Follow-up Action:
Supervisory action was taken by sending a transmittal letter requesting bank management to
eliminate deficiencies cited in the ROE. Supervisory action was taken within 33 days of the
examination start date and was completed upon receiving a satisfactory response from
management within 81 days from the start of the examination. Adequate supervisory action was
taken given that the bank corrected the apparent violations during normal course of supervision.

Institution # 33                                                                  Low BSA Risk

    Date           Total              Rating                     BSA Violations (#)
                   Assets
                 ($ Million)
     2002           $151 - $200   Highly Rated NA
     2001           $126 - $150   Highly Rated (1)- Independent testing/326.8(c)(2)
     1999           $126 - $150   Highly Rated NA
     1998           $126 - $150   Highly Rated None
 State does include BSA examination procedures within the scope of its regular examinations.

OIG Concern:
Follow-up did not occur within 12 months on violations and concerns noted in FDIC ROE dated
in 2001.

Supervisory Action:
The 2001 FDIC ROE cited violations of Section 326.8 for a lack of independent testing of the
BSA compliance program. Violation occurred because audit of the program was being
conducted by the bank’s BSA officer, thereby inhibiting the independence of the review. The
violation was not a repeat from prior examinations and did not result in a formal action against




                                                        116
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

the bank. A letter from the chairman of the board and president of the bank, dated two months
later in 2001, in response to the examination findings, stated that the infraction had been
corrected by separating the BSA officer from the audit function. To date, a follow-up
examination has not been conducted by the FDIC. Since the last FDIC examination, there have
been two independent reviews of BSA by the bank (2002 and 2003).

Bank Profile:
Bank is a $151-$200 million institution serving rural communities of less than 7,000 residents in
the Mid-Atlantic Region. Bank has been highly rated over the last 10 years. Bank management
has also been highly rated since 1994, which includes the last three FDIC examinations. Bank is
financially strong and has good management. The overall BSA program is adequate and the
violation was considered minor. The bank committed to correcting the infraction and responded
to the RO within 90 days of the date of the FDIC ROE.

Assessment of Follow-up Action:
In the transmittal letter sent to the bank by the RO, accompanying the FDIC ROE, management
was asked to provide a written response to examination criticisms. Bank management provided
a written response to the RO in 2001, stating that corrective action had been implemented. This
letter was sent to the RO within 90 days after the examination date.




                                                     117
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Institution # 34                                                                 Low BSA Risk

    Date           Total             Rating                     BSA Violations (#)
                   Assets
                 ($ Million)
     2003           $250 - $500      Highly Rated NA
     2002           $250 - $500      Highly Rated (11)- Exempt filing/103.22(d)*
     2001           $250 - $500      Highly Rated NA
     2000           $250 - $500      Highly Rated None
     1999           $250 - $500      Highly Rated NA
     1998           $250 - $500      Highly Rated None
 *violation was not cited in ROE, although code 6604 was entered into BSA data entry form for
 examination. Comments contained in confidential section of ROE.
 State does include BSA examination procedures within the scope of its regular examinations.

OIG Concern:
Follow-up did not occur within 12 months on violations and concerns noted in FDIC ROE dated
in 2002.

Supervisory Action:
The 2002 FDIC ROE reported violations of Part 103 for failure to properly file CTR exemption
forms for customers included on its exemption list. The violations cited were not repeat
violations, and no formal action was taken against the bank for the violations. The bank filed the
exemption forms during the examination in 2002, which corrected the infractions.

Bank Profile:
Bank is a $250-$500 million institution on the East Coast. Generally, the bank’s branches serve
a rural community of less than 10,000 residents. The bank has been highly rated since 1994.
Bank management has also been highly rated 1995, which includes the last four FDIC
examinations. Bank is financially strong with good management. Violations do not indicate
systemic risk in BSA compliance program. Overall program is considered adequate. Neither the
bank nor its customer base has been determined to be involved in high-risk activities.

Assessment of Follow-up Action:
The examination started in 2002, and concluded one month later. Bank management filed
exemptions prior to the conclusion of the examination. Copies were provided to examiners and
retained in examination work papers. No additional follow-up supervisory action was necessary,
as bank management corrected the deficiencies during the examination. This deficiency was not
repeated at the subsequent examination.




                                                       118
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Institution # 37                                                                  Low BSA Risk

   Date         Total           Rating                          BSA Violations (#)
                Assets
              ($ Million)
   2003           $0 - $10     Highly Rated  NA
   2002           $0 - $10     Highly Rated  (1)- Independent testing/326.8(c)(2); (1)- Inadequate
                                                  training/326.(c)(4);
                                             (1)- Exempt designation/103.22(d)(11)(iii);
                                             (1)- Exempt bank/103.22(d)(3)(ii);
                                             (1)- Exempt review/103.22(d)(4)
    2000           $0 - $10   Highly Rated NA
    1999           $0 - $10   Highly Rated (1)- Independent testing/326.8(c)(2); (1)- Inadequate
                                                  training/326.8(c)(4);
                                             (1)- Identity record (non-customer)/103.29(A)(2)(i)(ii);
                                             (1)- Identity record (customer)/103.29(A)(1)(i)(ii);
                                             (1)- Exemption form/103.22(d)
    1998           $0 - $10   Highly Rated NA
    1997           $0 - $10   Highly Rated (2)- Biennial exemptions/103.22(h)(3)(ii);
                                             (2)- Exemption list/103.22(f);
                                             (1)- Independent testing/326.8(c)(2);
                                             (1)- Inadequate training/326.8(c)(4);
                                             (1)- Exempt designation/103.22(d)
 State performs limited BSA examinations and reviews prior BSA violations.

OIG Concern:
During examinations conducted in 1997, 1999, and 2002, the bank was cited for violations
related to the lack of independent testing of BSA compliance and failure to provide adequate
BSA training. Corrective action was not taken until after the 2002 examination. The FDIC
issued a Cease and Desist Order in 2002, more than 60 months (5 years) after the violations were
initially cited. Accordingly, the institution operated for more than 5 years without complying
with the minimum requirements of a BSA compliance program as required by Section 326.8.

Supervisory Action:
The FDIC cited repeat BSA-related apparent violations in its 1999 and 2002 ROEs. The repeat
violations pertain to the bank’s BSA training program and independent testing for BSA
compliance. However, there were no repeat violations cited for other BSA compliance
requirements, indicating that the bank’s BSA compliance program was effective in practice.

1997 Examination
The 1997 FDIC ROE cited the following apparent violations: Section 326.8(c)(2), which
requires a system of independent testing for compliance with the BSA; and Section 326.8(c)(4),




                                                        119
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

which requires training of appropriate personnel. The 1997 Summary Analysis of Examination
Report (SAER) comment stated, “The violations occurred due to management’s lack of
familiarity with the regulations.”

The 1999 FDIC ROE again cited apparent violations of the two above-referenced regulations.
Despite the repeat apparent violations, the FDIC pursued no supervisory action. The 1999 SAER
comment stated, “Management agreed to make corrections, and the examiner does not believe
that regulatory action is necessary.”

There were no other repeat BSA-related apparent violations cited, indicating that, despite the
bank’s lack of a formal employee-training program and the lack of independent BSA compliance
testing, that the bank’s BSA compliance program remained effective in practice.

The 2002 FDIC ROE again cited apparent violations of the two above-referenced regulations
(third consecutive examination). In 2002, the FDIC issued a formal enforcement action pursuant
to Section 8(s) of the FDI Act, specifically targeting the bank’s failure to comply with the BSA.

Examiners conducted visitations of the bank to review management’s progress in complying
with the Order mid-year 2002, and the following quarter in 2002. The Order was terminated a
few weeks later, following the 2002 visitation, which found the bank in compliance with BSA.
Given the bank’s compliance with the Cease and Desist Order, the bank is considered a low BSA
risk.

Bank management did not follow through as agreed in the 1999 and 2002 examinations; as a
result the RO issued a formal enforcement action addressing the repeat violations for an
inadequate testing of the BSA program and training of bank personnel. The bank has since
complied with the formal action which was subsequently terminated within three months of
issuance.

Bank Profile:
The bank is a $0-$10 million community bank in the West. Historically, the bank’s BSA-related
activities have been negligible. The bank has filed only twelve CTRs since 1997 (three in 1997,
two in 2001, three in 2002, and four in 2003). Management has been highly rated at every
examination conducted since the 1999 examination. Two examinations conducted in 1998 and
in 1997 indicate a management rating of moderate. The most recent examination of the
institution was in 2003 resulting in a high rating.


Assessment of Follow-up Action:




                                                     120
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

The DSC concurs in general with the OIG regarding the follow-up for this bank. A Cease and
Desist Order was issued in 2002 for the bank’s non-compliance with the BSA. The bank was
cited for repeated violations for lack of testing and training which dated back to 1997. While
bank management indicated their willingness to comply, action should have been taken prior to
the 2002 examination.




                                                     121
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Institution # 39                                                                 Low BSA Risk

   Date         Total          Rating                        BSA Violations (#)
                Assets
              ($ Million)
   2003          $26 - $50   Highly Rated    (1)- Independent testing/326.8(c)(2)
   2002          $26 - $50   Highly Rated    NA
   2001          $26 - $50   Highly Rated    (4)- Instrument log/103.29(a);
                                             (1)- Independent testing/326.8(c)(2)
    1999          $26 - $50 Highly Rated NA
    1998          $26 - $50 Highly Rated (1)- Independent testing/326.8(c)(2);
                                             (1)- BSA Officer/326.8(c)(3)
 State performs limited BSA examinations or reviews prior BSA violations.

OIG Concern:
During its examinations conducted in 1998, 2001, and 2003, the bank was cited for violations
related to lack of independent testing of BSA compliance. Corrective action was not taken until
2003, when the FDIC, state regulatory agency and the bank signed an MOU to correct BSA
violations, more than 60 months (5 years) without complying with the minimum requirements of
a BSA compliance program as required by Section 326.8.

Supervisory Action:
The violation cited in 1998 was corrected later that year. The bank’s BSA compliance did
relapse subsequent to the 1998 examination, as determined during the 2001 examination, but the
RO chose not to pursue an enforcement action given earlier corrections and management’s
promises of action. The FDIC’s 2001 examination again criticized the lack of independent
testing (and failure to obtain and retain information regarding the issuance of four cashiers
checks), but also confirmed that management did conduct independent testing in 1998 and
revised the bank’s BSA policies in response to the 1998 examination. However, there was a
failure to continue the independent testing in 1999 and 2000. In 2001, management again
promised corrective action and this time agreed to contact the bank’s external auditor to arrange
for ongoing independent audits of BSA compliance. Because of this commitment, the RO did
not pursue an enforcement action.

The state conducted an independent examination in 2002. The ROE addressed BSA compliance
and stated that, all [BSA] deficiencies have been corrected, with one minor exception. Based on
the examiner’s assessment of the bank’s deficiencies in the BSA program, the FDIC concluded
that enforcement action was not necessary at that time.




                                                       122
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


The FDIC’s 2003 ROE cited the lack of independent testing of BSA compliance. This time, the
RO did not accept management’s commitment to correct the deficiency without enforcement
action. A joint MOU with the state became effective in 2003, within 60 days of the date of the
examination. Compliance testing was required.

The Bank’s report of compliance with the MOU:

The bank’s progress report was received on time late 2003. The following is a summary of the
institution’s compliance with each of the provisions:

1.     Establish a program and conduct independent testing for compliance with BSA and 31
       Code of Fed. Regs., Section 103, within 60 days and annually thereafter: The board of
       directors reports compliance. The board adopted a new policy two months ago and a vice
       president, who is independent of the BSA recordkeeping function, conducted testing and
       reported to the board on last month. The vice president’s report indicates substantial
       compliance with the MOU, including BSA recordkeeping and reporting requirements.
       Technical deficiencies were noted in wire transfer records, CTRs, and CTR exemption
       records, but there were few of them and corrective action has been taken. The vice
       president gave a positive attestation to the overall integrity and effectiveness of
       management systems and controls over BSA. The bank purchased Internet-based BSA
       training programs and training has been conducted. A new BSA officer has designated
       who oversees continuing training. The bank has also engaged an independent firm, to
       conduct BSA compliance testing as part of the external audit for 2003.

2.     Provide a copy of the BSA compliance plan detailing the form and manner of any actions
       taken to secure compliance with the MOU within 90 days (2003): The required
       information was received in late 2003.

Management has achieved substantial compliance with the MOU, but one of the conditions is
ongoing in nature, and final determination for compliance with the MOU will be made by field
examiners onsite at the next full-scope examination or visitation.

Bank Profile:
The institution is a very small community bank ($26-$50 million) located in the West. Its BSA
activities are minimal. The bank was cited for lack of independent testing of BSA compliance –
not violations of the other key BSA compliance requirements. Management has been highly
rated throughout the audit period. The most recent examination of the institution was in 2003,
with a high rating.




                                                     123
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Assessment of Follow-up Action:
The examination team cited two violations at the 1998 examination which were partially
corrected before the 2001 examination. At this examination, the bank was cited again for a lack
of testing for BSA compliance. Bank management indicated that corrective action would be
taken and based upon management’s reputation for correcting previously cited violations and
deficiencies noted in the ROE, no enforcement action was necessary. As noted in the 2002 state
examination, all [BSA] deficiencies were corrected except for one exemption limit on a local
business. There was no reason to believe that bank management would not again correct the
violations cited in the examination. However, a 2003 examination indicated a violation for lack
of independent testing of the BSA program. A joint MOU was issued in 2003. The bank is
submitting progress reports which indicate testing of the BSA program is being performed.
Given management’s prior commitments to correct violations and implement recommendations,
the actions implemented by the RO were adequate.

Institution # 40                                                                  Low BSA Risk

    Date           Total          Rating                         BSA Violations (#)
                   Assets
                ($Million)
    2003        $251 - $500     Highly Rated     None
    2002        $251 - $500     Highly Rated     NA
    2001        $151 - $200     Highly Rated     None
    2000        $151 - $200     Highly Rated     NA
    2000        $126 - $150     Highly Rated     None
    1998        $101 - $125     Highly Rated     NA
    1997         $51 - $100     Highly Rated     (6)- Customer record (monetary log)/103.29(a)(1);
                                                 (4)- Late CTR filings/103.27(a);
                                                 (2)- Improper exemption or limit/103.22(b)(c);
                                                 (1)- CTR filing/103.22(a);
                                                 (1)- Identity record (non-customer)/103.29(a)(2)(i)(ii);
                                                 (1)- Exemption list/103.22(f)
 State performs BSA examinations.

OIG Concern:
FDIC ROE dated in 2003, cited several deficiencies in the bank’s BSA compliance program;
however, no violations were cited and no follow-up supervisory action was taken. OIG
determined FDIC response to violations cited at 1997 examination was adequate.

Supervisory Action:




                                                        124
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                 APPENDIX IX
                                 CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

In the 2003 ROE, minor recommendations were made to management and no follow-up action
was deemed necessary.

Technical violations of Part 103 were cited at the 1997 FDIC independent examination, but no
subsequent violations have been cited. ROEs subsequent to the 1997 examination consistently
indicate the bank has an adequate BSA program in place. The FDIC last examined the bank in
2003. The examiner-in-charge, who also reviewed BSA, concluded that the internal audit of
BSA is thorough, cash transaction volume is moderate, and the program is adequate. Minor
recommendations were provided to management, and no apparent violations were noted. It is for
these reasons that this institution is considered to have a low BSA risk profile.



Bank Profile:
The bank is a moderately-sized community bank ($251-$500 million) that engages in traditional
banking activities. Management has been highly rated at every examination conducted in the
1997 to 2003 time frame. The most recent examination of the institution was in 2003 with a high
rating.

Assessment of Follow-up Action:
Minor deficiencies were noted in BSA compliance program at the 2003 examination. However,
no violations were cited, and management committed to corrective action. No additional
supervisory follow-up action was necessary. Furthermore, violations from the 1997 examination
were corrected during the RO review process. The bank has not been cited for any violations
since that time. Adequate supervisory action was taken at the time of the violations.




                                                    125
                                 This Report Contains Confidential Information
                For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Institution # 41                                                                  Low BSA Risk

    Date           Total             Rating                      BSA Violations (#)
                  Assets
                ($ Million)
    2002              $0 - $10     Highly Rated  None
    2001              $0 - $10     Highly Rated  None
    2000              $0 - $10     Highly Rated  NA
    1999              $0 - $10     Highly Rated  (1)- Independent testing/326.8(c)(2);
                                                 (1)- Inadequate controls/326.8(c)(1)
     1998             $0 - $10  Highly Rated NA
     1997             $0 - $10  Highly Rated (1)- Inadequate controls/326.8(c)(1);
                                                 (1)- Inadequate training/326.8(c)(4)
 State does not perform BSA examinations but reviews prior BSA violations.

OIG Concern:
The OIG is concerned with the repeated violations of Section 326.8(c)(1) for failure to provide
for a system of internal controls to assure ongoing compliance and Section 326.8(c)(4) for failure
to provide training for appropriate personnel.

Supervisory Action:
At the 1997 examination the FDIC cited two BSA violations: failure to provide for a system of
internal controls to assure ongoing compliance; and failure to provide training for appropriate
personnel.

At the 1999 examination the FDIC again cited two BSA violations, one of which was a repeat
violation from the 1997 examination. The repeat violation was failure to comply with Section
326.8(c)(1). The second violation was failure to comply with Section 326.8(c)(2) and provide
for independent testing for compliance to be conducted by bank personnel or by an outside party.

FDIC staff discussed the BSA issues with management and the bank’s board following each
examination. The bank achieved partial correction following the 1997 examination, by
instituting BSA training. All BSA violations were corrected following the 1999 examination,
and no violations have been cited in subsequent examinations. For this small bank with limited
resources, and importantly, limited exposure to currency transactions, bank management’s
perception was that the regulatory requirements in this area did not fully apply to their
uncommon banking operation. The FDIC’s supervisory approach was effective. The FDIC
informed management and the board of the importance and applicability of the regulations and
guided the bank into full compliance.




                                                        126
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                     APPENDIX IX
                                     CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

Bank Profile:
The bank is a former thrift that converted to an industrial loan company charter in 1986. The
current owner is considered very conservative and has kept the bank operating in much the same
manner as it operated under the thrift charter. The bank has had little growth since 1986; total
assets as of quarter-end 2003, were $0-$10 million. In keeping with a traditional thrift operation,
the bank is primarily a real estate lender that portfolios the majority of its loans. For funding, the
bank uses small certificates of deposit and Federal Home Loan Bank lines of credit.
Significantly, the bank advertises as a non-cash bank and holds very few demand deposits. And
of the demand deposits held, a substantial portion may represent disbursed loan proceeds at any
given time. The bank operates out of a business office and has no teller stations and is
considered a low-BSA risk. Management has been highly rated in the three examinations
conducted in 2002, 2001 and 1998. Management was also moderately rated in the 1999 and
1997 examinations. The most recent examination of the institution was in 2002, with a high
rating.

Assessment of Follow-up Action:
The bank achieved partial correction following the 1997 examination by instituting BSA
training. All BSA violations were corrected following the 1999 examination, and no violations
have been cited in subsequent examinations. Follow-up was considered adequate for the size
and transactions conducted by the bank.


Institution removed from OIG sample
in January 2004                                                                   Low BSA Risk
    Date           Total              Rating                     BSA Violations (#)
                   Assets
                   ($Million)
     2003            Over $500    Highly Rated None
     2001            Over $500    Highly Rated (52)- CTR filing errors/103.27(d)
     2000            Over $500    Highly Rated None
     1999            Over $500    Highly Rated None
     1998           $251 - $500   Highly Rated None
     1997           $251 - $500   Highly Rated None
 State does not include BSA examination procedures within the scope of its regular examinations,
 but does conduct follow-up on BSA violations cited in prior examinations.

OIG Concern:
Follow-up did not occur within 12 months on violations and concerns cited in FDIC ROE dated
in 2001. Bank was subsequently (January 2004) eliminated by OIG from final report.




                                                        127
                                     This Report Contains Confidential Information
                    For Official Use Only                                   Restricted Information
                                                                                                    APPENDIX IX
                                    CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.


Supervisory Actions:
The 2001 ROE cited apparent violations of Part 103 for incorrectly filling out numerous CTRs.
Specifically, management failed to check boxes to indicate “multiple persons” and did not
provide information for customers “doing business as” within the appropriate areas on the forms.
Management committed to corrective action during the examination. These infractions were
considered to be technical in nature and did not result in any type of formal action. The state
conducted an examination in 2003 and determined that the institution had corrected the
deficiencies resulting in the violations cited at the FDIC examination. Although the state ROE
does not comment on BSA, a scope memorandum provided by the state indicates that corrective
action relating to prior BSA violations would be reviewed.

Although the OIG indicates that these violations are repeated from prior examinations, the region
asserts that prior to the 2001 examination there had not been any other violations cited in
previous ROEs of this bank through the OIG’s audit period.

Bank Profile:
Bank is over $500 million in total assets serving a small state, as well as the southern portion of
an adjoining state. The county reports a population of just over 200,000. Bank has been highly
rated since 1993. Bank management has been highly rated since 1997.

Assessment of Follow-up Action:
The apparent violations were technical in nature. The bank is financially sound with strong
management. Overall BSA compliance program is adequate and management committed to
corrective action. The RO did not pursue a formal response due to management’s commitment
during the examination to correct the deficiencies. The state followed up on the FDIC
examination findings with a review of prior violations (including BSA) within 15 months and did
not repeat the criticism in this area.

Institution removed from OIG sample
In January 2004                                                                  Low BSA Risk

  Date        Total           Rating                         BSA Violations (#)
              Assets
            ($ Million)
  1998        $51 - $100    Highly Rated     (1)- Written BSA Policy/326.8(b);
                                             (1)- Independent Testing/326.8(c)(2); (1)- BSA
                                             Officer/326.8(c)(3)
 Bank merged with another bank in 2000.




                                                       128
                                    This Report Contains Confidential Information
                   For Official Use Only                                   Restricted Information
                                                                                           APPENDIX IX
                           CORPORATION COMMENTS

Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.




                                              129
                           This Report Contains Confidential Information
          For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

OIG Concern:


Follow-up did not occur within 12 months on violation cited in the 1998 FDIC ROE. Bank was
subsequently (January 2004) eliminated by OIG from final report.

Supervisory Action:
The 1998 ROE cited apparent violations of Section 326.8 for failure to have a written BSA
program, lack of method for independent testing, and failure to designate a BSA Officer.
However, examiners deemed the procedures for BSA compliance to be satisfactory.
Management committed to corrective action during the examination. The bank merged with
another institution in 2000.

Although the OIG indicates that these violations are repeated from prior examinations, the region
asserts that prior to the 1998 examination there had not been any other violations cited in
previous ROEs of this bank through the OIG’s audit period.

Bank Profile:
Bank is INACTIVE. At the time of the last examination, the bank was a $51-$100 million
institution in a northeast state. The bank was highly rated at its last examination, a rating which
dates back to 1992. Bank management had been highly rated since 1983, which includes the last
five FDIC examinations.

Assessment of Follow-up Action:
The overall BSA compliance program is adequate; however, procedures were not condensed to
writing. Bank management was criticized during examination, but formal response was not
required from the institution due to a commitment to implement corrective action. The bank
merged with another institution prior to a subsequent examination.




                                                     130
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

CONCLUSION OF DSC SUPERVISORY APPROACH TO OIG-SAMPLED INSTITUTIONS

The DSC’s findings regarding the sampled institutions indicate that in the vast majority (38 of
41, or 92.7 percent) of instances, the DSC responded expeditiously while incorporating the
sufficient response time for bank management to correct identified problems. In serious cases
where bank management willfully neglected BSA rules or was unresponsive to regulatory
criticism and guidance, or when the DSC identified insider abuse, enforcement action was taken.
The assessment of the OIG’s sample confirms the DSC’s effective supervisory approach to the
BSA. There were three instances where the DSC could have acted more quickly; however,
resolution to the BSA concerns did occur.

Subsequent to questions raised by the OIG during the audit, the DSC’s Regional and Washington
offices undertook a detailed analysis of the OIG’s 41-bank sample. In 38 of the 41 cases, we
found the supervisory actions to be consistent with the problems identified and the risks posed by
the circumstances. In hindsight, the DSC found that three cases of supervisory actions could
have been deployed in a better manner. As a result, the lessons learned have been utilized to
improve our internal supervisory processes. The FDIC supervises a majority of small
institutions. These community-based institutions operate with simple manual and automated
systems. Therefore, it is not unusual that a sample of such institutions would yield apparent
violations of a technical nature without exposing the institutions’ BSA programs to increased
money laundering risk. Our small, community banks actually have a strong inherent deterrent to
money laundering since they operate in areas where bank management’s knowledge of
customers is high, making criminal action harder to disguise. In fact, of the 41 sample banks, 22,
or 54%, are very small banks with total assets of less than $80 Million, and seven more sample
banks fall in the under $150 Million range. Only two of the sample banks were larger than $1
Billion in total assets. The three institutions that the DSC identified where supervisory actions
could have been strengthened had total assets of $10 Million, $70 Million, and $187 Million.

Program problems that expose an institution to increased vulnerability to criminal activity
are, as necessary, aggressively addressed with formal actions. However, in the vast
majority of cases, an appropriate supervisory response does not include a formal action.
The FDIC believes our supervisory approach using technical guidance, moral suasion and
a gradual escalation of enforcement action is appropriate. Refer to Exhibit I for a legal
interpretation of formal actions for BSA that are authorized under Section 8(s) of the
Federal Deposit Insurance Act, 12 USC 1818(s).




                                                     131
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

      Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.

APPENDIX B: History of the BSA

The responsibility for the implementation of the BSA, including its recent amendments required
by the USA PATRIOT Act, rests with the Secretary of Department of the Treasury. The FDIC
has been charged [under Section 8(s) of the FDI Act] to prescribe regulations requiring insured
depository institutions to implement a BSA compliance program (Section 326.8 of FDIC Rules
and Regulations); review BSA compliance procedures when conducting examinations and
document deficiencies in the ROEs; and employ supervisory action when it has been determined
that an insured depository institution has failed to establish and maintain a BSA compliance
program or has failed to correct any previously reported problem with the BSA compliance
procedures. In addition, Section 31 CFR 103.56(e) requires the FDIC to periodically provide
specific violations of 31 CFR 103 as well as apparent violations of FDIC Rules and Regulations
Part 326 Subpart B to the Assistant Secretary of the Treasury.

On October 26, 1970, Congress passed the BSA which amended Title 31 of the United States
Code, Subtitle IV, Chapter 53, and Subchapter II. The purpose of this subchapter (except section
5315) is to require certain reports or records where they have a high degree of usefulness in
criminal, tax, or regulatory investigations or proceedings. The statute authorizes the Secretary of
the Treasury to prescribe filing procedures and designate financial institutions and transactions as
well as promulgate regulations to meet the requirements of the BSA. The implementing
regulations of the BSA are Treasury’s regulations Part 103 - Financial Recordkeeping and
Reporting of Currency and Foreign Transactions (31 CFR Part 103). Collectively, the Treasury
regulations and the BSA statute are commonly referred to by the banking industry as the BSA
rules.

Although the BSA has been in effect for over 30 years, its significance and priority escalated in
the wake of the September 11, 2001, terrorist attacks against the U.S. Shortly after this tragic
event, the USA PATRIOT Act of 2001 was passed. This Act expanded the anti-money
laundering provisions of the original law and brought the issue of money laundering to the
forefront, once again. BSA compliance and anti-money laundering programs are now one of the
highest priorities for the industry, regulators, and law enforcement authorities. Additionally, in
March 2003, Treasury established its Executive Office for Terrorist Financing and Financial
Crimes (EOTF/FC), the office that focuses on combating money laundering and terrorist
financing. After the USA PATRIOT Act was passed, the FinCEN was established as a formal
bureau of the Treasury. The focus of the BSA from a risk-management perspective is that an
institution’s failure to implement an adequate compliance program is punishable by monetary
fines that can be assessed by FinCEN. Additionally, the FDIC can initiate enforcement actions
against FDIC-supervised institutions and IAPs for serious and/or uncorrected problems with an
institution’s BSA compliance program.




                                                     132
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                  APPENDIX IX
                                  CORPORATION COMMENTS

       Internal Assessment of DSC’s Program to Evaluate Bank Compliance with the BSA.



BSA Legislative Changes

There have been many amendments made to the BSA statute through the years, which in turn
have required additions, deletions, and revisions to the parallel regulations of the Treasury as
well as the Federal Deposit Insurance Act. Some of the major amendments to the BSA are:

   •    Money Laundering Control Act (October 27, 1986) which criminalized money laundering
        and prohibited structuring transactions to avoid BSA reporting requirements.

   •    Annunzio-Wylie Money Laundering Suppression Act (October 28, 1992) which required
        SARs.

   •    Money Laundering Suppression Act (September 23, 1994) which reduced burden
        involved in the CTR exemption process.

   •    Money Laundering and Financial Crimes Strategy Act (October 30, 1998) which
        improved cooperation and coordination between regulators, law enforcement, and the
        financial service industry.

   •    United and Strengthening America by Providing Appropriate Tools to Restrict, Intercept,
        and Obstruct Terrorism Act (“USA PATRIOT ACT”) (October 26, 2001) which
        generally required additional due diligence on customers, accounts, and transactions to
        prevent money laundering and terrorist financing activity in domestic financial
        institutions.




                                                     133
                                  This Report Contains Confidential Information
                 For Official Use Only                                   Restricted Information
                                                                                                                                                   APPENDIX X

                                               MANAGEMENT RESPONSES TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of recommendations as of the date of report
issuance. The information in this table is based on management’s written response to our report and subsequent communication with management representatives.

                                                                                                                                                         Open
 Rec.                                                                         Expected              Monetary        Resolved:a   Dispositioned:b          or
Number         Corrective Action: Taken or Planned/Status                  Completion Date          Benefits        Yes or No      Yes or No            Closedc
    1       DSC agreed with this recommendation. The DSC will, in           March 30, 2005              $0             Yes             No                Open
            coordination with its current initiatives to revisit and
            update FDIC guidance and with inter-agency cooperation,
            address formal supervisory actions, follow-up actions,
            citation of apparent violations and record keeping, and
            backfiling of CTRs and will work with the FDIC Legal
            Division to clarify, and update as necessary, enforcement
            action guidance on BSA.
    2       DSC agreed with the recommendation. The DSC                    December 31, 2004            $0             Yes             No                Open
            representative to the Financial Crimes Enforcement
            Network’s Bank Secrecy Act Advisory Group will
            introduce the question raised on referral guidelines at an
            upcoming meeting.
    3       DSC agreed with this recommendation and stated that it is       March 30, 2005              $0             Yes             No                Open
            focused on strengthening processes to address variations in
            the state examination coverage of BSA and believes this
            action will increase the consistency and reliability of the
            follow-up to its BSA examinations.
a
Resolved –(1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
          (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
          (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
              management provides an amount.
b
 Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
Once the OIG dispositions the recommendation, it can then be closed.




                                                                                  134
                                                               This Report Contains Confidential Information
                                              For Official Use Only                                   Restricted Information
